<html>
<title> - PORT SECURITY</title>
<body><pre>[Senate Hearing 107-593]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-593
 
                             PORT SECURITY
=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE


                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                       APRIL 4, 2002--SEATTLE, WA

                               __________

        Printed for the use of the Committees on Appropriations




 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate








                       U. S. GOVERNMENT PRINTING OFFICE
81-047                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




                                 ______
                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             TED STEVENS, Alaska
ERNEST F. HOLLINGS, South Carolina   THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            ARLEN SPECTER, Pennsylvania
TOM HARKIN, Iowa                     PETE V. DOMENICI, New Mexico
BARBARA A. MIKULSKI, Maryland        CHRISTOPHER S. BOND, Missouri
HARRY REID, Nevada                   MITCH McCONNELL, Kentucky
HERB KOHL, Wisconsin                 CONRAD BURNS, Montana
PATTY MURRAY, Washington             RICHARD C. SHELBY, Alabama
BYRON L. DORGAN, North Dakota        JUDD GREGG, New Hampshire
DIANNE FEINSTEIN, California         ROBERT F. BENNETT, Utah
RICHARD J. DURBIN, Illinois          BEN NIGHTHORSE CAMPBELL, Colorado
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              MIKE DeWINE, Ohio
                  Terrence E. Sauvain, Staff Director
                 Charles Kieffer, Deputy Staff Director
               Steven J. Cortese, Minority Staff Director
            Lisa Sutherland, Minority Deputy Staff Director
                                 ------                                

          Subcommittee on Transportation and Related Agencies

                   PATTY MURRAY, Washington, Chairman
ROBERT C. BYRD, West Virginia        RICHARD C. SHELBY, Alabama
BARBARA A. MIKULSKI, Maryland        ARLEN SPECTER, Pennsylvania
HARRY REID, Nevada                   CHRISTOPHER S. BOND, Missouri
HERB KOHL, Wisconsin                 ROBERT F. BENNETT, Utah
RICHARD J. DURBIN, Illinois          BEN NIGHTHORSE CAMPBELL, Colorado
PATRICK J. LEAHY, Vermont            KAY BAILEY HUTCHISON, Texas
                                     TED STEVENS, Alaska
                                       (ex officio)

                           Professional Staff

                              Peter Rogoff
                             Kate Hallahan
                        Wally Burnett (Minority)
                        Paul Doerrer (Minority)

                         Administrative Support

                               Angela Lee





                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening statement of Senator Patty Murray........................     1
Statement of Rear Admiral Erroll Brown, Commander, 13th Coast 
  Guard District, U.S. Coast Guard, Department of Transportation.     3
Captain Michael Moore, Port of Puget Sound, Washington, U.S. 
  Coast Guard, Department of Transportation......................     3
Prepared statement of Rear Admiral Erroll M. Brown...............     5
Statement of Rear Admiral Vinson E. Smith, Commander, Navy Region 
  Northwest......................................................     8
    Prepared statement...........................................    10
Navy regional security actions following 11 September............    11
Progress on near term issues.....................................    11
In the long term.................................................    12
Statement of Robert S. Coleman, Jr., Seattle District Director, 
  Immigration and Naturalization Service, Department of Justice..    12
    Prepared statement...........................................    14
Seattle District overview........................................    12
September 11, 2001, the INS role.................................    13
Cooperating with other agencies..................................    13
Seattle District overview........................................    15
September 11, 2001, the INS role.................................    15
Cooperation with other agencies..................................    15
Statement of Thomas Hardy, Director, Northwest Great Plains, U.S. 
  Customs Service, Department of the Treasury....................    16
    Prepared statement...........................................    18
Statement of Michael Thorne, CEO, Washington State Ferry Service.    20
    Prepared statement...........................................    22
Coast Guard's traditional missions...............................    22
Container security...............................................    23
Screening ship's crew members....................................    24
International cooperation........................................    24
Naval force protection...........................................    26
Statement of Andrea Riniker, Executive Director, Port of Tacoma, 
  Washington.....................................................    33
Statement of Steve Sewell, Deputy Chief Executive Officer, Port 
  of Seattle, Washington.........................................    35
Statement of Charles Wellins, Director, Pacific Northwest Region, 
  Maersk, Inc....................................................    37
Statement of Richard Softye, Vice President, Compliance Programs, 
  Holland America Line...........................................    40
    Prepared statement...........................................    41
Statement of Del Bates, President, International Longshore and 
  Warehouse Union, Local 19......................................    44
    Prepared statement...........................................    45
Postion Paper on Seaport Security for Container Terminal 
  Facilities.....................................................    47
Definitions......................................................    48
Container terminal facility access...............................    48
Credentialing standards..........................................    48
Credentialing system requirements................................    49
Obtaining credentials............................................    49
Containerized cargo security.....................................    49
Local security plans.............................................    50
Funding..........................................................    50
Government efficiency............................................    50
Limitations on liability.........................................    50
Statement of Jon Hemingway, Chief Executive Officer, Stevedoring 
  Services of America............................................    50
    Prepared statement...........................................    52
Additional submitted statements..................................    61
Prepared statement of Chief Gil Kerlikowske, Seattle Police 
  Department, City of Seattle....................................    61
Scope of problem.................................................    61
Services provided................................................    61
Letter from Fred Felleman, MSc., NW Director, Ocean Advocates....    63
Letter from Dale Jensen, Program Manager, Spill Prevention, 
  Preparedness, and Response Program, Department of Ecology, 
  State of Washington............................................    66
Federal Port Security Grant Application, April 2002..............    66
Prepared statement of the Maritime Trades Department, AFL-CIO, 
  Puget Sound Ports Council......................................    69
Prepared statement of the National Bureau of Asian Research (NBR)    71


                             PORT SECURITY

                              ----------                              


                        THURSDAY, APRIL 4, 2002

                               U.S. Senate,
                    Subcommittee on Transportation,
                               Committee on Appropriations,
                                               Seattle, Washington.
    The subcommittee met at 2 p.m., in the Commission Chambers, 
Port of Seattle, Pier 69, Hon. Patty Murray (chairman) 
presiding.
    Present: Senator Murray.


               opening statement of senator patty murray


    Senator Murray. Good afternoon. This subcommittee will come 
to order, and I appreciate everybody being here today, and I 
apologize. Although I thank the port for allowing us to use the 
facility, I apologize that there is not a window view and that 
we are all inside today, but do not blame me. We will thank the 
port for allowing us to be here, but we wish we had a window 
for such a gorgeous day.
    The tragic events of September 11 have taught us a lot 
about what we need to do to make our country safer and to 
protect our lives and liberties. At the Federal level we have 
been working every day to find our vulnerabilities and to 
eliminate them.
    Today we are going to explore the unique security concerns 
facing our ports. I am pleased that we have many distinguished 
experts from the port community and government agencies to 
share their insights with us today. I have been working on port 
security for several months now, and last year I worked with 
the Navy and the Coast Guard to obtain additional ships, boats 
and people to patrol and protect Puget Sound.
    As part of last year's defense supplemental appropriations 
bill, I added funds to locate a new marine safety and security 
team here in Puget Sound. I am pleased to report to you today 
that that unit will be commissioned this summer here. I also 
wrote to Admiral Fargo, Commander-in-Chief of the Pacific 
Fleet, and got him to agree to provide additional boats to 
protect our naval facilities. In addition, I have used my 
position as chair of this subcommittee to review our 
government's security efforts. I have held hearings to examine 
the proposed budgets for the Coast Guard and for the new 
Transportation Security Administration. Two weeks ago in the 
Senate, I held a hearing on cargo security.
    Today's hearing will examine the unique challenges we face 
in improving port security in our region. What we learn here 
today will help inform the debate that is taking place in 
Washington, D.C. and will help me in my oversight 
responsibilities.
    As I begin this hearing, I want to emphasize the critical 
role that our ports play. Simply put, they are the life blood 
of our region's economy. Our ports move billions of dollars of 
goods each day and generate tens of thousands of good-paying 
jobs that help support families throughout our State. Their 
economic impact affects virtually every interest in our State 
from mom-and-pop businesses like restaurants and gas stations 
to our major manufacturing firms like Boeing.
    Our ports have remained competitive because of the hard 
work of the entire port community, the shipping industry, their 
workers and the Federal and State agencies that oversee port 
activities. Together they have ensured that goods move rapidly 
to meet the ever-increasing demands of customers both in the 
United States and in Asia.
    In the wake of the events of September 11, our port 
community and government agencies must now rise to yet another 
challenge, the challenge of eliminating security 
vulnerabilities in our ports. Our response must be 
comprehensive, and it must not endanger the progress we have 
made in improving productivity and efficiency. All partners in 
the port community will have to step up and take responsibility 
if we are to eliminate the weaknesses and links in our security 
regimen without pushing cargo and jobs to other ports and 
originations.
    In the Puget Sound area we have to tackle some unique 
security challenges. 1.8 million containers pass through this 
region each year. We have important Department of Defense 
installations that share our waterfront, and we have the 
largest ferry system in the United States. Our solutions will 
have to take those unique factors into account.
    We know a great deal about the number of containers that 
enter Puget Sound, and we know a great deal about how to move 
these containers efficiently, but what we do not know as much 
about is who packed those containers, and we do not know as 
much about what is inside them. Some of the things that we do 
know are disturbing. We know that a certain number of 
containers that pass through our ports each year originate in 
countries that have known terrorist activity, and we know that 
more than 90 percent of the containers that enter our ports are 
never inspected.
    At same time, we know that subjecting a much higher 
percentage of containers to physical inspection could seriously 
hamper the efficiency of the port.
    So it is both urgent and essential that we address new 
solutions to improving the security of our ports. Those 
solutions will require new burdens that will have to be shared 
by all partners in the port community, Federal Government, 
State Government, shippers, operators, shipping companies, and 
all the people that work in and around the port community each 
day. We need to remember that intelligence and communication 
are critical to any effort to improve security. Intelligence 
and communication must flow from the bottom up, not just from 
the top down. The longshore workers, the operator engineers, 
the electrical workers and all the other members of the marine 
labor community are the eyes and ears that monitor what moves 
into our ports everyday. At the same time leadership must come 
from our Federal intelligence agencies and the Coast Guard in 
determining which ships and which containers require added 
scrutiny.
    Just as our partners will have to share the burden of 
improving security, I am sure that all partners will also have 
to share the costs. How we split the costs is a critical issue 
that the Bush Administration and this Subcommittee will have to 
address.
    In this regard, I am very concerned about the 
Administration's budget for the upcoming fiscal year, for the 
Coast Guard. I am happy to say the Administration has requested 
a significant increase in funding to address enhanced readiness 
to tackle the port readiness challenge. Unfortunately, as we 
uncovered in a hearing earlier this year, the Administration's 
budget assumes that the Coast Guard's increased work on port 
security will come at the expense of other critically important 
missions such as Marine Environmental Protection and Fisheries 
Enforcement.
    I am also disturbed by how the Administration's budget 
handles direct grants for port security. The Administration's 
budget zeros out funding for direct security grants to our 
Nation's ports.
    Last year we provided almost $100 million to help ports 
meet those security needs, and at the time, we envisioned it as 
a down payment, an initial down payment. Now the Administration 
is asking us to abandon that program.
    So I hope our Subcommittee can engage this Administration 
in a more productive dialogue on how we should allocate, not 
just the responsibilities, but the resources that will be 
necessary to improve the security of our ports, both here in 
Puget Sound and across the Nation.
    It is clear that we have some critical issues to discuss 
today. So I again want to thank all of our witnesses and 
everyone else who has come here today to help improve our 
security and maintain the critical economic benefits that our 
ports provide.
    We have many witnesses who we are going to be hearing from 
today, so I want to ask all of the witnesses to limit their 
statements to 5 minutes, so that we can get through all of 
them, and I want all of the witnesses to know that their full 
written statements will be included in the record for the 
Senate, and I want the public to know that we will leave the 
record open for any individual who would like to submit written 
testimony on this topic.
    Senator Murray. With that, we will begin, and I would like 
to first recognize Rear Admiral Erroll Brown, who is our Coast 
Guard District Commander for the Pacific Northwest.
STATEMENT OF REAR ADMIRAL ERROLL BROWN, COMMANDER, 13TH 
            COAST GUARD DISTRICT, U.S. COAST GUARD, 
            DEPARTMENT OF TRANSPORTATION
ACCOMPANIED BY CAPTAIN MICHAEL MOORE, PORT OF PUGET SOUND, WASHINGTON, 
            U.S. COAST GUARD, DEPARTMENT OF TRANSPORTATION

    Admiral Brown. Good afternoon, Madame Chairman. As 
Commander of the 13th Coast Guard District, I am pleased to 
discuss the Coast Guard's efforts to improve port security here 
in the Pacific Northwest.
    Thank you for your support of last year's and last fall's 
supplemental. It provided operational capability to carry out 
our current homeland security activity and continue our most 
important and traditional missions. I also ask for your 
continued support for passage of the Administration's second 
supplemental request and your leadership in approving the 
fiscal year 2003 budget request.
    In my written statement and in my statements today, you 
will hear two recurrent themes, one is based upon the 
ubiquitous threat we face. It requires an unprecedented 
cooperation among all elements. As stated otherwise, it is an 
all-hands war. The dual drivers of global competitiveness and 
of global commerce and economic competitiveness demand that we 
implement uniform security standards, while the uniqueness of 
our ports argues for tailorable applications. So we have a 
uniform over-structure for our unique ports mean that we have 
to do things differently in different ports.
    The Pacific Northwest waterways are critical gateways to 
the global economy. The Marine Transportation System in this 
region contributes substantially to the Nation's economic 
growth, stability security and our citizens' quality of life. 
Our vast geography and proximity to Canada presents unique 
challenges for this region. From the open ocean, it is 123 
miles to Seattle and 147 miles to Tacoma, which requires 
significantly longer transit times than most other ports. 
Additionally, Washington State and Canada share a 150-mile 
international maritime border.
    Following the September 11 attacks, we took immediate steps 
to build upon an existing robust safety regime. Advance vessel 
arrival notices were extended to 96 hours and included crew and 
passenger lists to help us identify and screen high risk 
vessels. We significantly increased safety and security 
boarding of vessels. Higher risk vessels have either been sea 
marshalled through United States waters, boarded and inspected 
at sea or provided United States Coast Guard vessel escorts. 
Around-the-clock vessel harbor patrols were conducted, while 
vehicular patrols of waterfront facilities were also conducted.
    Jointly, with Customs, we have inspected over 7,000 
containers, which represents a quadrupling of the number of 
containers typically inspected each year. To meet our security 
oversight responsibilities, we conducted vulnerability 
assessments to best focus our limited responses. Equally 
important was our vigorous outreach at multiple levels to 
improve our intelligence, information and field operational 
effectiveness.
    The greatest challenges we face are the potential threats 
posed by vessel crews, passengers and dangerous cargo. 
Containerization poses a major threat for smuggling drugs, 
terrorists and potentially weapons of mass destruction. I 
believe it is therefore important and more effective that 
vessels be screened at their point of origin prior to departure 
en route to the United States ports. In the interim, we must 
rely upon our existing screening capabilities via the advance 
notice of arrival requirement, our information networks, and to 
jointly operate a United States/Canadian cooperative Vessel 
Traffic System. All these are critical parts of our maritime 
domain awareness capability.
    We continue to work closely with port authorities, shipping 
companies, terminal operators, the Washington State ferries as 
well as trade and labor associations to enhance security. 
Currently, using a vulnerability matrix, we independently 
assessed facility security, and then conducted surveys with 
terminal operators to identify and alleviate shore-side 
security faults. Captain Mike Moore, the Coast Guard Captain of 
the Port, Puget Sound, has in, collaboration with port 
authorities, law enforcement and other stakeholders, 
established 11 separate Port Security Committees in addition to 
the existing Harbor Safety Committee.
    Even before the 9/11 attacks, we were a partner with the 
Navy to bolster the protection of strategic assets in this 
region. We have now incorporated liaison personnel into our 
command center operations to ensure appropriate coordination 
and, of course, as you recall from your recent visit and joint 
agency briefs, we continue to work closely with Customs and INS 
to better target vessels and containers for inspection.
    In conclusion, the Coast Guard of the Pacific Northwest is 
an integral component of our Nation's homeland security 
efforts, and we are a principal enforcement agency for our 
maritime borders. We must nurture existing relationships with 
all of our stakeholders including each of the agencies 
represented on your panels today. The security of the multiple 
ports of Puget Sound, particularly the ports of Seattle and 
Tacoma has improved in the months following 9/11, but there 
remains much to be done. In the maritime arena, we must set 
standards and provide the oversight necessary to elevate the 
security regimes of our ports and those who move people, ships 
and cargo. Through our very effective and cooperative local 
efforts, we will continue to make maritime security 
improvements. These must be tailored to address our unique port 
environment and remain consistent where appropriate with other 
ports as the border, international and national security 
policies are formulated and implemented.
    Thank you for your continuing support of our Coast Guard.
    [The statement follows:]

           Prepared Statement of Rear Admiral Erroll M. Brown

    Good afternoon Madam Chairman and distinguished members. My name is 
Rear Admiral Erroll M. Brown and I am Commander of the Thirteenth Coast 
Guard District headquartered in Seattle, Washington. It is my pleasure 
to appear before you today to discuss the Coast Guard's role in cargo 
and port security. I'd like to take this opportunity to thank you for 
your support of last fall's supplemental--it restored operational 
capability that enabled us to carry out Homeland Security activities 
and allowed us to return to traditional missions. I'd like to also ask 
your full support and quick passage of the Administration's second 
supplemental request and fiscal year 2003 budget request.
    Protecting America from terrorist threats requires constant 
vigilance across every mode of transportation: air, land, and sea. The 
agencies within the Department of Transportation, including the U.S. 
Coast Guard, Federal Aviation Administration, Federal Highway 
Administration, Federal Railroad Administration, Transportation 
Security Administration, and the Maritime Administration (MARAD), touch 
all three modes of transportation and are cooperatively linked. This is 
especially true of the maritime mode. Ensuring robust ports, waterways, 
and coastal security is a national priority and an intermodal 
challenge, with impacts in America's heartland communities just as 
directly as the U.S. seaport cities where cargo and passenger vessels 
arrive and depart daily. The United States has more than 1,000 harbor 
channels, 25,000 miles of inland, intracoastal and coastal waterways, 
serving 361 ports containing more than 3,700 passenger and cargo 
terminals. This maritime commerce infrastructure, known as the U.S. 
Marine Transportation System, or MTS, has long been a Department of 
Transportation priority. The U.S. MTS handles more than two billion 
tons of freight, three billion tons of oil, transports more than 134 
million passengers by ferry, and entertains more than seven million 
cruise ship passengers each year. The vast majority of the cargo 
handled by this system is immediately loaded onto or has just been 
unloaded from railcars and truckbeds, making the borders of the U.S. 
seaport network especially abstract and vulnerable, with strong, 
numerous and varied linkages direct to our nation's rail and highway 
systems.
Unique Challenges of Pacific Northwest Port Security
    The waterways of the Pacific Northwest are critically important 
gateways to the global economy, yet they are among the most vulnerable. 
The marine transportation system in this region contributes 
substantially to the economic growth and stability of our nation, the 
quality of life of our citizens and our nation's security. The Pacific 
Northwest is a gateway to Asia. Over 1.8 million containers move 
through the combined ports of Seattle-Tacoma each year making it the 
third largest container cargo complex in the United States. Annually, 
over 12 billion gallons of oil move through the Strait of Juan de Fuca 
to four major refineries that provide most of the petroleum products 
used in the Pacific Northwest. Over 600,000 recreational boaters with 
250,000 registered recreational boats enjoy the waters in and around 
Washington State. The Washington State Ferry System transports over 25 
million passengers and 11 million vehicles on about 150,000 transits a 
year and is the largest ferry system in the U.S. Our growing cruise 
industry, with over 230,000 passengers last year, is forecast to triple 
in volume over the next few years. In addition, the Puget Sound is home 
to one of the largest concentrations of U.S. Naval Forces in the 
country. By all forecasts, use of these waterways for national defense, 
commerce, fishers, commuters, travelers, and recreation will continue 
to grow. Protecting our marine transportation system and critical 
infrastructure including our ports and the cargo they convey from 
terrorist activities is one of our highest priorities.
    Compared to other U.S. ports, the distances and geography of this 
region are significant. From the open ocean, it is 123 miles to Seattle 
and 147 miles to Tacoma each direction, which equates to one-way 
transit times of six to ten hours. Washington State and Canada share 
approximately 150 nautical miles of maritime border accessible to 
anyone with a waterborne craft ranging from a jet ski to a commercial 
ship, complicating monitoring and enforcement of maritime laws. With 
distances of 12 to less than three miles between Canada and the United 
States, the San Juan Islands present a major challenge for law 
enforcement officials providing an area where smugglers can quickly 
cross the maritime border with illegal currency, drugs, weapons, and 
migrants.
    Significant smuggling potential also exists in the Puget Sound area 
in the form of containerized shipments. The volume of all types of 
shipments in our ports is expected to increase 50 percent by 2010. 
Criminal exploitation of containerized shipments of goods poses a major 
threat for importation of Southeast Asian heroin and marijuana and 
South American drugs into the U.S. Seventy percent of all containers 
arriving at ports on the Puget Sound are destined for transshipment to 
destinations other than Washington. These containers are not inspected 
by any U.S. authority at their origin and it is not unusual for many of 
them to be bonded and not subject to customs inspections. Marine 
containerization offers traffickers a nearly unhindered, unmonitored 
mode for importation of illicit cargo. While the Coast Guard, Customs 
and other federal agencies have engaged in numerous container 
inspection task force operations, collectively we have inspected fewer 
than two percent of the containers moving through Puget Sound ports. 
Since 9/11, jointly we have inspected over 7,000 containers in the 
Ports of Seattle and Tacoma, which represents a quadrupling of the 
number of containers typically inspected annually. While point of entry 
inspections will remain an important tool, point of origin inspections 
and enhanced cargo information can be expected to increase the 
effectiveness of container inspections.
    Applied technology and information sharing can provide significant 
improvements in how we optimally screen containerized cargo. But how 
all the pieces come together is critically important. The U.S. 
Department of Transportation is the lead Federal department for 
Intelligent Transportation Systems (ITS). Since mid-2000 the Federal 
Highway Administration, in cooperation with the Secretary's Office of 
Intermodalism, has supported funding for an intermodal ITS Field 
Operational Test led by Washington State's Department of 
Transportation. The primary focus of this intermodal test was to 
demonstrate the use of electronic container seals on containers, 
combined with automatic vehicle identification transponders attached to 
the truck tractors, to track movements and monitor the security of 
containerized freight. This technology can potentially provide the 
information necessary for US Customs, US Coast Guard and other federal 
agencies and state governments to automate the clearance and 
credentialing of commercial vehicles through ports and terminals, 
across international borders, and through weigh stations. Additionally 
these technologies can potentially lead to substantial increases in the 
efficiencies involved in the movement of goods by the intermodal 
freight industry, as well as supporting greater visibility throughout 
the supply chain to improve security from point of origin to point of 
destination. The Department hopes to build on the success of this very 
important project.
    Prior to 9/11, routine waterborne security patrols were conducted, 
active control of vessels was exercised via the joint Canada/U.S. 
Cooperative Vessel Traffic Service, and shoreside security was 
monitored through facility inspections and roving vehicle patrols. A 
limited number of container inspections was coordinated with U.S. 
Customs with emphasis on hazardous material violations. Due to a 
largely foreign vessel customer base, a robust Port State Control 
boarding program was in place that screened each vessel arriving in the 
Strait of Juan de Fuca and Puget Sound using a security-targeting 
matrix. Following the September 11 attacks, immediate actions were 
taken by the Coast Guard to mitigate the threat posed by vessels 
entering port areas. Arrival notices were extended to 96 hours and crew 
lists are now required to help us identify and screen high-risk 
vessels. Additional Coast Guard, Coast Guard Auxiliary, and state and 
local law enforcement personnel and watercraft were deployed. Around-
the-clock vessel and vehicular harbor patrols were conducted. To 
mitigate the shoreside threat to facilities, terminal managers were 
directed to upgrade security and additional federal, state, and local 
agency patrols were conducted. We increased safety and security 
boardings conducting over 200 since September 11. A small number of 
vessels considered to represent higher risk have either been Sea 
Marshaled through U.S. waters or provided Coast Guard vessel escort. 
Long transits in both Washington and Oregon require significantly 
greater resources for the Sea Marshal or vessel escort than most other 
U.S. ports. Additional resources for these programs are contained 
within the President's recent Emergency Supplemental request and the 
fiscal year 2003 budget request.
    One of the greatest challenges we face is the threat posed by crews 
and passengers of vessels. It is imperative that all vessels receive a 
thorough screening prior to entry. To this end, it is essential we 
identify every incoming vessel, exert control over its actions, and 
conduct boardings to screen the vessel, passengers and crew. 
Fortunately, the existing Cooperative Vessel Traffic Service (CVTS) 
provides excellent vessel location information, a critical piece of 
Maritime Domain Awareness--the overall knowledge of vessels, cargoes, 
and people using the MTS.
    Water and shoreside vessel, vehicle, and aircraft patrols continue 
around the clock with procedures being refined daily. We are working 
with ports and private terminal operators to enhance security. Using a 
vulnerability matrix, we conduct facility security surveys in 
conjunction with port authorities to identify and alleviate shoreside 
security shortfalls. Risk management procedures have been used to 
better identify critical operations and focus resources. The Coast 
Guard Captain of the Port has established 11 separate Port Security 
Committees in collaboration with port authorities and other 
stakeholders. These committees have assumed a crucial role in all port 
security efforts, with an increased emphasis on those facilities or 
activities that pose the highest risks. We have recently completed 
security guidelines for terminals and facilities focusing on such 
issues as perimeter security, vehicle and personnel access, and control 
of visiting vessels. These guidelines were developed in conjunction 
with Pacific Area port users. They incorporate national and 
international best practices and will be implemented this month.
    We are also partnering with the U.S. Customs Service to better 
target containers for inspection including better intelligence and 
specialized screening equipment. We have a strong joint working 
relationship and will continue to work together in conducting container 
inspections. In the immediate future, the development of a port-wide 
identification system and enhancing container security are areas of 
focus. In these areas, the ports of Seattle and Tacoma intend to use 
the Department of Transportation's work on credentialing and container 
security as a springboard for their efforts.
                               conclusion
    In conclusion, the United States Coast Guard in the Pacific 
Northwest is an integral component of our nation's homeland security 
efforts and we are a principal enforcement agency for our maritime 
border. The security of the eight ports within Puget Sound and 
particularly the ports of Seattle and Tacoma has improved significantly 
in the months following the 9/11 attacks but we are not at the level 
needed. I am confident our success is due in large part to outstanding 
interagency cooperation and increased sharing of information and 
intelligence. We will make the best use of our existing resources and 
resources requested by the President to meet the demand for increased 
security. I can assure you that we will maintain the viability and 
integrity of the marine transportation system by working with other 
public, private, domestic, and international partners so that people 
and goods move safely, securely, and economically. The Department of 
Transportation is committed to the continuing protection of our 
nation's ports and cargo against terrorist threats. Thank you for your 
continuing support of our Coast Guard. I will be happy to answer any 
questions you may have.

    Senator Murray. Thank you, Admiral Brown. We will now hear 
from Rear Admiral Vinson Smith, Commander, Navy Region 
Northwest.
STATEMENT OF REAR ADMIRAL VINSON E. SMITH, COMMANDER, 
            NAVY REGION NORTHWEST
    Admiral Smith. Good afternoon, Madame Chairman and 
distinguished members. My name is Rear Admiral Vinson Smith, 
and I am the Commander, Naval Region Northwest, headquartered 
at Naval Submarine Base, Bangor, Washington.
    I appreciate this opportunity to address you to discuss the 
United States Navy's role in port security and harbor defense.
    Homeland security and homeland defense are all but evolving 
roles for the Navy. Our mission has traditionally been port 
presence, power projection, and when necessary engaging in 
warfare across the full spectrum of conflict on the enemies' 
turf rather than American soil.
    Our world changed on 9/11. Traditionally, the defense of 
the United States coastal waters, ports and harbors were the 
mission of the United States Coast Guard. The Navy is now 
forging new paths to expand homeland security working closely 
with the United States Coast Guard, our sister services and 
other Federal agencies to address homeland security and 
homeland defense.
    The Pacific Northwest is home to some unique strategic 
assets and facilities. This includes Trident submarines, 
aircraft carriers, fast attack submarines, Submarine Base 
Bangor, Puget Sound Naval Shipyard, Naval Magazine Indian 
Island and a major fuel depot at Manchester.
    Immediately following the events of 11 September, the Navy 
and the Coast Guard took the following actions to enhance the 
security posture of the region: Third Fleet deployed an Air 
Defense picket ship off the coast of Washington and aircraft in 
support of NORAD; Naval Surface Group Pacific Northwest 
deployed three combatants in Puget Sound until all commercial 
aircraft were on the ground across the United States; Naval 
Region Northwest established Temporary Flight Restriction zones 
with the FAA, added additional security boat patrols, and 
increased perimeter security at all base facilities. In 
addition to increased land and waterborne security, the region 
deployed barriers to mitigate the air threat to Sub Base 
Bangor, sonar swimmer detection system, log booms around 
capital ships. Navy Region Northwest also activated a Regional 
Operations Center manned on a 24/7 basis to respond to regional 
security issues.
    The Coast Guard provided 24/7 harbor defense patrols at 
three major naval facilities, Bangor, Bremerton and Everett. 
Continuous Coast Guard patrols were also provided at Naval 
Magazine Indian Island during ammunition loading operations. In 
addition to these security patrols, the Coast Guard provided 
escort vessels for ballistic missile submarines, fast attack 
submarines, and aircraft carriers in transit in and out of 
Puget Sound.
    Shortly after the President signed Executive Order 13223, 
reserve components were activated for duty. This included 200 
security personnel to sustain the New Force Protection 
requirements for the Northwest. The Navy Coastal Warfare unit 
provided specialists trained in Harbor Defense, and personnel 
to augment the Regional Operations Center. The availability of 
these units facilitated the reduction of Coast Guard presence 
in support Navy venues. The coastal warfare forces were able to 
provide a waterside radar picture of the waters around naval 
installations not covered by the Coast Guard Vessel Traffic 
System. This improved our ability to identify and track 
waterborne contacts in the vicinity of naval installations. The 
Navy deployed coastal defense ships from San Diego to augment 
Coast Guard harbor defense and escort missions.
    Once log booms were in place at Bremerton and Everett, the 
region was able to eliminate daily Coast Guard patrols in the 
vicinity of naval installations.
    The United States Navy and United States Coast Guard 
collaboration is occurring at all levels. The CNO and the 
Commandant of the Coast Guard established a NABGAR board of 
senior flag officers from both services in 1980, and they meet 
every 6 months. The next meeting is on 10 April. In the 
Pacific, collaboration at the Fleet Commander level of both 
services is working to provide synchronization of terms, 
standards, base land, and aligning normal course protection 
requirements, identification of resource shortfalls, 
establishment of joint command and control, and developing pre-
planned responses, and establishing a long-term plan for 
employment of reserve Naval Coastal Warfare and coastal patrol 
ships.
    Since January of 2002, Coast Guard District 13 and Navy 
Region Northwest provides an Executive Steering Committee 
composed of Naval Coastal Warfare, FAA, Navy Criminal 
Investigative Service, and Western Air Defense sector. This 
Committee has been working to enhance communication between 
various agencies and formulate Regional Force Protection 
policies and procedures. This Committee also works to achieve 
collaborative solutions on issues of mutual concern of member 
agencies such as the Use of Force Doctrine. This forum has also 
been instrumental in improving command and control prognosis 
and in the near term, the coastal patrol ships have proven to 
be ideally suited for the Puget Sound homeland security 
mission. Commander, Naval Surface Force Pacific is actively 
pursuing a more permanent arrangement for a coastal patrol 
ship--to support the Pacific Northwest.
    Similar to flight restrictions, the restriction of water 
traffic at installations and in the immediate vicinity of ships 
is critical for both security and the safety of the boating 
public. Navy Region Northwest is working with the Army Corps of 
Engineers to establish restricted areas around other facilities 
similar to the ones already in place at Submarine Base Bangor. 
We are discussing the establishment of Joint Command and 
Control Centers with the Coast Guard district to handle 
waterborne security. In addition the regional operations center 
will be equipped and operate with the joint Center. This will 
have an added benefit of improving our ability to provide 
military assistance to civil authorities in the event of major 
disaster.
    In the long term fleet level discussions envision a joint, 
interagency organization in the United States Coast Guard 
Pacific Area and Navy number fleets that will handle offshore 
security and homeland defense issues. This agency will be 
closely linked to Region and District Joint Command and Control 
Centers, who are focused on near and in shore security.
    In conclusion, the United States Navy in the Pacific 
Northwest is comprised of assets vital to our national security 
posture. A critical part of readiness is acting in cooperation 
with other agencies with complimentary missions, thus our early 
and close collaboration with the United States Coast Guard for 
Harbor Defense and Homeland Security. Our ongoing commitment to 
homeland security will ensure interagency alignment and 
maximize our collective capabilities to safeguard the Puget 
Sound region from asymmetrical threats.
    Thank you very much for your support of the United States 
Navy, and I welcome questions.
    [The statement follows:]

           Prepared Statement of Rear Admiral Vinson E. Smith

    Good afternoon, Madam Chairman and distinguished members. My name 
is Rear Admiral Vinson Smith and I am Commander, Navy Region Northwest, 
headquartered at Naval Submarine Base Bangor, Washington. I appreciate 
this opportunity to address you to discuss the U.S. Navy's role in Port 
Security and Harbor Defense.
    Homeland Security and Homeland Defense are old but evolving roles 
for the Navy. Our mission has traditionally been one of forward 
presence, Power Projection and when necessary, engaging in warfare 
across the full spectrum of conflict on the enemy's turf rather than on 
American soil. Consequently, manning profiles, ship designs, and weapon 
systems are all designed to engage the enemy while forward deployed. 
Our world changed on 9/11. Traditionally, defense of U.S. coastal 
waters, ports, and harbors were the mission of the U.S. Coast Guard. 
The Navy is now forging new paths to expand homeland security working 
closely with U.S. Coast Guard, our sister services, and other federal 
agencies to address Homeland Security and Homeland Defense.
    I echo ADM Brown's assessment of the force protection challenges 
posed by the complex geography of the Puget Sound area. The transit 
times from the mouth of the Strait of Juan de Fuca to our three major 
homeports are between 8 and 9 hours. Even within the Sound, it 
routinely takes 4 hours to transit one-way between homeports. Coupled 
with the narrowness of the passages, rough seas, weather, floating 
debris, vessel transit restrictions, limitations on radar use near 
populated areas, and the lack of air defense systems produces an 
environment that favors potential attacks.
    The Pacific Northwest is home to some unique strategic assets and 
facilities. Damage or destruction to any of these assets would fit the 
terrorist profile for a major ``CNN event'' and significantly degrade 
DOD's ability to perform some of its missions. This includes SUBASE 
Bangor, Trident submarines, aircraft carriers, fast attack submarines, 
a nuclear-capable ship repair facility at Puget Sound Naval Shipyard, a 
deep-water ammunition loading facility at Naval Magazine Indian Island, 
and a major fuel depot at Manchester.
    The U.S. Navy and U.S. Coast Guard in Puget Sound have had an 
active working relationship for many years. Since 1995, we have 
conducted Harbor Defense exercises annually at various venues 
throughout the Sound. These exercises facilitated command and control 
and allowed U.S. Coast Guard, U.S. Navy Coastal Warfare, and U.S. Army 
Logistics assets to defend shipping, installations, and harbor 
operations. These exercises facilitated the deployment of Navy and 
Coast Guard Forces subsequent to 9/11.
    After the attack on USS COLE in October 2000, Navy Region Northwest 
began intensive collaboration with U.S. Coast Guard District 13 to 
establish a synergistic anti-terrorism/force protection strategy to 
protect homeported ships. By June 2001, the Captain of the Port 
accelerated the process to expand the existing Security Zone at Naval 
Submarine Base Bangor and a moving security zone around all U.S. Navy 
submarines transiting on the surface in the Puget Sound.
         navy regional security actions following 11 september
    Immediately following the events of 11 September, the Navy and the 
Coast Guard took the following actions to enhance the security posture 
of the region. Third Fleet deployed an Air Defense picket ship off the 
Washington coast. Naval Surface Group Pacific Northwest deployed three 
combatants in Puget Sound until all commercial aircraft were on the 
ground throughout the U.S. Navy Region Northwest established Temporary 
Flight Restriction zones with the FAA, added additional security boat 
patrols, and increased perimeter security at base facilities. In 
addition to increased land and waterborne security, the Region deployed 
air threat barriers at SUBASE Bangor, sonar swimmer detection systems, 
and log booms around capital ships. Navy Region Northwest also 
activated a Regional Operations Center manned on a 24/7 basis to 
respond to Regional security issues. The Coast Guard provided 24/7 
harbor defense patrols at three major Naval Facilities--Bangor, 
Bremerton, and Everett. Continuous Coast Guard patrols were also 
provided at Naval Magazine Indian Island during ammunition loading 
operations. In addition to these security patrols, the Coast Guard was 
tasked to provide escort vessels for all Class A and B naval vessels 
during transits in and out of Puget Sound.
    Shortly after President Bush signed Executive Order 13223, reserve 
components were activated for duty. This included over 200 security 
personnel to sustain new Force Protection requirements, Navy Coastal 
Warfare units to provide specialists trained in Harbor Defense, and 
personnel to man the Regional Operations Center. The availability of 
these units facilitated the further reduction of Coast Guard presence 
at Navy venues. The Coast Guard's Port Security Unit 313, which had 
been providing both land and waterborne security at Naval Magazine 
Indian Island, was relieved by the Navy's Inshore Boat Unit THIRTEEN. 
Naval Coastal Warfare forces were able to provide a waterside radar 
picture of the waters around Naval installations not covered by the 
Coast Guard Vessel Traffic System (VTS). This improved our ability to 
identify and track waterborne contacts in the vicinity of Naval 
installations. The Navy deployed Coastal Defense Ships (PCs) from San 
Diego to augment Coast Guard harbor defense and escort missions. Two 
PCs were deployed to the Northwest in October. Once log booms were in 
place at Bremerton and Everett, the Region was able to eliminate daily 
Coast Guard patrols in the vicinity of Navy installations.
    U.S. Navy and U.S. Coast Guard collaboration is occurring at all 
levels. In the Pacific, collaboration at the Fleet Commander level of 
both Services is working to provide synchronization of terms and 
standards, reestablishing the normal Force Protection Conditions to 
threat-based standards, identification of shortfalls, establishment of 
joint command and control, developing pre-planned responses, and 
establishing a long-term plan for employment of reserve NCW forces and 
PCs. Since January 2002, Coast Guard District 13 and Navy Region 
Northwest have co-chaired a Regional Force Protection Executive 
Steering Committee composed of Naval Coastal Warfare, FAA, Navy 
Criminal Investigative Service, and Western Air Defense Sector. This 
Committee has been working to enhance communication between various 
agencies and formulate Regional Force Protection policies and 
procedures. This Committee also works to achieve collaborative 
solutions on issues of mutual concern of member agencies, such as Use 
of Force Doctrine. This forum has been instrumental in improving 
Command and Control issues.
                      progress on near term issues
    For the most effective use of all of our assets, our Regional 
Operations Center needs the ability to assemble real-time information 
and communicate immediately with Navy and Coast Guard forces throughout 
the Region. Accordingly, we are well along on the design for 
modifications to the existing Operations Center to accomplish that 
mission and consolidate improved communication for Region Public Safety 
agencies. This will have the additional benefit of improving our 
capability for Military Support to Civil Authorities in the event of 
major disasters.
    The Coastal Patrol Ship (PC) has proven to be ideally suited for 
the Puget Sound Homeland Security Mission. Commander, Naval Surface 
Force Pacific is actively pursuing permanently homeporting PCs to the 
Pacific Northwest.
    Similar to flight restrictions, the restriction of water traffic at 
installations and in the immediate vicinity of ships is critical for 
both security and the safety of the boating public. The Coast Guard has 
assisted by designating a Security Zone at Submarine Base Bangor and a 
moving Security Zone around submarines transiting on the surface in the 
Puget Sound. Additionally, in September 2001, the Coast Guard 
established Naval Vessel Protection Zones around all Naval vessels 
which are enforced by ships' personnel and escorts. Navy Region 
Northwest is working with the Army Corps of Engineers' to establish 
restricted areas at our other facilities similar to the one already in 
place at Submarine Base Bangor.
                            in the long term
    The threat posed by an airborne terrorist is still a valid concern. 
The limited regulation of general aviation and accessibility of small 
aircraft allows a potential adversary to easily circumvent most 
Homeland Security measures currently in place. The incomplete low-level 
radar coverage in the Northwest exacerbates these vulnerabilities.
    In conclusion, the United States Navy in the Pacific Northwest is 
comprised of assets vital to our nation's strategic posture. A critical 
part of readiness is acting in cooperation with other agencies with 
complimentary missions, thus, our early and close collaboration with 
the U.S. Coast Guard for Harbor Defense and Homeland Security. Because 
of our outstanding relationship, we have attained and sustained a level 
of security and readiness appropriate to the importance of the assets 
in the Region. Concurrently, Navy Region Northwest has aggressively 
pursued the hardening of our facilities and assumed the force 
protection mission in a seamless and timely manner. Our ongoing 
commitment to Homeland Security will ensure inter-agency alignment and 
maximize our collective capabilities to safeguard the Puget Sound 
region from asymmetrical threats. Thank you for your support of the 
United States Navy. I welcome your questions.

    Senator Murray. Thank you, Admiral Smith. We will now turn 
to Mr. Robert Coleman, Jr., Seattle District Director, 
Immigration and Naturalization Service.
STATEMENT OF ROBERT S. COLEMAN, JR., SEATTLE DISTRICT 
            DIRECTOR, IMMIGRATION AND NATURALIZATION 
            SERVICE, DEPARTMENT OF JUSTICE
    Mr. Coleman. Senator Murray, good afternoon. Thank you for 
inviting me here today to testify on behalf of the United 
States Immigration and Naturalization Service regarding seaport 
security. America's seaports are an important link between the 
United States and the rest of the world. The increasing flow of 
people and goods through our ports help drive our economy, but 
can also serve as a conduit for terrorists, weapons of mass 
destruction, illegal migrants, contraband and other unlawful 
commodities. This is especially true in Seattle with an 
increase in cruise line traffic, freight movement as well as 
the increased tourism to the northwest, we may be vulnerable. 
At our Nation's seaports, INS uses both officers and support 
personnel to enforce our immigration laws and facilitate the 
flow of commerce and passenger traffic while interdicting and 
deterring those who would take advantage of our openness.

                       SEATTLE DISTRICT OVERVIEW

    By the way of background, the Seattle District comprises 
the State of Washington and 10 northern counties and Idaho and 
four pre-inspection sites in Canada. We cover over 70,000 
square miles and geographically represent one of the largest 
districts in the Nation. Our personnel operate out of over 30 
locations. We have inspections staff at four preinspection 
stations in British Columbia, six international airports in 
Washington State, 14 landborder ports of entry located in the 
States of Washington and Idaho, and five seaports of entry 
located along Puget Sound.
    The Seattle District also provides technical immigration 
advice to United States Customs Officers at 10 additional 
international ports-of-entry where INS does not have a 
presence. With only 310 authorized inspectors and only 216 on 
duty we are responsible for inspecting over 20 million visitors 
to the United States each year.
    As I mentioned, the Seattle District includes five 
seaports. They are located in Tacoma, Seattle, Anacortes, 
Bellingham and Olympia. In addition, the seaport operations are 
both in Victoria and Vancouver, British Columbia.
    In fiscal year 2001, the Seattle seaport unit inspected 56 
cruise ships carrying over 120,000 passengers in Seattle. The 
Port of Seattle has scheduled 78 cruise ship sailings for the 
2002 season, and it is estimated that the number of cruise 
ships and passengers will grow significantly in the coming 
years.
    I believe INS staff does an excellent job in inspecting 
arriving ships and passengers. We owe much of that success to 
the excellent working relationship we have with the U.S. Coast 
Guard, U.S. Customs Service, FBI, U.S. Attorney's Office and 
very importantly the Port of Seattle and Washington State 
ferries.
    The INS and the Seattle District have a long history of 
sharing intelligence cooperation. These efforts facilitate the 
interception of smuggling organizations transporting migrants 
to the United States. One example of this cooperation was 
Operation Cape May. During Operation Cape May, which began in 
December of 1999, we discovered a container with 18 males 
between the ages of 18 to 30 contained in a container from the 
People's Republic of China. Four aliens died as a result of the 
container's inhumane conditions. Three of the traffickers 
involved in that case have pled guilty to human trafficking 
charges, and five other persons involved have pled guilty to 
charges of transportation of illegal aliens, or conspiracy to 
transport illegal aliens. The standard sentences for these 
crimes range from 30 to 78 months.

                    SEPTEMBER 11, 2001, THE INS ROLE

    At 10:05 a.m., September 11, 2001, the INS along with 
Customs imposed the highest level of security alert at the 
Nation's borders. Six and a half months later, we continue to 
maintain that alert level. The district has established and 
maintained a 24-hour command element staffed by senior district 
personnel. When operating at threat level one, the INS 
responsibilities entail much more intense inspections, closer 
scrutiny of individuals, their documentation, and inspections 
of vessels and crew.
    All adult passengers and crew are asked to produce 
government issued photo identification. Ferry crews are 
required to submit manifests for our inspections, and areas 
that conceal illegal entrants are inspected consistent with 
threat level one guidelines. In order to maintain our 
heightened level of operations, we have required our inspectors 
to work many hours on overtime, in addition to rearranging tour 
assignments to better fulfill waterway traffic needs.

                    COOPERATING WITH OTHER AGENCIES

    The Seattle District works with Federal, State and local 
agencies such as U.S. Customs Service, the Coast Guard, 
Department of Agriculture, Washington State Patrol, city 
police, the Port of Seattle, FBI, United States Attorneys 
Office to foster better communication and improve security 
along the waterways and ports. Private sector relations are 
also very important to the Port of Seattle. All Federal, State 
and local agencies are working to focus their resources on the 
new mission at hand since September 11. Working groups in these 
agencies have already been formed that can work to eliminate 
the interagency differences and encourage the sharing of 
intelligence, resources and responsibilities. These efforts can 
result in creating stronger law enforcement in our Nation's 
seaports.
    The United States and Canada enjoy an outstanding working 
relationship. Representatives of the INS, U.S. Customs, Canada 
Customs and Revenue Agency and Citizenship and Immigration 
Canada meet regularly to discuss facility and operational 
issues in general. Through diverse partnership and an already 
existing collaboration, we can continue to work to improve 
security at our Nations' seaports. Some of these partnerships 
include: U.S. Attorney's Anti-Terrorism Task Force; the Border 
Vision and Cross-Border Crime Forum of the Shared Border 
Accord, the Joint Terrorism Task Force; Integrated Border 
Enforcement Teams; Integrated Marine Enforcement Teams, the 
Joint Terrorist Tracking Task Force.
    As we have already witnessed, acts of terrorism can come 
from any direction. At the national level, the Coast Guard, 
Customs Service, INS, the Department of Defense and others are 
working on improving container inspection and tracking. Here in 
the northwest, INS can be a conduit for communication within 
the now robust informal cooperative mechanisms. Given the 
degree of importance to our safety and our economy, formalizing 
interagency relationships to protect critical infrastructure is 
worth our collective effort.
    The current atmosphere in the United States with the 
ongoing war on terrorism, the formulation of the foreign 
Terrorist Tracking Task Force and the Attorney General's Anti-
Terrorism Task Force present us with a situation where we can 
only gain from sharing. Stronger law enforcement along the land 
and air borders have pushed the drug runners, terrorists, human 
traffickers to the waterways. The potential that our waterways 
will be used to bring about the next wave of terror is real.
    In conclusion, the Immigration and Naturalization Service 
in the Seattle District is committed to securing our borders. I 
want to commend the men and women of this district for their 
outstanding commitment to the INS mission and the protection of 
our country.
    Thank you, Senator, and I am glad to take questions.
    [The statement follows:]

              Prepared Statement of Robert S. Coleman, Jr.

    Chairwoman Murray and Members of the Subcommittee, thank you for 
inviting me here today to testify on behalf of the United States 
Immigration and Naturalization Service (INS) regarding seaport security 
in the Seattle District.
    America's seaports are an important link between the United States 
and the rest of the world. The increasing flow of people and goods 
through our ports helps drive our economy, but it can also serve as a 
conduit for terrorists, weapons of mass destruction, illegal migrants, 
contraband, and other unlawful commodities. This is especially true in 
Seattle, with an increase in Cruise Line traffic, freight movement, as 
well as the increased tourism to the beautiful Northwest. At our 
nation's seaports, INS uses both officers and support personnel to 
enforce our immigration laws and facilitate the flow of commerce and 
passenger traffic, while interdicting and deterring those who would 
take advantage of our openness. It takes dedicated people to keep 
legitimate cargo and entertainment based waterway traffic moving, while 
interdicting those who do not have the legal right to enter our 
country, and those that may possess the capacity to do the United 
States harm.
    I know that you are familiar with the INS and our inspection 
processes from previous field hearings. Today I will focus on the 
Seattle District and various issues related to port security and 
waterway protection.
                       seattle district overview
    The INS Seattle District Office is located in downtown Seattle, 
with sub-offices located in Yakima and Spokane. The Seattle District is 
composed of five branches: Management, Adjudications, Inspections, 
Investigations, and Detention and Removal. These branches each play a 
vital role when it comes to enforcing the Immigration and Nationality 
Act.
    The Seattle District comprises the State of Washington, the ten 
northern counties in Idaho and two pre-inspection sites in Canada. The 
District covers over 70,000 square miles and geographically represents 
one of the largest districts in the nation. Our personnel operate out 
of 29 office locations. We have staff located at two pre-inspection 
stations in British Columbia, three international airports in 
Washington State, fourteen land border ports-of-entry located in the 
States of Washington and Idaho, and five sea ports-of-entry located 
along Puget Sound. The Seattle District also provides technical 
immigration advice to United States Customs Officers at ten additional 
International ports-of-entry where INS does not have a presence. With 
only 310 authorized inspectors, we are responsible for inspecting over 
20,000,000 visitors to the United States each year.
    As I mentioned, the Seattle District includes five seaports. They 
are located in Tacoma, Seattle, Anacortes, Bellingham and Olympia. In 
addition, the District has seaport operations in both Victoria and 
Vancouver, British Columbia, which process cruise ship and ferry 
traffic. In fiscal year 2001, the Seattle Seaport unit alone inspected 
56 cruise ship arrivals carrying over 120,000 passengers. The Port of 
Seattle has already scheduled 78 cruise ship sailings for the 2002 
season, and it is estimated that the number of cruise ships and the 
passengers they carry will grow significantly in the coming years. 
District-wide, we inspected 83,461 crewmen, 1,002,202 passengers, 2,554 
ferry sailings, 2,230 cargo vessels and 131 private vessels. Faced with 
the challenge of the continued increase in traffic, I believe that INS 
staff does an excellent job in inspecting arriving ships and 
passengers. We owe much of that success to the excellent working 
relationship we have with the U.S. Coast Guard, the U.S. Customs 
Service, Federal Bureau of Investigation, U.S. Attorney's Office, and 
the U.S. Department of Agriculture.
    The INS and the Seattle District also has a long history of shared 
intelligence with Canadian law enforcement officials. These efforts 
facilitate the interception of smuggling organizations transporting 
migrants to the United States via Canada. One example of this is 
Operation Cape May during the year 2000. During the Cape May operation, 
we discovered a container with eighteen males between the ages of 
eighteen to thirty contained therein from the Fujian province in the 
People's Republic of China. Four aliens died as a result of the 
container's inhumane and unsanitary conditions. Three of the 
traffickers involved have pled guilty to human trafficking charges, 
while five other persons involved have pled guilty to charges of 
transportation of illegal aliens or conspiracy to transport illegal 
aliens. The standard sentences for these crimes range from 30 to 78 
months.
                    september 11, 2001, the ins role
    At 10:05 AM, on September 11, 2001, the Immigration and 
Naturalization Service imposed the highest level of security alert at 
the nation's borders. Six-and-a-half months later we continue to 
maintain that alert level. The District has established and maintains a 
24-hour command element staffed by Senior District personnel. When 
operating at threat level 1, the INS responsibilities entail much more 
intense inspections: closer scrutiny of individuals, their 
documentation, and inspection of vessels and crew. All adult passengers 
and crew are asked to produce government-issued photo identification. 
Ferry crews are required to submit manifests for our inspection and 
areas that may conceal illegal entrants are inspected consistent with 
threat level 1 guidelines. In order to maintain our heightened level of 
operations, we have required our inspectors to work many hours on 
overtime in addition to rearranging port assignments to better fulfill 
waterway traffic needs.
                    cooperation with other agencies
    The Seattle District Office works with Federal, State, and Local 
Agencies such as the Customs Service, the Coast Guard, the Department 
of Agriculture, the Washington State Patrol, Seattle City Police, the 
Seattle Port Authority, the FBI, and the U.S. Attorney's Office, to 
foster better communication and improve security along the waterways 
and at the ports.
    For example, the Coast Guard sends us the advance passenger and 
crew lists they receive and we query the individuals listed against the 
Interagency Border Inspection System (IBIS), the joint lookout database 
that all the border inspection agencies use. We notify all the federal 
seaport enforcement agencies if there is any indication that a 
passenger or crewman should be questioned further. We have used our 
canine enforcement team in support of Customs to search for smuggled 
contraband.
    All Federal, State and Local Agencies are working feverishly to 
focus their resources to the new mission at hand since September 11. 
Working groups in these agencies have already been formed that can work 
to eliminate the inter-agency mission differences and encourage a 
sharing of intelligence, resources, and responsibilities. These efforts 
can result in creating stronger law enforcement at our nation's 
seaports.
    The United States and Canada enjoy an outstanding working 
relationship. Representatives of the INS, U.S. Customs, the Canada 
Customs and Revenue Agency, and Citizenship and Immigration Canada meet 
regularly to discuss facility and operational issues in general.
    Through diverse memberships of partnership and already existent 
collaborations, we can continue to collectively tap or activate the 
already existent sources. Some of these partnerships include:
  --Border Vision,
  --Cross Border Crime Forum,
  --Joint Terrorism Task Force,
  --Integrated Border Enforcement Teams,
  --Integrated Marine Enforcement Teams.
    As we have already witnessed, acts of terrorism can come from any 
direction. At the national level, the Coast Guard, Customs Service, the 
INS, the Department of Defense and others are working on improving 
container inspection and tracking. Here in the Northwest, we can be a 
conduit for communication and coordination with the Maritime Anti-
Terrorism Team being implemented within the Region.
    All agencies involved in homeland defense and law enforcement need 
to be proactive in the fight against terrorism. Inter-agency 
cooperation and sharing of information is a necessity. We must come 
together to share, learn, respond and identify that which could destroy 
our physical or economic security. The INS supports the Administration 
efforts to deter and interrupt any threat from abroad.
    The current atmosphere in the United States, with the ongoing war 
on terrorism, the formulation of the Foreign Terrorist Tracking Task 
Force, and the Attorney General's Anti-terrorism Task Force, presents 
us with a situation where we can only gain from sharing. Stronger law 
enforcement along the land and air borders have pushed the drug 
runners, terrorists, and human traffickers to the waterways. The 
potential that our waterways will be used to bring about the next wave 
of terror is real. This would impact us economically, environmentally, 
and undermine the public's belief in their personal and national 
security. We should use the systems already in place, develop new 
relationships and ways of thinking, to interdict and disrupt the next 
possible assault on America.
                               conclusion
    The Immigration and Naturalization Service, and the Seattle 
District is committed to securing the borders and waterways of this 
country against those who wish it harm while facilitating legitimate 
commerce and travel. I want to commend the men and women in this 
District for their outstanding commitment to the INS mission, as well 
as to commend our counterparts in other law enforcement agencies in 
assisting the INS with its post-September 11, mission.
    Thank you Madam Chairwoman for allowing me to present my testimony 
regarding the INS Seattle District Office and port security. I will be 
happy to take any questions you may have at this time.

    Senator Murray. Thank you, Mr. Coleman. We will move to Mr. 
Thomas Hardy, who is the Director of the Northwest Great Plains 
U.S. Customs Service.
STATEMENT OF THOMAS HARDY, DIRECTOR, NORTHWEST GREAT 
            PLAINS, U.S. CUSTOMS SERVICE, DEPARTMENT OF 
            THE TREASURY
    Mr. Hardy. Good afternoon. By way of orientation, my 
jurisdiction runs from Aberdeen, Tacoma-Seattle, out to Duluth, 
sort of the flat part of the border, as you know it. So I have 
major land, major sea and major air components.
    Senator Murray, thank you for your invitation to testify 
before the Subcommittee today.
    Since September 11, Commissioner Bonner's top priority has 
been responding to the terrorist threat on our seaports, land 
borders and airports. His highest priority is doing everything 
we reasonably and responsibly can do to keep terrorists and 
terrorist weapons from entering the United States. Through our 
Customs Inspectors, Canine Enforcement Officers and Special 
Agents, we are doing just that, protecting and defending our 
country against the terrorist threat at all of our ports of 
entry including our seaports.
    In approaching our primary priority, we believe that 
Customs must do everything possible to push the border outward. 
We must expand our perimeter of security away from our national 
boundaries and towards foreign points of departure. Any effort 
to push the border outward must include the direct involvement 
of the trade community.
    The Customs Trade Partnership Against Terrorism, or C-TPAT 
builds on past successful security models built between Customs 
and the trade. These were designed to prevent legitimate 
commercial shipments from being used to smuggle illegal drugs 
and taking the turn to apply this to the anti-terrorism 
syndrome.
    Another core area in these efforts is the implementation of 
the Container Security Initiative or CSI. As you know, one of 
our stated goals in current terrorist organization has been not 
to only target American lives, but also to target the American 
economy. The vast majority of world trade, about 90 percent, 
moves in containers. Much of it is carried on ocean-going 
container ships. Of the top 20 U.S. ports, Seattle, Tacoma 
combined, container cargo accounts for 8.2 percent market share 
and ranks third behind Los Angeles, Long Beach, and New York, 
New Jersey. If terrorists were to succeed in concealing a 
weapon of mass destruction, even a crude nuclear device among 
thousands of containers that enter Seattle every day, the 
devastation would be horrible to contemplate.
    As a primary agency for cargo security, U.S. Customs should 
know everything there is to know about a container headed for 
this country before it leaves a foreign port such as Rotterdam 
or Singapore or an American port, and Customs wants that 
container prescreened there, not here. The effective use of 
technology depends largely on good targeting, for which we 
require advanced information. Prior to September 11, Customs 
examined about 2 percent of the incoming cargo to the United 
States. Since then we have refocused resources and technology 
to increase the number and the type of exams.
    Currently the submission of advanced shipping manifests to 
Customs is voluntary. We cannot rest our Nation's homeland 
security on the vagaries and haphazard advance information that 
is often incomplete and sometimes inaccurate. Current 
legislation takes us a major step closer to where we ultimately 
need to be, particularly for the container security issue, and 
that is to have full information of incoming cargo before it 
even leaves the foreign port, beginning with the mega ports 
that export to the United States. We should establish a new 
international security standard for containers in order to 
protect this vital system of the global trade.
    There are four core elements of the container security 
issue. First, we must establish international security criteria 
for identifying high risk cargo containers that potentially 
pose a risk of containing terrorists or terrorist weapons.
    Second, we must prescreen the high risk containers at their 
port of shipment, in other words, before they are shipped to 
the United States. As a component of the Ridge-Manley Smart 
Border Action Plan on March 25, a week ago, a Canadian Customs 
Inspector was assigned to the Port of Seattle and in 
collaboration with U.S. Customs commenced a program which 
identifies and targets high risk sea containers destined in 
transit to Canada. This is a reciprocal of a program we 
established in February in Vancouver where we have a U.S. 
inspector.
    Third, we must maximize the use of detection technology to 
prescreen high risk containers. Much of this technology already 
exists and is currently being used by the Customs Service.
    In March 2002, the Port of Seattle received a Mobile 
Vehicle and Cargo Inspection System, the VACIS. This 
nonintrusive gammaray inspection system will be used to provide 
images of containers, vehicles, trucks, and their contents. The 
Port of Tacoma will receive a VACIS in May of 2002. The fourth 
part of the container security initiative is that we must 
develop and broadly deploy smart boxes. These are secured 
containers with electronic seals and sensors that indicate to 
Customs and to private importers and carriers if particular 
containers have been tampered with, particularly after they 
have been prescreened.
    Technology and information are essential to a successful 
container security strategy, and to our counter-terrorism 
mission in general. Customs looks forward to the completion of 
the Automated Commercial Environment or ACE, which as you know 
is an extremely important project for the Customs Service. ACE, 
our new system for trade automation, offers major advances in 
both the collection and sorting of trade data.
    The terrorists have already exploited one key component of 
our transportation system, the commercial aviation segment. It 
is not at all unthinkable that they will seek to target others 
including maritime trade. We believe our seaports and the 
system of global trade they support are vulnerable, and we 
believe that the United States and the United States Customs 
Service must act now to address this threat. Thank you.
    [The statement follows:]

                 Prepared Statement of Thomas W. Hardy

    Senator Murray thank you for your invitation to testify before this 
Subcommittee today. Since September 11, Commissioner Bonner's top 
priority for the Customs Service has been responding to the terrorist 
threat at our seaports, land borders, and airports. His highest 
priority is doing everything we reasonably and responsibly can to keep 
terrorists and terrorist weapons from entering the United States.
    Through our Customs Inspectors, Canine Enforcement Officers, and 
Special Agents we are doing just that: protecting and defending our 
country against the terrorist threat at all our ports of entry, 
including our seaports.
    Since September 11, Customs has been at a Level One alert across 
the country--at all border entry points. Level 1 requires sustained, 
intensive anti-terrorist questioning, and includes increased 
inspections of travelers and goods at every port of entry. Because 
there is a continued threat that international terrorists will attack 
again, we remain at Level 1 alert to this day and will be at Level 1 
for the foreseeable future.
    As part of Commissioner Bonner's response, Customs has implemented 
round-the-clock coverage by at least two armed Customs officers at 
every Customs location, even at low volume crossings along our northern 
border. To this day, Customs inspectors are, in many places, working 12 
to 16 hours a day, six and seven days a week.
    To help ensure that Customs develops a coordinated, integrated 
counter-terrorism strategy for border security, Commissioner Bonner 
established a new Office of Anti-Terrorism.
    In an operational context and to support our Customs officers in 
the field, we have also established the Office of Border Security. The 
mission of that office is to develop more sophisticated anti-terrorism 
targeting techniques for passengers and cargo in each border 
environment and provide a single point of contact for events taking 
place in our field.
    In approaching our primary priority to prevent terrorists and 
terrorist weapons from transiting our borders, we believe that Customs 
must also do everything possible to ``push the border outwards.'' We 
must expand our perimeter of security away from our national boundaries 
and towards foreign points of departure.
    Any effort to ``push the border outwards'' must include the direct 
involvement of the trade community. The Customs-Trade Partnership 
Against Terrorism, or ``C-TPAT,'' builds on past, successful security 
models between Customs and the trade that were designed to prevent 
legitimate commercial shipments from being used to smuggle illegal 
drugs.
    Another core area in these efforts is implementation of the 
Container Security Initiative, or CSI. As you know, one of the stated 
goals of current terrorist organizations has been not only to target 
American lives, but also to target the American economy.
    The vast majority of world trade--about 90 percent--moves in 
containers, much of it carried on oceangoing container ships. Nearly 
half of all incoming trade to the United States by value--about 46 
percent--arrives by ship, and most of that is in containers. Of the top 
20 U.S. Ports, Seattle-Tacoma combined container cargo accounts for 8.2 
percent market share and ranks third behind Los Angeles-Long Beach and 
New York-New Jersey.
    If terrorists were to succeed in concealing a weapon of mass 
destruction, even a crude nuclear device, among the tens of thousands 
of containers that enter U.S. ports every day, the devastation would be 
horrible to contemplate. And the impact on our global economy would be 
severe. As the primary agency for cargo security, U.S. Customs should 
know everything there is to know about a container headed for this 
country before it leaves a foreign port, such as Rotterdam or 
Singapore, for an American port. Customs wants that container pre-
screened there, not here.
    The effective use of technology depends largely on good targeting, 
for which we require advance information. Prior to September 11, 
Customs examined about 2 percent of incoming cargo to the U.S. Since 
then, we have refocused resources and technology to increase the number 
and the type of exams. However, to some the overall number of 
examinations may still seem surprisingly low in proportion to the vast 
amount of trade we process. Yet it is important to note that the cargo 
Customs selects for intensive inspection is not chosen randomly. It is 
the result of a careful screening process, a process that uses 
information culled from a vast database on shipping and trading 
activities known as the Automated Manifest System. Using targeting 
systems that operate within AMS, we are able to sort through the cargo 
manifests provided to Customs by shippers and carriers, and chose those 
shipments that appear unusual, suspect, or high-risk. It is a system 
that has served us well, but one that can and must serve us much better 
in light of September 11.
    Currently the submission of advanced shipping manifests to Customs 
is voluntary. We cannot rest our Nation's homeland security on the 
vagaries of haphazard advance information that is often incomplete and 
sometimes inaccurate. Timely, accurate, and complete information is 
vital to homeland security and we should mandate it is provided in 
advance. Current legislation, such as S.1214 takes us a major step 
closer to where we ultimately need to be, particularly for the CSI--and 
that is to have full information on incoming cargo before it even 
leaves the foreign port.
    As part of our immediate response to September 11, Customs promptly 
sought, and the Congress promptly enacted, legislation that made the 
submission of data on incoming passengers to Customs' Advance Passenger 
Information System mandatory for all airlines. That law was passed last 
November as part of the Aviation Security Bill. Initially, the 
Commissioner ordered all international airlines flying into the U.S. 
from abroad to submit advance passenger information to Customs, or face 
100 percent inspection of people and goods departing their flights. 
This enabled Customs to better secure advance passenger information on 
all incoming international flights before the new law took effect.
    Beginning with the mega-ports that export to the U.S., we should 
establish a new international security standard for containers in order 
to protect this vital system of global trade. The core elements of the 
CSI are the following:
  --First, we must establish international security criteria for 
        identifying high-risk cargo containers that potentially pose a 
        risk of containing terrorists or terrorist weapons.
  --Second, we must pre-screen the high-risk containers at their port 
        of shipment--in other words before they are shipped to the U.S. 
        As a component of the Ridge/Manley Smart Border Action Plan, on 
        March 25, 2002, a Canada Customs Inspector was assigned to the 
        Port of Seattle and in collaboration with U.S. Customs 
        commenced a program which identifies and targets high risk sea 
        containers destined in-transit through the United States to 
        Canada. A reciprocal program was implemented in Vancouver, 
        British Columbia, Canada in February 2002. Effective March 25, 
        2002, Customs Inspectors were also placed at the Canadian ports 
        of Montreal, Quebec and Halifax, Nova Scotia to conduct the 
        same kind of container targeting.
  --Third, we must maximize the use of detection technology to pre-
        screen high-risk containers. Much of this technology already 
        exists and is currently being used by the U.S. Customs Service. 
        In March 2002, the Port of Seattle received a Mobile Vehicle 
        and Cargo Inspection System (VACIS). This non-intrusive gamma-
        ray inspection system will be used to provide images of 
        containers, vehicles, and trucks with their contents. The Port 
        of Tacoma will receive a VACIS in May 2002. Both machines will 
        not only be used for inspection of U.S. Customs targeted cargo 
        but also for cargo identified by other federal agencies such as 
        the U.S. Coast Guard, Immigration and Naturalization Service, 
        Food and Drug Administration and the Department of Agriculture.
  --Fourth, we must develop and broadly deploy ``smart'' boxes--smart 
        and secure containers with electronic seals and sensors that 
        will indicate to Customs and to the private importers or 
        carriers if particular containers have been tampered with, 
        particularly after they have been pre-screened.
    As you can glean from this list, technology and information are 
essential to a successful container security strategy, and to our 
counter-terrorist mission in general. And to put it simply, the more 
technology and information we have, and the earlier in the supply chain 
we have them, the better.
    Customs also looks forward to the completion of the Automated 
Commercial Environment, or ACE, which as you know is an extremely 
important project for the Customs Service. ACE, our new system of trade 
automation, offers major advances in both the collection and sorting of 
trade data.
    We are also working with the Canadian and Mexican governments to 
improve information exchange and adopt benchmarked security measures 
that will expand our mutual borders and reduce the terrorist threat to 
most of the North American continent.
    The terrorists have already exploited one key component of our 
transportation system: commercial aviation. It is not at all 
unthinkable that they will seek to target others, including maritime 
trade. We believe our seaports and the system of global trade they 
support are vulnerable, and we believe that the U.S. and the Customs 
Service must act now to address this threat. Thank you.

    Senator Murray. Thank you very much, Mr. Hardy. We will now 
turn to Mr. Michael Thorne, CEO of the Washington State Ferry 
Service.
STATEMENT OF MICHAEL THORNE, CEO, WASHINGTON STATE 
            FERRY SERVICE
    Mr. Thorne. Thank you, Madame Chair. Good afternoon. I am, 
as you indicated, Mike Thorne, for the record, the Chief 
Executive Officer of the Washington State Ferry System, and 
welcome an opportunity to be with you this afternoon. I have 
provided written comments.
    Senator Murray. Do you have your mike on?
    Mr. Thorne. Maybe I do not, does that help you? I will not 
go back and start over. Let me just say that as I was saying, I 
provided written comments, and I will summarize those very 
briefly for you. Since September 11 as has been the case for 
all of us, the security for the Ferry System, the security 
interests for the crew and the passengers has been of extreme 
importance, while the ultimate cost in terms of dollars pales 
against our concern and interest in making sure that we 
continue to provide the security necessary to satisfy all of us 
that those measures are being appropriately addressed.
    In order to do that, it seems to me that the proper 
approach is to set the proper expectations. In other words, 
what we need from the ferry system perspective and other users 
of maritime commerce, I think, is a set of expectations or a 
structure to the security plan, so that, in fact, we can go 
forward in concert to maximize the benefits that we see 
potentially from the resources that are available from Federal 
and local and State efforts.
    To date we have assigned specifically a Security Officer 
who is in charge of not only the security but the safety 
systems. In addition to that we have formed and established a 
Security Committee that is chaired by the Coast Guard, and the 
persons on that Committee include the Washington State Patrol 
as well as representatives of the Ferry System. In addition, 
we've reconstituted the importance of the vessel internal 
security program that we presently have administered by the 
Washington State Patrol. In addition to that we've put forth 
and developed various, as you would expect, various training 
and patrol security issues both for the vessels as well as 
around the terminals.
    To date we have spent an additional approximate $2 million 
with the Washington State Patrol in terms of trying to enhance 
our security system. The question is can more be done, and it 
has to be done. The question is how do we go forward to develop 
that, and my suggestions, Madame Chair, include essentially 
this:
    First and foremost, we need to establish the clear 
expectations of what our security system needs to be. That 
needs to take advantage of the sensitive intelligence 
information that is held in the hands of many Federal and State 
and local agencies, and then we need to take that information 
to set the standards on which we are going to build our 
security plan. Specifically, then we need to draw on the 
knowledge and the experience of the Federal agencies--Many of 
them are represented here. As we have been working with these 
well as other agencies not at the table but who have an ability 
to provide us with information that will guide our system, we 
need to set up the process with Federal guidance and direction 
from our perspective to allows us to take advantage of putting 
forth a security plan that then ultimately we will then 
understand how to implement it, what the cost will be, and how 
to go forward.
    Let me just conclude by saying, I cannot underscore enough 
the importance of defining the plan which all of us can then 
work toward in concert with which will then guide the resource 
allocation. It is our observation that the cooperation I am 
suggesting has been good, very good, in fact, and we look 
forward to working with those agencies and with you and with 
the direction that the Federal Government can provide in terms 
of setting forth the national security plan that is being 
discussed here today.
    Thank you very much. I look forward to responding to any 
questions that you might have.
    [The statement follows:]

                  Prepared Statement of Michael Thorne

    My name is Mike Thorne. I am the Chief Executive Officer of the 
Washington State Ferry System. Thank you for this opportunity to 
testify on Maritime Security issues.
    Since the attacks of September 11, the country and Washington State 
Ferries have been faced with a new reality regarding security response 
and readiness. We recognize that ensuring the security of ferry system 
passengers and crew is of extreme importance. While we are concerned 
with the ultimate cost of security measures, we are more concerned with 
developing the proper expectations and structure of our security plan.
    Let me share with you several new initiatives underway since 
September 11, including:
  --A Safety Systems Manager assigned responsibility for the 
        coordination of security efforts.
  --A newly created Washington State Ferries Security Committee that is 
        chaired by the Coast Guard and includes ferry representatives 
        and the Washington State Patrol. As a side note, the Washington 
        State Patrol serves as the security agency for the ferry system 
        assisting us with a variety of law enforcement needs.
  --Heightened security awareness and procedures at terminals and 
        onboard vessels.
  --Basic planning for stepping up physical security resources on our 
        vessels and at our terminals.
    To date the ferry system and the Washington State Patrol have 
dedicated approximately $2 million to meet interim security needs 
brought on by the September 11 attacks. Can more be done? Absolutely. 
In order to do so, we would prefer not to `reinvent the wheel' and 
instead suggest the following:
  --A process of drawing on the knowledge and experience of Federal 
        agencies including the Coast Guard, the FBI, the Department of 
        Transportation, Federal Highway Administration, Federal Transit 
        Authority and FEMA.
  --A Federal/State/ferry system process for being informed of known 
        threats to our operations.
  --The financial resources needed to implement the appropriate 
        security program.
    I cannot underscore enough that we will need assistance in defining 
expectations and in funding any new security initiatives from the 
Federal Government. The cooperation we have received to this point is 
encouraging and we look forward to working with all State and Federal 
jurisdictions on this matter of critical importance.
    Thank you for your interest and time devoted to this critical 
issue. We look forward to working with you and your staff on this 
issue.

    Senator Murray. Thank you very much, Mr. Thorne.

                   COAST GUARD'S TRADITIONAL MISSIONS

    Admiral Brown, I am going to start with you. During a 
Subcommittee earlier this year, the Coast Guard Commandant, 
Admiral Loy testified that one of the Coast Guard's greatest 
strengths was its ability to shift gears when necessary, and I 
could not agree more, but one concern I have is that when the 
Coast Guard boosts its effort in one mission, its other 
critical missions pay a price.
    During our hearing with Admiral Loy last month, it became 
clear that under his budget for 2003, missions like Fisheries 
Enforcement and Marine Environmental Protection will have to 
de-emphasize on a Nation-wide basis. Do you expect the activity 
here in the Pacific Northwest to mirror that national trend?
    Admiral Brown. Madame Chairman, in response to your 
question, as you know we did surge, specifically here in the 
Pacific Northwest, in response to the threat. We have now 
substantially returned many of those assets we brought in from 
the coast, and, as a result of your support working with the 
Navy, we've been able to return substantially to all of our 
mission areas, with the top two being Search and Rescue and 
Homeland Security--Maritime Security
    In terms of the assets we have, we apply them based upon 
the information and knowledge and the threats that we have that 
are known and available to us in terms of information. Our 
assets that we have applied to those areas you talked about, 
fisheries, maritime pollution and those other assets, we have 
returned substantially to those. I suspect that in this area we 
will apply them first and foremost to Search and Rescue, 
Homeland Security and to the extent we have the resources 
available, we will pursue the other missions.
    Senator Murray. So I can assume from what you just said 
that you have de-emphasized Fisheries Enforcement and Marine 
Environmental Protection at this time because of Search and 
Rescue and Homeland Security?
    Admiral Brown. No, ma'am. We have returned substantially, 
not 100 percent, but we've returned substantially to those as a 
result of, your efforts in terms of budget, in terms of 
resources we got, and of course, supplemental and resources we 
are looking for in the second supplemental, and the resources 
that we have coming in the 2003 budget.

                           CONTAINER SECURITY

    Senator Murray. Captain Moore, I have a question for you. 
Traditionally the Coast Guard focus when inspecting containers 
has been on safety. The focus has been on whether hazardous 
materials containers are properly manifested and whether the 
container is properly placarded. Today, of course, the new 
national concern is whether the container poses any kind of 
security risk. Have you shifted your focus to deal with the 
issue of container security here in Seattle?
    Captain Moore. Well, Senator, we worked very closely with 
Customs and, in fact, INS, to take our resources that were 
allocated towards looking at containers, for as you say 
hazardous materials and safety to leverage that into target 
inspections, any containers that had the security concerns as 
well. Because of our Reserve call-up, we've been able to 
increase the number of containers we've looked at in 
conjunction with Customs, with Customs taking the lead on 
targeting for security concerns.
    Certainly, we are concerned if there is a container on an 
inbound vessel since we are the lead agency for vessel movement 
in entering the port and tying in very rapidly into any 
concerns that might come our way, so we can take appropriate 
actions with respect to the vessel, but in terms of our 
container inspection program, it has increased because of the 
Reserve call-up, and so we've been able to sustain, actually 
quadruple our effort there, but it has been in a lot closer 
coordination with Customs than we ever had before.
    Senator Murray. Even if we were realistically successful in 
getting more of the best new x-ray technology here in Seattle, 
what percentage of the container traffic can we expect to be 
inspected?
    Captain Moore. The Coast Guard inspection program for 
containers is really a relatively small percentage of overall 
containers coming through the ports. Approximately 10 percent 
are estimated to have hazardous materials, and we have 
traditionally hit just a small percentage of those containers 
even with our program since 1994. I think the real key here is 
going back to what was already alluded to and articulated and 
that is the point of origin control and better advance 
information on what is in the containers before they get here, 
and we all know that is a much better answer than trying to 
increase the container inspections once the Trojan horse is in 
town, so to speak.

                     SCREENING SHIP'S CREW MEMBERS

    Senator Murray. Admiral Brown, even though you now require 
ships to submit the names of their crew members 96 hours before 
they arrive, the Coast Guard cannot actually check all of those 
names against the necessary watch lists and clear each crew 
member before the ship arrives in port. Has this generally been 
the case in the Puget Sound as well?
    Admiral Brown. I would like to defer that to Captain Moore 
who works more specifically, but we have set up a national, 
centralized region where we collect all of the information, and 
what it does for us is it gives us patterns that we can look at 
and see what the anomalies are. As to specifics, I would have 
to defer to Captain Moore.
    Senator Murray. Captain Moore.
    Captain Moore. Certainly when we kicked off the 96 hours 
and received all those names, particularly of cruise ships 
where you have a large number of crew, processing that data was 
quite problematic. We put a lot of folks in place here locally, 
to share locally with INS and Customs alone with a national 
effort that was under way, and I know that they are checking an 
increasing number and an increasing percentage of those names, 
because of repeat crew names and so forth, and they are getting 
a lot more efficient at the national level. We have decided 
here locally to continue our local efforts on full sharing of 
lists in advance of arrival of a vessel in as a check and 
balance of the national system as it gets more completely up 
and running and more efficient.
    Senator Murray. But we do not check every name?
    Captain Moore. We check every name here locally. The 
challenge is when you have cruises that are under 96 hours back 
and forth, ferry operations or cruise ship operations that are 
to and from Canada. However, I cannot say from the 96 hours out 
before they come into our waters, that we've had a hundred 
percent sharing of information locally with INS and Customs 
while the national system has done what it has done.

                       INTERNATIONAL COOPERATION

    Senator Murray. As I mentioned in my opening statement, we 
receive cargo in Puget Sound from Nations that do have known 
terrorist activity, Nations like Indonesia, Malaysia, 
Philippines. Many individuals who are concerned with port 
security have said that we need to extend our borders to 
foreign Nations. I've heard that here today as well, and by 
that they mean that we must take measures to ensure that ships 
and cruise and cargo are safe when they leave their ports of 
origin, not when they come into the United States waters.
    Admiral Brown, I guess I want to ask you and Mr. Hardy how 
we can realistically depend on all the Nations that send us 
cargo here to protect our securities to our standards.
    Admiral Brown. Madame Chairman, I would answer by saying we 
have established an international relationship, and we have an 
international maritime history through our International 
Maritime Organization, (IMO) and that issue has already been 
raised in terms of trusted partners in validating the integrity 
of the cargo that is being forwarded. So that would be my 
response in terms of how we would go about it. That would be 
through our IMO association where the Coast Guard has--
    Senator Murray. Does that include Indonesia and the 
Philippines as well?
    Admiral Brown. I do not know. I would have to get back to 
you for the record. I do not know.
    Senator Murray. Mr. Hardy, do you want to comment on this?
    Mr. Hardy. Specifically involving those countries, we have 
no plans right now for interchange of Customs Officers or 
information. We are testing our systems with Canada. We are 
seeking, we are talking to Rotterdam and Singapore, because 
those are major transit ports from shipments from those 
countries, and that is our first cut is to take the bigger 
locations.
    Now, on the other side, I am sure there is diplomatic work 
being done, and we are trying to deploy attaches to get a 
better understanding how they do business in those countries. 
The important point for us is we are not abandoning the 
traditional methods that we have here, the tiered approach, the 
databases that we have, the canine deployment and the 
detection, but yes, we are.
    Senator Murray. You are talking about in addition to what 
we already do?
    Mr. Hardy. Right.
    Senator Murray. But are you talking about having your 
Customs Officers at those ports, yourselves, or you are using 
people from their ports to do this?
    Mr. Hardy. Well, what we are testing now working with the 
Canadians is having a U.S. Officer in Canada. We are also going 
to take that out, we have them at Vancouver and Halifax and 
Montreal. We are seeing what kind of information the Canadians 
have to share with us, so that we can possibly do a better job. 
We are going on an outreach to Rotterdam and Singapore to do 
the same things, and those are the major transit ports for 
containers through those two major ports.
    Senator Murray. And you are talking about having United 
States Customs Services at those points?
    Mr. Hardy. Yes.
    Senator Murray. Captain Moore, the Coast Guard has been 
very successful with its Port State Control Program in holding 
Nations accountable who do not comply with our safety 
requirements. We do this by scrutinizing ships from 
questionable Flag States with extra inspections before they are 
allowed to enter the port or transfer cargo.
    Do you see any potential for using similar methods to force 
countries to implement stronger security measures and controls 
at the point of origin so that ships can be precleared before 
they enter United States waters?
    Captain Moore. Absolutely, Senator, I think that falls into 
the concept of fast track, slow track. You will get less 
inspections if you have a safe record. I do not think we will 
ever guarantee that we are not going to board somebody, but 
certainly those that have a good track record know that they 
can probably come in and have less chance of being delayed.
    Here, we put a security matrix in place in the aftermath of 
9/11, and we have continued to use it, and that is in addition 
to what we are directed to do by Washington, D.C., and it is 
essentially the same kind of port. It is really Port State 
Control plus, the plus part being the security part, screening 
vessels for the areas of risk and deciding to board vessels.
    We have essentially doubled our numbers of boardings since 
9/11. I suspect that exact same evolution is going to play out 
in terms of those that are going to have problems are going to 
recognize that they are going to get boarded by either the 
cargo they carry or where they are coming from or some of the 
crew that are, because I think they figured out why some of 
those crew are being targeted. I think that same thing is 
playing out.

                         NAVAL FORCE PROTECTION

    Senator Murray. Very good. Admiral Smith, providing force 
protection for our naval assets in Puget Sound is a critical 
priority, but I am equally concerned about the burden that is 
being placed on the Coast Guard to protect our Navy assets at 
the same time as they are being required to address many of our 
other security needs. The Commander in Chief of the Pacific 
Fleet, Admiral Fargo, echoed my concern in response to a letter 
that I wrote him several months ago, and he responds to my 
letter by assigning five force protection units to the region 
including 200 personnel and four vessels. Have these units been 
permanently assigned to Puget Sound and how have they helped 
you to maintain that level of force protection that you need?
    Admiral Smith. Madame Chairman, thank you for the question 
and thank you for your support in other areas as well. 
Throughout the region, in supporting naval facilities and other 
security issues, those forces have been deployed for the 
region, and by those forces being deployed to the region, they 
have relieved the pressure on the Coast Guard so that the Coast 
Guard could go back and do those other missions that are so 
critical to this area. What the Coast Guard is providing today 
compared to what they were providing on 9/11 is almost nothing 
more than our coordination that we do each day.
    Now, the Coastal Warfare Unit with their 251 people, their 
headquarters element is right here in the Coast Guard building 
here at pier 36, and they are deployed throughout the Puget 
Sound region, primarily in Navy venues, but that has relieved 
the Coast Guard from providing the waterside security in those 
areas. So those assets are now returned back to the Coast Guard 
to go back out to the other ports to do other things.
    Senator Murray. Part of that assignment included the two 
Cyclone Class Patrol ships that were placed around the Tacoma-
California command of the Coast Guard, I believe. Has this 
arrangement worked out to the satisfaction of everybody and 
will we continue to see that kind of cooperation?
    Admiral Smith. Currently there is one Cyclone Patrol Craft 
that is here in the Pacific Northwest. Commander Naval Surface 
Forces Pacific Fleet is looking at an alternative as to how we 
can get more assets to the Pacific Northwest when it comes to 
Coastal Patrol Craft. They are ideally suited for this mission, 
the escort mission that the Coast Guard has now picked up by 
those assets, and those assets are also supporting the Coast 
Guard with some of their border patrols, and because of 
inclement weather and other things, those craft are also 
picking up that role, but yes, ma'am, those assets are tacked 
onto the Coast Guard. There are 13 of those assets in the 
United States Navy, and all 13 are tacked onto the Coast Guard.
    Senator Murray. Is there any chance that those assets are 
going to be moved out of Puget Sound?
    Admiral Smith. There is a current effort to move some of 
them to the Puget Sound.
    Senator Murray. Currently here, and not away?
    Admiral Smith. Yes.
    Senator Murray. Okay, Mr. Coleman, let me turn to you. Ship 
crew lists are now transmitted to INS 96 hours in advance of 
ship arrivals. What is your agency doing with that information?
    Mr. Coleman. We run the names through our databases. We 
have increased requirements given the visa waiver part of that 
process. The Coast Guard is doing more than just giving us the 
lists now. They are helping us. They put out internal guidance 
in their maritime law enforcement handbook. We run as many 
people through those lists as we can so we have as much advance 
information on the travelers as we can. You alluded to what is 
going on in the Puget Sound with the ferries. We are getting 
more cooperation from Victoria Clipper, Coho, are working more 
with them because of the short time frames involved. There are 
increased requirements, and they understand that. I believe 
they are trying to work with us more, but there are some 
hurdles that we have to get through.
    Senator Murray. Last week in Virginia, I understand that 
some Pakistani crew members were allowed to disembark their 
ship and promptly disappeared and did not return. Some of the 
names of those individuals were later found to be suspects by 
other Federal agencies. What is the likelihood that a similar 
situation could occur here in Puget Sound?
    Mr. Coleman. The Seattle District enjoys a very robust 
system for distributing policy, and our communications within 
the district are very strong. They are very tight. When that 
episode happened, we went so far as to try to find an inspector 
in our ranks that did not know that policy, that did not 
understand the rules that we are operating on, and we found 
ourselves to be in really good shape. We have strong 
communication, lines of communication in the District, and we 
have very effective command controls.
    Senator Murray. What rules are you referring to?
    Mr. Coleman. The policies that INS have regarding visa 
waiver and those things that are very much aware to us and our 
staff. We use them very effectively, and I am just reporting 
that the Seattle District was in good shape regarding that 
policy.
    Senator Murray. Let me ask you as well, passenger lists are 
handled differently. They are not required to be transmitted, 
as you just referred to a second ago, for cruise ships but 
lists are voluntarily transmitted to INS. Are you or any other 
agency currently prescreening passengers that arrive on cruise 
ships?
    Mr. Coleman. We prescreen the large crew ships that come to 
us. We get some of that information.
    Senator Murray. Some of that information.
    Mr. Coleman. Well, it is, the cruise ship industry exploded 
in Seattle really just last year, and it is increasing even 
this year, but the Coast Guard provides us information, and we 
run it the best we can through our data bases in advance.
    Senator Murray. Right now, for all airplane passengers, all 
passengers are screened. Why are we not doing the same thing 
for cruise ships?
    Mr. Coleman. The Customs Service issues that directive, and 
I believe they have the primary jurisdiction on the issuing the 
requirements to the traveling industry. I would defer to Tom on 
that.
    Senator Murray. He is delighted that you referred that to 
him.
    Mr. Hardy. I have not boned up on that too much, other than 
the fact that we are moving to the cruise ship venue, and other 
forms of transportation in terms of the advanced passenger 
information system, but we will get you that information for 
the record.
    Senator Murray. I would appreciate that, as soon as you can 
do that. As we sort through this transportation security maze, 
one of my biggest concerns has been and will continue to be the 
easy target presented by our public mass transportation system. 
Our ferry system here in Washington State carries over 11 
million vehicles and 26 million people annually, and improving 
security on our ferries presents many of the same challenges as 
improving security on our commercial ships. We want tighter 
security, but we do not want to slow that traffic down.
    So Mr. Thorne, you mentioned that you heightened your 
security procedures at your terminals and on board your vessels 
as well. Can you tell us what specific measures you have 
implemented that you can talk about in this setting today?
    Mr. Thorne. Yes, Madame Chair. Specifically we have 
established with the Coast Guard and with the Washington State 
Patrol the security system that we are using which includes, 
for an example, I've mentioned since September 11, there had 
been an additional $2 million committed where State patrol 
members are present on the terminals and on the vessels. In 
addition to that, we have been trying to develop a system 
taking advantage of what Federal and other agency information 
we can get to help us target our security efforts, and in my 
comments I try to refer to the fact, if there is a need, the 
need is taking advantage of the information that rests in 
various agencies, but getting that consolidated so that we know 
how to target our security plan, and I would tell you that that 
in my mind is where some of the additional needs are. If there 
is a hole in the plan, the plan is how do we take advantage of 
the information that may rest in other agencies to make sure 
that we--
    Senator Murray. Are the other agencies talking to you at 
the current time?
    Mr. Thorne. Yes, we are working with the agencies; as I 
said, the Coast Guard, the Washington State Patrol and the 
ferries have a Security Committee now. In addition to that we 
are talking advantage of other information. I am simply 
suggesting that as we go forward the flow of information from, 
whether it is the FBI or wherever, and the ability to be able 
to be aware of where the security breaches may potentially come 
is where I think the real focus needs to be.
    Senator Murray. Admiral Brown, do you have any suggestions 
on how we can achieve better security on ferries, and/or what 
the Washington State ferries should be doing?
    Admiral Brown. I would like to make some general comments 
and ask Captain Moore to provide some more specific comments 
based on his local experience working here with Washington 
State ferries. This goes back to my opening comments about our 
need to have tailored uniformity. We talk about uniqueness. We 
have standards in place for our passenger vessels, cruise 
liners, and we have right here in the State of Washington the 
largest ferry system in the United States, but the requirements 
are different though the threats and the consequences are no 
different. So that is one of those examples that I've talked 
about. Progress has been made. Things have been done, and I 
would like to ask Mike Moore if he could speak to those.
    Captain Moore. Yes, Senator, I have a couple of 
suggestions. Certainly, early on our working relationship with 
WSF was very dramatic and quick in terms of getting word out to 
their crews, awareness is up, look for anomalous behavior, 
where to report that, on-board procedures that are not suitable 
to us to talk about in this open forum that were developed and 
put in place on Washington State Ferries, certainly the 
Washington State Patrol presence on board the vessels, the 
level that that ought to happen in terms of on the terminals 
and the vessels. Obviously it is hard to come up with an exact 
right answer without specific threat information.
    Likewise, the screening of folks coming on board or trucks 
or autos, random, what percentage, how often, those kind of 
questions remain to be fully answered. Certainly, some of those 
screening, some of the screening activity took place, and I 
think what Mr. Thorne is referring to is what are the specific 
standards going to be along those lines. If we had just 
established them early on 9/11, we likely would have shut down 
the Washington State Ferries in terms of how fast can you come 
up to screening 10 percent or 20 percent or 30 percent.
    In fact, we took a target and an informed approach to using 
the Washington State Patrol presence to do such a thing, and 
now we have to move onto the next phase, which is establish 
more consistent expectations and guidelines so they can plan by 
budget and procedure to implement.
    Senator Murray. Mr. Hardy, let me turn back to you. Earlier 
this year, the Under Secretary of Transportation for Security 
testified about the administration's new smart border 
declaration. This initiative is designed to expedite the travel 
of cargo across the U.S./Canadian border. I am concerned about 
cargo that is intended for the United States that will be sent 
to Canadian ports instead of U.S. ports because the security 
requirements in Canada will be more lax. How can you assure 
this Subcommittee that containers coming into the United States 
and into Canada and containers entering U.S. ports will be 
subject to the exact same security requirements.
    Mr. Hardy. Well, myself and others from our Headquarters 
Office have been in fact been at all the key port cities. Our 
commissioners had at least two meetings with his counterparts 
on the shared border accord, and we are in lockstep in terms of 
joint commitment to doing this. If all the perimeter approach 
is accepted by both Nations, at least the Manley-Ridge 
agreements indicate that, and our tests of putting a chief 
inspector in Vancouver along with two other targeters from 
Newark and Los Angeles, has been very successful, and 
personally was looking at the different databases each has to 
offer, both sets of officers are sharing that information, 
looking at the same information that is coming in, bills of 
lading. That type of information, the same thing is occurring 
as of last week here in Seattle.
    We have parallel ports out in Newark and Halifax and 
Montreal doing similar work. We all think it is the same 
threat. We are all looking at different information that each 
country has. There are some sensitivities of, Canadians have 
some databases that are sensitive in terms of their law and 
they are trying to harmonize those laws through legislation, so 
that they will be available to us for enforcement purposes.
    Senator Murray. You talked earlier about this as well, part 
of that Smart Border Declaration was placing U.S. Customs 
officials in Canadian ports. Will containers that are entering 
U.S. ports be more likely to be inspected by Customs and Coast 
Guard than containers that have entered through Canada?
    Mr. Hardy. I think the likelihood of examination is not 
going to be prejudiced by who is asking for the exam. If the 
Canadian officer wants to look at something, we will look at 
it. If the U.S. officer wants to look at it, we will look at 
it. That is another reason we are deploying more VACUS machines 
even on the railheads coming in from Canada out in the midwest. 
We will have an opportunity for a second chance at some x-rays 
on rail if the shipments are moving quickly, and we still 
identify something that has already left the port, we will have 
another chance to get it when--
    Senator Murray. When will those be in place?
    Mr. Hardy. They will be in place beginning this summer, 
they will deploy approximately eight of them over the next 
year, 2003.
    Senator Murray. Will the Custom's clearance process for 
containers entering into Canada be just as long as the process 
here in the United States?
    Mr. Hardy. Long did you say?
    Senator Murray. Time, in terms of time, will it take as 
long?
    Mr. Hardy. It should be similar, yes.
    Senator Murray. Can we be assured of that?
    Mr. Hardy. We are trying not to give one advantage to 
another port, one port over another port.
    Senator Murray. Will the ratio of U.S. Customs officers to 
containers be the same for U.S. ports and Canadian ports?
    Mr. Hardy. I do not have that information.
    Senator Murray. I would actually like an answer to that 
question, if you could get that back to me.
    Mr. Hardy. I do have some information in the briefing book 
coming back to the advanced information on cruise ships. It is 
a volunteer program right now, and we are seeking legislation 
for that. We have got the statement in here that indicates 70 
percent compliance by the cruise ship industry in terms of 
supplying information on their passengers.
    Senator Murray. Very good. Let me go back to you again. One 
of the great challenges in improving port security is enhancing 
the quality and reliability of information about shippers and 
cargo. I am especially concerned about the amount of cargo that 
enters our ports with manifests that read ``Freight of all 
kinds.'' Why are shippers allowed to be so vague in disclosing 
what they are shipping?
    Mr. Hardy. They are allowed to be vague, because there is 
no criteria, there is no requirement for them to be more 
specific. We have some requirements to, Customs does, to be 
specific about this. There are several types of information 
that is currently being allowed in terms of freight of all 
kinds, general merchandise, and the U.S. Customs Service is 
seeking some legislation to change that.
    The difficulty lies in the proprietary. Some manifests are 
subject to publicity. The newspapers can pick up that 
information and send it and make it public, and that, of 
course, exposes customers, buyers and sellers, and people, you 
know, peruse those looking for business opportunities, and so 
the shippers try to be as vague as they possibly can in order 
to keep other businesses from taking their business.
    The other part of this is the segment of the business known 
as the NVOCCs which are non-vessel owned common carriers, are 
allowed to manifest with less specific information, and that is 
where we typically see that type of information, and we need to 
tighten that up with some legislation.
    Senator Murray. You do not have statutory authority to do 
this?
    Mr. Hardy. We do not believe that we have enough statutory 
authority to do this. We have some information, or we have some 
requirements on the carriers themselves, the ship owning 
carriers to provide us proper manifest information and even 
that is not specific enough for us, but the non-vessel owning 
common carriers have less of a requirement.
    Senator Murray. Captain Moore, let me turn back to you 
again. Two weeks ago Admiral Pluta of the Coast Guard testified 
that he is seeking international cooperation through the IMO 
for new security issues. One issue that has received positive 
support is the requirement to move up the deadline for the 
slips to have automated information systems to 2004. This 
relatively inexpensive technology allows ships to be identified 
electronically by use of a transponder. Is your VTS ready to 
handle this electronic information at this time, or by 2004?
    Captain Moore. Senator, from a technology standpoint, some 
adjustments would have to be made, but, of course, the unique 
situation we have here is we do have some transponders from the 
international tug system, Washington State ferries and some 
tankers are already being received, as well as our radar data, 
and I think the difference between this port and a few others, 
and most other ports is that we do have a robust Vessel Traffic 
Service with surveillance along with our Canadian counterparts, 
and so when you look at the AIS system, and it is based on 
radio transmission versus satellite, how far out can you reach 
and obtain the data.
    So I think that AIS will have great benefit where you do 
not have Vessel Traffic Service. It will have some augmentation 
benefit here, certainly, but less benefit here in that we 
already have fully developed Vessel Traffic Service. I think 
down the road, you will see more maritime domain awareness able 
to reach out further than VHF or radio frequency transmissions 
can take it.
    Senator Murray. Admiral Brown?
    Admiral Brown. Madame Chair, if I could add just one small 
bit of information, in the President's request for the 2003 
budget if approved as submitted, there is an opportunity for 
our VTS to benefit in that regard, which would enhance the AIS 
receptive capability.
    Senator Murray. Some other ports have instituted 
cooperative vessel information tracking systems that are, that 
are already using the AIS. In fact, I know that Tampa, Florida 
has cooperatively purchased transponders that all pilots hand-
carry onto the ships. Home ported ships have voluntarily 
purchased AIS equipment. Is this something that would benefit 
our existing VTS?
    Captain Moore. Again, I think any time you can help track 
where vessels are and help mariners make more informed 
decisions about their vessel movements, it is an added value. 
The robust VTS, again we know where the vessel you are talking 
about the pilot vessel entered and participating in Vessel 
Traffic Service. You go to say, the Columbia River, where you 
do not have a Vessel Traffic Service, and you have AIS, or 
transponders, they can see each other and the Coast Guard can 
know where the vessels are. So you have to say that the benefit 
in an area like that would be far greater than the added 
benefit here, but it would not be as great where you do not 
have that in place.
    Senator Murray. Admiral Smith, would this capability be 
something that would assist the Navy?
    Admiral Smith. There is a very good system here except for 
the Hood Canal. That is the only area we really do not have 
covered.
    Senator Murray. I believe you have stated that there are 
areas around Navy installations that are not covered by AIS.
    Admiral Smith. Yes, the Hood Canal and Indian Island are 
not covered, but the primary approaches are covered. AIS would 
be of benefit, but it would be limited benefit, but because it 
is just a small, a couple of small areas that are not covered.
    Senator Murray. Would the Navy be willing to invest in 
expanded VTS coverage around those areas?
    Admiral Smith. Ma'am, I cannot say on that one. I will take 
that one back.
    Senator Murray. I would appreciate that very much.
    Captain Moore. Senator, could I add, where they share 
information between ships, where you do not have a Vessel 
Traffic Service, for instance offshore, up in some of our 
northern areas near the San Juan Islands, our southern part of 
the Puget Sound, we do not have a Vessel Tracking Service, 
certainly AIS on vessels that would not otherwise be tracked 
will add to the pretty comprehensive system, and certainly will 
be a big benefit in other areas as well, both safety and for 
tracking vessels for security concerns.
    Senator Murray. Thank you very much, and thank you to all 
of our panelists. I appreciate your input on this.
    We are now going to move to our second panel. So if you 
would like to take a second to stand up and trade places, we 
will move on.
    We have a very distinguished second panel here. We want to 
make sure that we have enough time for them to give their 
statements, but before I do that, I just want to welcome 
Lawrence Molloy, Port Commissioner. Welcome. It is good to have 
you here, as well.
    We will begin the second panel with Miss Andrea Riniker who 
is the Executive Director of the Port of Tacoma. Andrea?
STATEMENT OF ANDREA RINIKER, EXECUTIVE DIRECTOR, PORT 
            OF TACOMA, WASHINGTON
    Ms. Riniker. Thank you so much. I think I have this system 
down pat by now. Good afternoon, Senator Murray, and thank you 
so very much for taking time to have a field hearing on this 
important issue. My name is Andrea Riniker. I am here today 
representing the Port of Tacoma.
    As the port's executive director, balancing security with 
the efficient flow of cargo across our docks is one of my 
paramount concerns. Though ports have always devoted resources 
to safety and protection of cargo, the industry now shares an 
especially keen sense of responsibility with you, Congress and 
other governmental entities in these challenging days since 
September 11.
    Before I begin my formal remarks, let me first put my 
comments into some context by describing some of the port's key 
attributes. The Port of Tacoma moved more than 1.3 million 
containers across its docks in 2001, 70 percent of these 
international containers holding products ranging from shoes to 
machinery and lots of other things that we just heard about. 
Our transfers from ships to trains are headed for markets in 
the midwest and the east coast. Additionally, the Port of 
Tacoma serves as the gateway to Alaska since over 75 percent of 
the consumer goods that are bound for Alaska are transported on 
the CFS and tote ships that call on Tacoma.
    Another important distinction for our port is the fact that 
it serves as one of the MARAD's 13 national strategic ports, a 
designation that is really based on the load-out capabilities 
the Port of Tacoma provides for facilities at Fort Lewis.
    With nearly 102,000 jobs in Washington State related to 
activities at the Port and with the Port of Seattle and the 
Port of Tacoma working together, we clearly are major economic 
drivers here in the Pacific Northwest. The Port of Tacoma 
appreciates the opportunity today to share our perspective on 
securing our Nation's seaports. It is certainly getting to be a 
daunting challenge.
    In my short time before you today, I would like to leave 
you with essentially three key messages. One, that to us the 
coordination between Federal agencies and with all aspects of 
the transportation system as we work on these issues is 
absolutely imperative.
    Two, that the efficient movement of freight is essential to 
our economy, not just here in the region, but of course, in the 
Nation and the world, so that safety measures must be 
integrated into our port operations.
    And third, that the ultimate responsibility, of course, for 
safeguarding our Nation's transportation system of which ports 
represent a small, but economically crucial segment must lie 
with the Federal Government.
    Now, let me expand for a moment on those three. First, I 
want to recognize the tremendous progress that has already 
occurred in the enormous task in coordinating the myriad of 
agencies, governments, ports, transportation interests at the 
national level, and at the local levels. I would like to 
acknowledge the leadership, particularly of the U.S. Coast 
Guard that they have displayed, and our appreciation for the 
other agencies that have also worked hand-in-hand with the 
ports.
    However, despite the positive interactions between the port 
and the individual agencies and among the ports, some 
fundamental questions exist about how the lines of 
responsibility are actually meshing at the national level. 
Congress can really assist these important coordination efforts 
by further clarifying agencies' responsibilities and roles, and 
alleviating any potential for obstructive turf wars.
    It is also very important, I think, for Congress to make 
sure that these agencies with their newly enhanced 
responsibilities are sufficiently funded. Coordination within 
the port industry is also critical. The ports of Seattle, 
Everett and Tacoma have just submitted a joint grant proposal 
seeking funds to better protect our ports, and to improve the 
flow of information between the ports and the Coast Guard.
    The $93.3 million in grants that Congress approved last 
year is certainly a good start toward enabling ports to meet 
the Coast Guard's interim regulations. As Congress considers 
comprehensive port security legislation later this year, we 
urge you to continue making general treasury funds available to 
ports for these purposes.
    Congress will hopefully avoid the temptation of attaching 
fees to the movement of containers in order to fund security 
improvements. Such approaches unfairly penalize steamship lines 
and other businesses when in reality, the end user who benefits 
from the movement of containers is ultimately each and every 
one of us who is purchasing these products when they arrive on 
the shelf.
    Additionally, we must take care to avoid the creation of 
competitive advantages, the ones that you were discussing 
previously for our neighbor ports in Canada. We are happy to 
compete on a level playing field, but let us not try to tilt it 
through regulation.
    Before I close, I want to comment on the unique nature of 
the intermodal cargo that is the real niche for the ports of 
Tacoma and Seattle. As I noted earlier, the Port of Tacoma 
moved more than 1.3 million containers in 2001, and the Port of 
Seattle moved a similar amount. Market trends indicate that 
these volumes will double in the next 20 years. Establishing 
technologies and processes that can efficiently confirm the 
contents of containers is crucial to this mission.
    We recognize the ultimate solutions lie in standardized 
international port-of-origin controls. In the long-term, 
technology will inform us of what is in a container at the time 
the container is loaded and will allow us to track its 
movements over the ocean or across town. We will have the 
capability of knowing through electronic seals and other 
devices whether tampering has occurred en route, and final 
destination ports will be equipped with sensors to detect any 
abnormalities before a container is ever brought on land. Some 
of these technologies exist today and others are being 
developed. It will be essential for Congress, ports and the 
entire international transportation system to focus together in 
addressing this significant challenge.
    The events of September 11 have certainly put us all in a 
pretty steep learning curve. We have reached a better 
understanding of which safety improvements can occur quickly 
and which ones will require worldwide cooperation. We know more 
needs to be done to identify the contents of containers and to 
ensure safety controls are in place at the port--point of 
origin. As a Nation we have come to better understand the 
complexities of the international transportation web and our 
economy's absolute dependence on this seamless flow of 
commerce.
    The Port of Tacoma deeply appreciates your leadership in 
this important arena and for convening the hearing today. I am 
certainly looking forward to working with you as we continue to 
address these important issues.
    Senator Murray. Thank you, Ms. Riniker. I will introduce 
Mr. Steve Sewell, Managing Director and Executive Director of 
the Port of Seattle.
STATEMENT OF STEVE SEWELL, DEPUTY CHIEF EXECUTIVE 
            OFFICER, PORT OF SEATTLE, WASHINGTON
    Mr. Sewell. Thank you, Madame Chair, and we do appreciate 
your willingness to take the time to meet with us this 
afternoon and listen to us this afternoon, and especially 
appreciate your leadership over the past few months on this 
issue.
    As you know, the Port of Seattle is one of the major 
container ports in the United States. We handled over $32 
billion in foreign trade last year, which is the fifth largest 
amount in the United States, and together with the Port of 
Tacoma, we formed the third largest load center for 
containerized cargo in the United States.
    In addition, as several people in the previous panel 
mentioned, we have a fast growing cruise industry, and expect 
that to expand exponentially in the next few years, and we have 
a downtown area which is somewhat unique to ports in the United 
States, where we have 180,000 people working within close 
proximity to our terminals on a daily basis, and as Mr. Thorne 
mentioned, 11 million passengers annually through Elliot Bay on 
ferries. So all these things mean that we, I think, here, need 
to pay special attention to the issues of seaport security.
    I want to talk briefly on four points. First, the 
distinction, I guess, between cargo security and seaports or 
port security, which I think you are well aware of. Secondly 
and briefly, because you and Mr. Hardy I think had a good 
exchange on the issues of Canada and equal enforcement in 
Canada and the United States, so I will touch on that very 
briefly. Third, one item on cruise ships that I think needs to 
be addressed and probably is maybe not as visible as some 
others, and finally a couple of comments on potential 
legislation coming out of Congress.
    First, seaport security versus cargo security. We are 
initially as you know and in part of our grant application that 
we made jointly with the Port of Tacoma and the Port of 
Everett, looking at some of the, I guess, one would say easier 
things to do, that is sort of the perimeter security and 
hardening of security within the port area, whether that be 
security cameras or access controls or additional police 
presence.
    The real issue as many have said today though is the 
security of the cargo, itself, which is only touched by the 
port at one point in that change of distribution, and many have 
talked about the need to deal with that issue, and I think that 
certainly this should be the primary focus for the Federal 
Government, and it is something that is going to require 
Federal oversight and Federal intervention, and I think as 
Andrea has said, certainly requires clarity as to the agency 
that is going to be ultimately accountable and responsibility 
for making that origin to destination security logistics chain 
secure. It can be done. It is a long process, and I think that 
some of your questions were very good.
    I think it is going to require some new and creative 
thinking I think in the areas of technology, and what 
information can and should be shared, both the commercial side 
and the intelligence side, and then I think a real major effort 
in terms of international diplomacy and international 
negotiation is going to be required by the U.S. government.
    Briefly on the Canadian issue which I think you are well 
aware of based on your questions and Mr. Hardy's responses, I 
think it is very, it is encouraging that there is this 
reciprocal deployment of Customs agents in Seattle and in 
Vancouver and also the east coast, but I think you are right to 
ask the questions, and we certainly will be looking to make 
sure that the Customs clearance procedures are the same in both 
places. I think it is important to say that yes, we are 
concerned about competition, but in a way that is almost a 
secondary concern, because if we do not have the same kind of 
security in Canada that we have in the United States, it will 
be an incentive, not just for legal commerce, but for illegal 
activities to go across those borders and into the United 
States, and that is the reason why I think we need to be 
continuing to work with our bordering countries, particularly 
Canada, to make sure that that does not happen.
    Cruise ships as is mentioned, we are seeing a tremendous 
growth, and we have worked very closely with Customs and INS, 
and they've done a good job in dealing with what was really 
unexpected. It is exciting to us, but unexpected growth in that 
business. One of the things that has been most troublesome for 
all of us to deal with is on-the-water presence at a Level III 
Security.
    We do need to have presence on the water, law enforcement 
presence, and although we were able to handle that via a number 
of different local law enforcement agencies last year and will 
be able to do that next year, in the end we see that as a 
Federal responsibility. The Coast Guard clearly does not have 
the resources at this time to do that, although they do provide 
that kind of on-water presence in other parts of the country. 
They are underfunded in that area as they are in other areas, 
and we think in the long-term that should be based on the 
intelligence and training required for that mission should be a 
Coast Guard function.
    Finally, with regard to legislation, we are pleased to see 
that legislation is moving through both the Senate and the 
House, and I think that the common thing in both of those 
pieces of legislation that we like to see is something that 
Admiral Brown mentioned and that is that there is a clear 
standard be set up but with some flexibility locally to 
implement that standard based on the conditions in a particular 
port. That is important.
    I think another thing that is important is that we act 
carefully, but also act quickly, particularly because we need 
to make sure that our ports are secure, but also many of us are 
beginning to make substantial investments, and we do not want 
to make investments that will become obsolete or not useful 
once Federal legislation is in place, so the sooner the better 
on that, and finally as my colleague from Tacoma said, we 
really do need to make sure that if it can be done at the 
administration level that Congress weighs in very heavily on 
who is ultimately accountable for making sure that our ports 
are secure.
    Finally, a couple of comments. One, were I not leaving the 
port, I would be the chair of the American Association of Port 
Authorities next year. We are fortunate that John Moore of the 
Port of Everett will be taking that position, and I urge you to 
work closely with that association. They are very closely in 
tune with the comments that Miss Riniker and I have said today, 
and we are fortunate to have someone locally to be heading up 
that association next year.
    And I would just concur, we did coordinate as we 
coordinated our application, we coordinated our comments so as 
to not hit the same points, but we concur completely with what 
Tacoma has said, particularly on the issues as I mentioned of 
the clarity of Federal responsibility.
    And also just touching on funding very briefly, it is 
important that we, that this be funded. It is also important 
that a single industry not bear the burden for what is in 
essence similar to national defense, or how we fund the armed 
forces. With that, thank you, and I would be happy to answer 
any questions later.
    Senator Murray. Thank you very much, Mr. Sewell. We will 
move to Mr. Charles Wellins, Director, Pacific Northwest 
Region, Maersk, Incorporated.
STATEMENT OF CHARLES WELLINS, DIRECTOR, PACIFIC 
            NORTHWEST REGION, MAERSK, INC.
    Mr. Wellins. Good afternoon, Senator Murray. My name is 
Charles Wellins. I am a director of Northwest Activities for 
Maersk, Inc. I appreciate the opportunity to appear before all 
of you today.
    As you may know, Maersk Sea-Land has a significant global, 
national and regional presence. In 2001 our fleet of 250 plus 
ships made approximately 20,000 port calls throughout the 
world. We have a presence in more than 100 countries. A Maersk 
Sea-Land vessel is in and out of a U.S. harbor every day of the 
week. On a global basis we make approximately 55 individual 
port calls per day. The public generally recognizes us as a 
global carrier. We also have a number of highly successful 
companies involved in transportation of containers including 
trucking companies, terminal operations and logistics.
    Last year Maersk Sea-Land moved approximately 144,000 
containers through the Port of Tacoma, while our terminal 
company in Tacoma handled approximately 270,000 containers. We 
have more than 130 offices and a terminal presence in every 
major U.S. port, and we have invested hundreds of millions of 
dollars in the United States infrastructure.
    I would like to offer some brief general comments on port 
security today. Port security is a complex and enormously 
challenging issue. We appreciate, as do other carriers in our 
industry, that enhanced port security is a permanent part of 
our business process. As a company, Maersk Sea-Land made 
substantial security investments prior to 9/11 primarily for 
drug interdiction and theft protection purposes, but not to 
prevent acts of terrorism. To respond as best we can, we have 
recently initiated comprehensive security guidelines for our 
fleet of ships and are currently in the process of addressing 
this matter with other business units. We are not anti-
terrorist experts, however, given the existing pool of security 
knowledge and our means, we are taking every available 
initiative to voluntarily do what we can to enhance security 
for our personnel, our ships, terminals and trucks, and to 
protect the integrity of our customers' cargo.
    Congress will inevitably enact legislation before 
adjourning this year, and regulatory authorities feel the need 
to take unilateral action to protect America's ports and 
infrastructure. We share your goal to protect our ports. Our 
industry, however, requires an international solution so that 
the same security processes used in the United States are also 
used in other countries where containers originate. By 
international agreement, legislation or regulation, port 
security requires, one, a process that allows government 
authorities to detect and intercept security risks from a 
container's port of origin through its final destination, and 
two, a process to ensure the efficient route of that container 
under all security conditions.
    I would like to offer eight specific viewpoints. One, 
security must facilitate the movement of trade. We must develop 
and protect the system that facilitates international trade 
even in the event of a terrorist incident. This is not a 
maritime security issue, per se, but a matter of affecting 
global commerce and the world economy. We ask Congress to make 
certain the Federal Government has a strategy and a capability 
to ensure that the container trade continues to be expedited 
through U.S. ports should a terrorist incident occur. 
Terrorists reach their ultimate objective by freezing the U.S. 
economy.
    Point two, mandatory security requirements. Explicit 
mandatory rules are needed so that each entity in the supply 
chain understands their obligations to preserve the integrity 
of the container. We strongly support voluntary programs such 
as those being pursued by Customs. In some cases, however, 
mandatory requirements are necessary so that the security and 
integrity of the container is not dictated by the marketplace.
    Point three, container information. Government officials 
view timely receipt of information as being the first layer of 
defense against terrorism, so that they can detect an anomaly 
and respond accordingly, and we agree. Congress needs to 
appropriate sufficient revenue to data systems that accomplish 
this objective. Congress also needs to specify which Federal 
agency will be responsible for this function, and identify a 
date when such a system must be fully functional. It is 
important to note that carriers do not generate container 
information. It is provided to them by the cargo interest.
    In the future, we believe all information must be 
transmitted electronically. It must be transmitted wherever the 
container is stuffed, its doors are closed and sealed. Such 
information must be transmitted before containers are loaded on 
ships. The government should specify the type of security 
sensitive information it needs in addition to the manifest, and 
complete information must be supplied to the carrier for 
documentation purposes.
    Point four, port security grants. The fiscal year 2002 
Department of Defense Appropriations Act included $93.3 million 
for the newly established Transportation Security 
Administration, aka TSA, to award grants for financing the cost 
of enhancing the facility and operating security. This level of 
funding appears insufficient for industry needs today. Perhaps 
the single most important step that the committee could 
undertake after this hearing is to appropriate more funding for 
this important endeavor. Recent grant applications should 
provide the committee an appropriate benchmark of necessary 
appropriations for the future.
    Point five, protecting the supply chain. Protecting the 
supply chain is another important and challenging part of port 
security. It starts by information being transmitted at the 
factory, point of origin or consolidation and continues to the 
destination. All entities must assume responsibility for the 
security and integrity of the container: vendors, third-party 
logistics providers and consolidators, truckers, rail, terminal 
operators and carrier links. The integrity of the container 
must be maintained.
    Point six, container tracking. Container seals should be 
subject to an internationally tested and acceptable standard. 
We support a legal requirement that the cargo of interest seal 
a container after it is loaded, and the seal number be recorded 
on the relevant shipping documents; that seals need to be 
checked at the various interchange points to ensure integrity; 
and that procedures be established for when a loaded container 
is received with no seal or a broken seal. We do not believe 
that empty containers should be sealed.
    Point seven, container inspection. It is not feasible or 
even necessary to inspect every container entering or leaving 
from a U.S. port. The use of nonintrusive inspection equipment 
is increasing; however, comprehensive information about the 
contents of the container will allow the government to target 
which containers warrant such inspection. Advanced security 
information is the first layer of defense and is the best way 
to detect an anomaly before the container is loaded on the 
ship.
    Point eight, personnel port security. To the extent 
background checks are required by law, one, the government 
should assume this responsibility, not the employer, and two, 
one security card should be issued by the government so that 
appropriate truck terminal and ship personnel have access to 
security sensitive areas.
    In summary, port security grants are enormously important 
and to make the most notable near-term impact by enhancing on 
Tacoma, other ports in the States, and ports nationwide, we 
encourage the subcommittee to give this matter further 
consideration.
    You have been very generous with your time. Thank you for 
the opportunity to appear today.
    Senator Murray. Thank you very much, Mr. Wellins. We will 
move to Mr. Richard Softye, Vice President of Compliance 
Programs, Holland America Line.
STATEMENT OF RICHARD SOFTYE, VICE PRESIDENT, COMPLIANCE 
            PROGRAMS, HOLLAND AMERICA LINE
    Mr. Softye. Good afternoon, Senator. For the record, my 
name is Rich Softye. I am the Vice President, Compliance 
Programs, for Holland America Line, and will be testifying on 
behalf of Holland America and the International Council of 
Cruise Lines. I have written testimony that I have submitted 
for the record and will summarize in this oral statement.
    Holland America Line is a member of the International 
Council of Cruise Lines which is a North American industry 
trade organization representing 16 of the world's largest 
cruise vessel operators. Last year, ICCL members carried over 7 
million passengers on over 90 ships calling at ports around the 
world. The majority of these passengers were carried out of 
U.S. ports, and a majority of those from the ports of Miami and 
Fort Lauderdale. This coming year, I am pleased to say that the 
departures will increase over previous years, as Steve has 
already pointed out.
    From previous testimony by Admiral Brown, you already know 
that passenger ships and terminals are required to have 
comprehensive security plans that are acceptable to the United 
States Coast Guard. Holland America Line and the other ICCL 
members worked closely with the Coast Guard a number of years 
ago to provide a security plan template for use by our members 
to assure that each of these plans contain the required 
information in similar format to ensure consistency and 
thoroughness. Because of these plans and the industry's 
existing security posture on September 11, this industry was 
able to immediately increase its security measures to the 
highest level. In addition, ICCL initiated daily telephone 
conference calls between cruise companies, security and 
operations managers and government agencies. Participants 
included Coast Guard Atlantic Area Command, Coast Guard Pacific 
Area Command, Coast Guard headquarters, Coast Guard marine 
safety offices, the Department of Transportation S-60 unit, 
United States Immigration and Naturalization Service and other 
agencies and port representatives as needed. Again, the purpose 
was to modernize actions around the country, facilitate ship 
relocations when the Port of New York was closed to cruise 
ships, identify best practices for use for everyone, to share 
information and control rumors and to standardize requirements 
and procedures.
    I was personally one of those representatives at the front 
line of those conference calls and our front line facilitator 
responsible for stepping up responsibility, relocating ships to 
alternative ports and ensuring the consistent safety and 
security of our passengers, not only here, but around the 
world.
    I have mentioned modernization and consistency. These 
elements are absolutely critical to the success of all efforts 
addressing terminal, ship, passenger and crew security. We are 
currently working with the Coast Guard at several levels to 
identify and implement a long-term security posture, that is 
not only high, but is also sustainable, one that is flexible 
enough to meet the demands of each of the unique ports that we 
visit, either as a turn-around port, Seattle being an example, 
or as a port of call. Because Holland America Line and the 
other members of ICCL will travel worldwide, it is important to 
assure that appropriate and adequate security is provided at 
each port of call in whichever country we visit.
    To assist in obtaining a consistency around the world, ICCL 
has recently sent a letter to all Caribbean States and other 
regions urging a review and timely upgrade of security at these 
ports. We have and will continue to participate fully in the 
U.S. Coast Guard initiative at the International Maritime 
Organization to develop worldwide security regulations and 
guidelines.
    All ICCL members continue to operate at the highest level 
of security. The visible measures a passenger will see in 
arriving for a cruise ship actually in some ports exceed those 
of airports. Not only are passengers and hand-held items 
screened by metal detectors, all baggage, 100 percent is 
screened by X-ray, hand searched, explosive sniffing dogs or 
other methods. All stores coming on board are screened, and all 
personnel, passengers, crew, and visitors are thoroughly 
identified and vetted before boarding. Passenger lists with 
pertinent information are provided to the Coast Guard, Customs 
and INS at least 96 hours in advance for their screening. 
Wayside, terminal and border side security where necessary is 
coordinated with the Coast Guard and other Federal, State and 
local authorities.
    A lot has been done since September 11 and a lot remains to 
be done. Let me assure you that Holland America Line and the 
other ICCL cruise line members will be at the forefront of 
these activities, in the development and implementation of 
technologies and striving in partnership with responsible 
agencies to assure that cruising remains a safe and secure 
vacation option. I will be pleased to answer any questions you 
may have.
    [The statement follows:]

                  Prepared Statement of Richard Softye

    Mr./Ms. Chairman, my name is Richard Softye. I am the Vice 
President Compliance Programs for Holland America Line. I am pleased to 
appear before you today regarding security at our Nations seaports. I 
am here not only to testify on behalf of Holland America Line but also 
the industry and its trade association the International Council of 
Cruise Lines.
    The cruise industry was shocked and deeply saddened by the attack 
on America and the tremendous loss of life that resulted from this 
national tragedy. In light of these recent events, we are continuing 
operations at a very high level of security and ICCL, together with our 
cruise lines member operators, are working with all appropriate 
Federal, State, and local agencies to ensure that traveling Americans 
are protected to the maximum extent possible.
    ICCL is a non-profit trade association that represents the 
interests of l6 of the largest cruise lines operating in the North 
American cruise market and over 73 Associate Member companies that are 
cruise industry business partners and suppliers. ICCL member cruise 
lines serve major ports in the United States and call on more than 400 
ports around the world. Last year, ICCL's member lines carried more 
than 7 million passengers on 95 vessels.
    I welcome the opportunity to appear before the Subcommittee today 
to review and discuss our industry's efforts to ensure the safety and 
security of all of our passengers and crew. The cruise industry's 
highest priority is to ensure the safety and security of its 
passengers. A cruise ship is unique in that it is inherently secure 
because it is a controlled environment with limited access. In order to 
maintain this secure environment, cruise lines have established strict 
and highly confidential ship security procedures that meet or exceed 
strict ship and passenger terminal security procedures that are set 
forth by the International Maritime Organization (IMO) and by the 
comprehensive regulations established by the U.S. Coast Guard (USCG). 
In the United States, the USCG oversees the enforcement of these 
security measures. Regulations address both passenger ship and 
passenger terminal security and outline methods to deter unlawful 
activities onboard passenger vessels.
    The l986 IMO Measures to Prevent Unlawful Acts Against Passengers 
and Crew address concepts such as: restricting entry to sensitive 
locations including the ship's navigation bridge and the terminal's 
security control center for example; monitoring the flow of materials 
and consumable supplies brought onboard a ship; and providing perimeter 
security around the terminal and ship. Security procedures within these 
measures include the use of metal detectors, x-ray machines and other 
screening techniques to prevent unauthorized entry or carriage of 
weapons onboard.
    In l996, the USCG implemented an Interim Final Rule on Security for 
Passenger Vessels and Passenger Terminals, which was finalized in 
October of l999. These regulations require ship and passenger terminal 
operators to submit comprehensive security plans to the USCG for review 
and acceptance. In this regard, the plans for all ICCL member lines 
have been submitted and accepted by the USCG. The security plans, which 
are sensitive law enforcement documents and therefore not available to 
the public, include the following major components:
  --Identification of three levels of security and specific procedures 
        to implement and follow at each level
  --Procedures to prevent or deter unlawful acts onboard
  --Procedures to prevent or deter introduction onboard of weapons and 
        other unauthorized items
  --Procedures to prevent and or deter unauthorized access to vessels 
        and restricted areas
  --Designation of an onboard Security Officer
  --Security training for all crew members
  --Procedures for coordinating the ship security plan with the 
        terminal security plan
  --Directions and procedures for reporting of violations and unlawful 
        acts
  --Annual security audits for each ship
  --Review of security plan amendments and security plan implementation 
        by the USCG
    Passenger vessel security plans and their amendments are reviewed 
by USCG Headquarters and examinations are conducted by the local 
Captain of the Port to verify that all security practices and 
procedures are effective, up-to-date, and are being followed.
    As a result of this extensive security planning, the cruise 
industry was one segment of the transportation industry that was able 
to immediately move to a heightened security posture as a result of the 
attacks on September 11, 2001. While implementation of Level III 
security, the highest level of security, was directed by the U.S. Coast 
Guard at U.S. ports, ICCL member operators reported that they 
implemented security measures consistent with this declaration even 
before it was ordered.
    Security measures at U.S. cruise terminals, and onboard ICCL member 
cruise ships remain at Level III--the highest possible. Passenger 
vessel security measures include passenger-screening procedures which 
are similar to but actually exceed those found at airports. This 
includes 100 percent screening of all passenger baggage, carry-on 
luggage, ship stores and cargo, and also includes higher levels of 
screening of passenger identification. Official passenger lists are 
carefully reviewed and proper identification is ensured before anyone 
is allowed to board the vessel. Even before the attacks of September 
11, and as a result of long standing memorandums of understanding, all 
passenger lists were made available to the INS and Customs for 
screening. Passenger identification is now subject to even stricter 
scrutiny and the industry is working closely with the INS and other 
Federal agencies to ensure that any passenger suspected of being on any 
agency's' lookout list are reported to the Federal authorities for 
further action.
    Another component of Level III Security requires ship operators to 
restrict access to authorized personnel and to identify restricted 
areas on the vessel that require positive access control such as 
intrusion alarms, guards, or other measures to prevent unauthorized 
entry. Restricted areas on a vessel will include the bridge, the engine 
room, and other areas throughout the ship where operations are 
conducted. Other onboard security measures, not generally discussed for 
obvious reasons, are employed to maximize shipboard security and to 
deter unauthorized entry and illegal activity. Every vessel has a 
trained security staff responsible for monitoring activities and 
responding to any suspicious activity that may jeopardize the safety of 
the passengers and crew.
    For many years, the cruise industry has been pro-active in 
developing effective security measures and has looked for ways to 
increase passenger safety. In fact, most ICCL member lines now utilize 
advanced technologies to control access to our vessels. The Passenger 
Access Control System, that has been installed on many of our members' 
vessels, utilizes a passenger identification card that incorporates a 
picture of the passenger that is taken at the time of boarding. This 
picture and other passenger identification information and cruise 
information is placed into an onboard computer system. During the 
course of a cruise, the identification card is presented each time a 
passenger departs or boards the vessel. The picture appears on a 
computer screen that is matched against the person's face for 
identification purposes before they are allowed to board the ship. The 
card can also be used for room access and for onboard purchases. This 
new technology is only part of an overall onboard security system that 
further enhances the proper identification of all passengers and crew 
boarding the vessel.
    Since 1998, ICCL and its member operators have been members of the 
U.S. Interagency Task Force on Passenger Vessel Security. This group, 
which includes representatives from the Departments of Transportation, 
Defense, State, and the U.S. Coast Guard and others, meets every 60 
days to discuss emerging security issues, receive updated threat 
information, and address specific security concerns. Starting on 
September 12, the ICCL Security Directors and Operations Managers 
teleconferenced on a daily basis with this group and other Federal 
agencies such as the INS, USCG Atlantic and Pacific Area Commands, 
major USCG Marine Safety Offices and port authorities to efficiently 
communicate, resolve problems and control rumors. These daily 
conference calls lasted for almost six weeks before being scaled back 
to twice a week and finally eliminated, as the issues were resolved. 
That information exchange was proven to be valuable both to our member 
lines and the Federal agencies involved. As the need arises, we 
continue to jointly address matters impacting both ship operations and 
security. We are committed to providing the highest levels of security 
for our passengers and to working with appropriate Federal agencies to 
address additional security measures that may become necessary.
    Mr. Chairman, we in the cruise industry, believe that our security 
plans and working relationships with regulatory agencies are 
accomplishing many of the goals of the Port and Maritime Security Act 
of 2001. The collaboration and cooperation of all agencies and industry 
exhibited since the events of September 11 are also accomplishing many 
of the goals of this legislation. Of course all of the additional 
security measures that we have put in place are consuming resources and 
money at a rapid pace. We would urge you to ensure that there is 
adequate funding that comes with any additional mandates that are 
placed on agencies, ports or industry through the legislative process.
    While we as an industry together with our Coast Guard partners seek 
to identify a long-term sustainable security posture, we believe that 
new technologies must be developed and brought on line in the security 
battle. These technologies may include detection of exotic explosives, 
plastic weapons, and biological and chemical agents. In the wake of the 
Anthrax attack, there were many hoaxes, and instances of spilled 
powders, sugar and coffee creamers that caused concern. This industry, 
as with other segments of the travel industry, went to great lengths to 
minimize the impact of these incidents. But, from an abundance of 
caution approach, all had to be treated with the utmost seriousness. 
Methods need to be developed, tested and certified to rapidly identify 
and/or rule out agents such as Anthrax so as to give decision makers 
the necessary tools to make well-reasoned and scientifically supported 
decisions.
    Neither the Coast Guard nor the ports currently have the resources 
necessary to provide continuous effective waterside security patrols in 
those ports where this may be necessary. In some ports, the cruise 
ships themselves have been asked or directed by the Coast Guard Captain 
of the Port, to lower lifeboats or rescue-boats to assist in the 
waterside security equation. While this has been possible in the short 
term, we do not believe that the ships themselves, whether they be 
cruise ships or cargo ships, should be placed in a position of 
utilizing lifesaving appliances for purposes other than lifesaving. It 
is our belief that waterside security zone enforcement and other 
waterside patrols, if not conducted by Federal or State agency assets, 
should be the responsibility of the local port authority.
    Mr. Chairman, these are challenging times--not only from a security 
standpoint but also from a business point of view. But as I stated 
before, the highest priority of the cruise industry is, and will always 
be, to provide a safe and secure vacation experience for our 
passengers. Our industry pledges its cooperation working in partnership 
to sustain the level of security necessary to maintain the outstanding 
safety record of the cruise industry.
    This country can and will unite to exercise one of our most 
cherished freedoms, the freedom to travel. It is up to us to ensure 
that we protect not only the freedom, but to ensure that those whose 
goal it is to disrupt our way of life are not successful. We, in the 
cruise industry, will do everything possible to protect those who 
choose this outstanding and safe vacation option.
    Thank you for the opportunity to appear before you today.

    Senator Murray. Thank you very much, Mr. Softye. We will 
move to Mr. Del Bates, Vice-president, ILW Union, Number 19.
STATEMENT OF DEL BATES, PRESIDENT, INTERNATIONAL 
            LONGSHORE AND WAREHOUSE UNION, LOCAL 19
    Mr. Bates. Good afternoon, Senator Murray, and thank you 
for giving us a voice at this forum.
    As a vice-president of the International Longshore and 
Warehouse Union Local 19, representing working men and women in 
the Port of Seattle, I am pleased to submit my comments 
regarding the security of our ports. The members of the ILW are 
committed to making our ports and surrounding areas safe and 
secure and free of criminal or terrorist activities. Just as 
important, we are absolutely committed to insuring the security 
of our work force, as well as the surrounding communities where 
we all live and interact. This is essential since ILW members 
face direct risk to their personal safety and livelihood from 
such criminal and terrorist acts simply by virtue of where we 
work.
    Following the horrendous acts of September 11, ports 
throughout the country went on immediate security alert. In 
most ports, most major ports, meetings were held between the 
Coast Guard, maritime employers and longshore labor to discuss 
the threats we now face and the actions we must take. The Port 
Maritime Security Act initially focused on criminal activities 
rather than national security and terrorism. The present need 
to secure our ports from the threats of international terrorism 
now overrides all other issues.
    There are substantial areas of omission in Senate Bill 1214 
that need to be rectified to truly enhance our Nation's 
seaports' security. The U.S. Coast Guard has basically been the 
water side enforcement agency within the Federal Government. 
For purposes of clarity, I understand that the land side 
enforcement is a different matter altogether. Land side 
security enforcement has been the function of the local ports' 
board authorities and internal operators.
    It is absolutely contrary to the facts and to the goal of 
maintaining secure seaports to treat longshore workers as 
security risks. Longshore workers are not the problem, but 
rather we are a critical part of the solution for keeping our 
ports safe and secure from crime and terrorism. It is the ILWU 
members who are best able to detect and report suspicious and 
unusual activity in the ports. We should be partners rather 
than suspects in the efforts to secure our Nation's ports.
    As a general matter of policy, the ILWU opposes background 
checks on any of our dock workers. During the investigation of 
the Graham Commission, the ILWU challenged the Commission to 
prove their assertion that internal conspiracies are a problem 
at many of our Nation's ports. We asked them for an example of 
an internal conspiracy to commit crimes involving ILWU workers. 
They could not produce one example of ILWU workers at our 
Nation's ports involved in criminal conspiracies, not one. In 
fact, the only involvement our members have with serious 
criminal activity is reporting to authorities suspicious 
activities and cargo.
    In previous testimony before the Senate Commerce, Science 
and Transportation Committee, we pointed out that the actions 
of one longshore worker in the Port of Tacoma led to the 
largest cocaine seizure in the port's history. Also, in times 
of war, the ILWU members have delivered on their promise to 
load military cargo in the safest and most efficient way 
possible, and many of us are veterans.
    It is equally critical that the government not respond to 
the new terrorism against our country in ways that harm the 
productivity of our commercial seaports. Excessive or imprudent 
regulations that fail to account for the true realities of port 
operations will only result in further damage to the national 
and world economies at a time when we are in perilous 
circumstances. We must not through rash government regulations 
accomplish the very result our enemies seek and we are trying 
to avoid--the disabling of waterfront commerce.
    I appreciate the opportunity to submit comments on the 
behalf of the ILWU. Accompanying the statement is a detailed 
proposal designed to pinpoint critical security sensitive areas 
with specific delineations between land-side and water-side 
operations. The proposals are designed to increase and improve 
port security protection in an economically feasible way. Thank 
you very much.
    [The statement follows:]

                    Prepared Statement of Del Bates

    As Vice President of the International Longshore and Warehouse 
Union, Local #19, representing working men and women in the Port of 
Seattle, I am please to submit my comments regarding the security of 
our Ports. The members of the ILWU are committed to making our ports 
and surrounding areas safe, secure and free of criminal or terrorist 
activities. Just as important, we are absolutely committed to 
insulating the security of our workforce as well as the surrounding 
communities where we all live and interact. This is especially so since 
ILWU members face direct risk to their personal safety and livelihood 
from such criminal and terrorist acts simply by virtue of the jobs we 
do and the areas where we work.
    Following the horrendous terrorist attacks of September 11, ports 
throughout the country went on immediate security alert. In most major 
ports, meetings were held between the Coast Guard, maritime employers 
and longshore labor to discuss the threats we now face and the actions 
we must take. The Port and Maritime Security Act (S.1214) initially 
focused on criminal activities rather than national security and 
terrorism. The present need to secure our ports from the threats of 
international terrorism now overrides all other issues. There are 
substantial areas of omission in S.1214 that need to be rectified to 
truly enhance our National's seaport security. The U.S. Coast Guard has 
basically been a waterslide enforcement agency within the Federal 
Government. For purposes of clarity, understand that landside 
enforcement is a different matter altogether. In major American ports, 
including areas ILWU jurisdiction, landside security enforcement has 
been a function of the local port and terminal operators.
    It is absolutely contrary to the facts and to the goal of 
maintaining secure seaports to treat longshore workers as security 
risks. Longshore workers are not the problem but rather are a critical 
part of the solution for keeping our ports safe and secure from crime 
and terrorism. It is the well-established longshore workforce that 
knows how things work best in the ports and, perhaps most importantly, 
knows who belongs where in the marine terminals. It is ILWU members who 
are best able to detect and report suspicious and unusual activity in 
the ports. The government should, therefore, enlist these dedicated 
workers as partners rather than as susptects in the effort to secure 
our Nationals ports.
    As a general matter of policy, the ILWU opposes background checks 
on any of our workers. During the investigation of the Interagency 
Commission on Seaport Security (the Graham Commission) the ILWU 
challenged the Commission to prove their assertion that internal 
conspiracies are a problem at many of our National's ports. We asked 
them for an example of an internal conspiracy to commit crimes 
involving ILWU longshore workers. They could not produce one example of 
ILWU workers at our National's ports involved in criminal conspiracies. 
Not one. In fact, the only involvement our members have with serious 
criminal activity is reporting to authorities suspicious activities and 
cargo. In previous testimony before the Senate Commerce, Science and 
Transportation Committee, we pointed out that the actions of one 
longshore worker at the Port of Tacoma led to the largest cocaine 
seizure in the Port's history. In times of war, the ILWU members have 
delivered on their promise to load military cargo in the safest, most 
efficient way possible.
    It is equally critical that the government not respond to the new 
terrorism against our country in ways that harm the productivity of our 
commercial seaports. Excessive or imprudent regulations that fail to 
account for the true realities of port operations will only result in 
further damage to the national and world economies, at a time when they 
are in perilous circumstances. We must not, through rash government 
regulation, accomplish the very result our enemies seek and we are 
trying to avoid--the disabling of waterfront commerce.
    Accompanying this statement is a detailed proposal designed to 
pinpoint critical security--sensitive areas with specific delineations 
between landslide and waterside operations. The proposals are designed 
to increase and improve port security protections in an economically 
feasible way.
Waterside Security Issues
    Match Personnel With Provided Documents.--Legislation should 
require crew and passenger lists including names, addresses, passports, 
and mariner documents be matched up in person with the documents 
submitted. When the Immigration Naturalization Service (INS) is given 
the documentation, they merely go through the documents without 
requiring the individual's presence to insure he or she is who the 
documents say they are.
    Implementation of Integrated Systems.--Implementation of integrated 
systems allowing Customs to inspect and/or review manifests containing 
identification of shipper, port of origin, and cargo shipped prior to 
vessel entering American waters.
    Advance Security Clearances of Vessels.--The legislation should 
require advance security clearance requirements for all vessels, their 
owners, operators and crew before entering a U.S. port. Presently, 
these vessels operate under secrecy and without regulations by the 
scheme of flying the flag of a country (flag of convenience) that lacks 
any meaningful regulations and scrutiny. The London Times reported that 
the terrorist group Al Queda operates flags of convenience vessels.
Landside Security Issues
    Container Security Seals.--Like luggage on airplanes, the 
containers on vessels and in port facilities need to be subjected to 
security screening to protect U.S. seaports and international maritime 
commerce. Obviously, it is both impractical and cost prohibitive to 
inspect every one of tens of thousands of containers that flow in and 
out of our ports each day. Proposed legislation should at least mandate 
that port workers who receive containers inspect the integrity of the 
outside seal on each container. Seal inspection must be done to insure 
that the seal number matches up with the consignee who was the last 
person who sealed that container up and is responsible for the cargo 
therein. To insure port security, this is one the ``primary'' actions 
that must be undertaken. This act must mandate that the integrity of 
the seals be checked and rechecked against terminal documentation to 
insure the origins of that cargo. A broken seal would alert the port 
facility that the container has been tampered with and that it needs to 
be carefully inspected before entering a facility or being placed on a 
vessel, and should be immediately earmarked to Customs for inspection. 
A systematic check of container seals provides authorities with a 
record as to the parties responsible for placing the seal on any 
container that may be the means of terrorist act.
    Empty Containers.--One of the most overlooked of potential security 
risks to terminals, ships, and port infrastructure is the proper 
handling of empty containers. On any given day as much as forty percent 
of cargo delivered into any facility is comprised of empty containers. 
A physical inspection of these containers is vital for a number of 
reasons; (1) Terminal safety--knowing that in almost all port 
facilities empty containers are very rarely inspected, the potential 
for placement for some kind of explosive device is something that must 
be considered and planned for, (2) Vessel Safety or remote site 
endangerment--the concept where an uninspected empty container 
containing an explosive device would be loaded onto a vessel for 
detonation. In many ports throughout the world the inspection of empty 
containers is a requirement, for exactly many of reasons that were 
outlined! What would happen if a terrorist cell in a foreign country 
for example were to take an empty container, place an explosive device 
inside, then load it up and ship it for detonation elsewhere? For 
years, inspection of empty containers was regularly done in America's 
largest seaports; however this procedure was abandoned some years ago. 
Once again, if we truly are desirous of creating safe and secure 
seaports then the return to these inspections is a must.
    Non Inspection of Truckers.--The primary threat to American 
seaports is the ability to truckers grain access to dockside marine 
containers terminals with ``carte blanche'' accessibility. The majority 
of all truckers entering marine facilities in America's largest ports 
do so without having to exhibit any kind of identification whatsoever. 
Prior to the terrorist attacks in New York and Washington D.C., there 
was no requirement for truckers to produce any identification upon 
entrance to marine terminal facilities. However, even following the 
attack, only two marine container facilities now demand I.D. upon 
entrance through marine terminal gates, but there is still no match-up 
of photo I.D. with the truckers themselves because they only have to 
produce the drivers license number for entrance. The truckers entering 
these marine facilities have virtually unobstructed access to the 
entire facility, enabling them to place anything, anywhere, at anytime.
    The Failure to Provide Secure Cargo Handling Areas.--In many ports 
throughout the world, the local workforces take the cargo (now in steel 
cargo shipping containers almost all the time) and place them in 
secured ``holding'' areas, many times located next to marine facility 
entrance gates, awaiting truckers who are allowed only in these secured 
areas to pick upon containers, usually on an appointment basis. This is 
an excellent concept that has resulted from years of experience 
realizing that he best way to secure your facility is only allow those 
on the terminal that have immediate business needs. They then realized 
that to allow trucker's unlimited ``carte blanche'' access to all areas 
of the facilities was a dramatic error as it compounded the problems of 
security and congestion. What followed was the establishment of secure 
``holding'' for cargo retrieval.
    Utilization of Existing Security Personnel.--Minimum manning 
standards and uniform training procedures must be adopted for the 
existing professional security personnel to meet the growing security 
needs of our ports.
    The above outlined points are a collection of the most critical 
procedures that must take place if we are to safeguard our American 
seaports. We have worked within these ports every day for many years 
and our experience enables us the opportunity to share with you, the 
Committee, some of the protocols and procedures in a marine 
environment.
    I appreciate the opportunity to submit comments for the record on 
behalf of the International Longshore and Warehouse Union and I am 
prepared to answer any questions from Committee members. I look forward 
to the opportunity to work with you as we solve the problems of 
reviewing security issues so that commerce within our National's 
seaports may continue uninterrupted in a manner prosperous, safe and 
secure for many years to come.

                                ------                                


  Postion Paper on Seaport Security for Container Terminal Facilities

                                preamble
    Container terminals are unique waterfront operations that present 
their own security challenges. Accordingly, this paper proposes a 
security system to meet these challenges while at the same time 
permitting the efficient and effective movement of cargo containers. 
However, the principles introduced here will have application to other 
marine cargo handling facilities as well other modes of transportation 
and their facilities.
    Moreover, some of the concepts discussed here are intended to 
clarify elements of the Port and Maritime Security Act of 2001 (the 
Hollings Bill or S. 1214) passed by the Senate and information provided 
by the Port Security Direct Action Groups under the auspices of the 
Office of Homeland Security and Department of Transportation.
    The paper is organized into key areas that need to be addressed in 
order to ensure that a seaport security regime is workable in the 
context of the business of container terminal operations.
                              definitions
    Clear Definitions.--House bill needs to clearly define key terms. 
We suggest the following definitions:
  --Secure Perimeter.--Are the elements designed or utilized to prevent 
        unauthorized access to a facility from the landside.
  --Positive Access Controls.--The points in the secure perimeter where 
        entry and exit gates are placed, where credentials and 
        authorization for entry are validated and recorded, and where 
        delivery, cargo, cargo documentation and interchange 
        information are checked.
  --Controlled Access Area.--As applied to container terminals, a 
        controlled access area encompasses the entire terminal inside a 
        secure perimeter without requiring further segregation or 
        positive access controls.
  --Security Sensitive Information.--Information concerning the 
        contents of intermodal containers.
  --Credential.--A national transportation worker credential applying 
        to truckers, railroad workers, maritime terminal employees, 
        etc. which positively verifies a person's identity and 
        suitability to access a transportation facility or security 
        sensitive information, issued on a uniform national basis by 
        the United States Government or an approved agent of the United 
        States Government after it has conducted the requisite 
        employment investigations and criminal history record checks. 
        Appropriate national security databases should be checked as 
        part of the criminal history record check.
  --Credentialing System.--A security system that processes the 
        credential in order to determine if facility access is 
        authorized by validating and recording an individual's 
        identity, business purpose for access and records arrival and 
        departure. This should involve an interoperable electronic 
        system that includes biometric identifying information, and 
        networks positive access controls with controlling databases.
                   container terminal facility access
    Each terminal or port area would establish a secure perimeter for 
the purpose of establishing positive access and exit controls for 
people and containerized cargo.
    No Double Security Zones.--Each container terminal will create a 
single secure perimeter encompassing the entire terminal facility. 
There cannot be a general requirement for double security zones within 
a facility. Employees daily work duties require them to move about the 
entire terminal. A separate security zone or zones required within the 
secure perimeter would require another secure access point which would 
be extremely costly, unproductive and of no additional security 
benefit.
    Terminal watchmen are expected to do many things, but law 
enforcement and physical searches are not among them. Law enforcement 
agencies should not expect industry watchmen to become surrogate 
policemen. If a beefed up police presence at any container terminal is 
deemed necessary, this should be the sole function of Federal, State or 
local law enforcement agencies, including port authority police. A 
House bill should clarify that terminal employees are not to become law 
enforcement officers or conduct physical searches.
                        credentialing standards
    The Federal Government must create uniform Federal standards for 
credentialing individuals who seek entry or have access to a container 
terminal and/or security sensitive information wherever in the 
intermodal transportation chain they are located.
    The credential itself should be consistent with the uniform 
national transportation worker credential being developed by the 
Department of Transportation and Office of Homeland Security and should 
supercede redundant credentials issued by other entities.
    Credentials should be issued by the Federal Government or 
appropriately delegated issuing authority according to Federal 
standards. There should not be different authorities in different 
geographic locations or States issuing credentials under different 
standards. It is imperative that there be one standard and one 
credential because, several States are enacting seaport security 
legislation requiring such credentials based upon different standards 
than proposed Federal legislation. Federal preemption is necessary.
    Drug and alcohol screenings should reflect current statutory 
standards for transportation workers and be required as part of the 
credentialing process.
    The credential adopted should have a period of validity for a duly 
issued credential. The one-year renewal provision adopted by the State 
of Florida is unreasonable; a longer period perhaps five-year period 
would be better. However, there must be an automatic mechanism that can 
invalidate a credential for subsequent disqualifying acts that might 
occur during the credential's period of validity.
                   credentialing system requirements
    The credentialing system must (1) authenticate the identity of all 
individuals seeking access to the terminal or facility, (2) validate 
the business purpose for such access and (3) record arrivals and 
departures. The terminal or facility should be able to control access 
even for credentialed individuals.
    The credential system should employ appropriate technology to 
process and validate credentials at a positive access control without 
impeding terminal operations. This should involve an interoperable 
electronic system that includes biometric identifying information.
    The credentialing system should detect invalid credentials, 
unauthorized users, inappropriate access to security sensitive 
information and inappropriate use of credentials.
    There must be a staggered phase-in period for requiring credentials 
and background checks to ensure the availability of the workforce.
                         obtaining credentials
    Individuals required to have credentials must be responsible for 
obtaining their own credentials and ensuring that their employment 
screening and criminal history record check is accurate.
    Individuals should pay a Federal fee for their own credentials and 
required employment investigations and criminal history records checks 
as an individual would pay for his or her own driver's license.
    A meaningful appeals process for individuals who might face adverse 
employment actions as a result of the credentialing process should be 
instituted.
    Employers should not have access to the information generated by an 
individual's government sponsored employment investigation and criminal 
history check, or information on any appeal that may result.
    Employers and employer associations would only provide the 
credentialing entity with authorization that certain individuals are 
entitled to apply for such credentials.
    Employers and employer associations must be held harmless in any 
seaport security legislation for adverse employment actions taken as a 
result of statutorily required credentialing.
    A credentialing system is necessary for seafarers. U.S. Merchant 
Mariners should be covered by the Federal transportation worker 
credentialing system. However, foreign seafarers present challenges 
that require international cooperation and agreement. The U.S. 
Government must define the appropriate credential that would be 
required for foreign seafarers that would permit them to disembark a 
vessel, leave the terminal and gain re-entry to the terminal if 
authorized to do so by the vessel. Container terminal operators should 
be able to rely on the Federal immigration clearance procedures to 
allow seafarers into the secure perimeter of a facility without the 
need for further credentialing checks. Container terminal operators 
cannot perform the functions of Federal authorities and police vessels 
or their personnel.
                      containerized cargo security
    There must be security and reporting procedures for U.S. and 
overseas personnel, entities and facilities that stuff cargo 
containers.
    The entity that stuffs cargo containers must be required to certify 
the contents of and seal the container.
    Individuals who perform the function of stuffing containers should 
be subject to the same credentialing standards as container terminal 
personnel.
    Carriers and marine terminal operators must not be subject to civil 
penalties for a shipper's failure to provide accurate and timely 
information about the contents of a cargo container.
    Electronic cargo data should be transmitted by a secure means 
throughout the intermodal chain to ensure data integrity and prevent 
tampering. Cargo data systems must employ appropriate technology to 
process transactions without impeding commerce.
                          local security plans
    Federal legislation should adopt the family of plans concept of the 
Oil Pollution Act of 1990 (OPA 90). The family of plans concept refers 
to tiered levels of security plans ranging from national to individual 
terminal plans.
    A local port security plan should be required that is all 
encompassing for the port area. Because each port is different, local 
port security plan should be prepared by the Local Port Security 
Committee in conjunction with the Coast Guard.
    A container terminal security plan should be required to address 
internal security at the container facility and should be prepared by 
the terminal operator for approval by the Coast Guard.
    A vessel security plan should be required to address vessel 
security and should be prepared by the vessel operator for approval by 
the Coast Guard.
    The Port Security Plan should address Federal, State and local law 
enforcement function, utilization and deployment.
                                funding
    Federal funds must pay for the port security mandates designed to 
protect the general public.
    Instead of relying on annual appropriations from the general fund, 
a dedicated intermodal security fund should be created to assure that a 
long term source of funding is available to port authorities and 
waterfront facility operators.
    This dedicated fund should be funded by an appropriate fee charged 
to the end users of the intermodal cargo chain, i.e., the initial 
shipper placing the container into interstate or foreign commerce, or, 
in the case of import containers, the receiving agent for the 
container. This places the cost of security on the general public, as 
does the airport recently federally enacted security fee.
    Federal grants and loans should be provided until this dedicated 
intermodal security fund is brought on line. Expenditures from the fund 
should be retrospective allowing port authorities and terminal 
operators to recover for mandated expenditures made pursuant to 
regulation or statute.
    Absent a dedicated fund, dollar for dollar tax credits should be 
made available to the private sector to encourage fast compliance and 
allow recovery for mandated security expenditures.
                         government efficiency
    The government entities with overlapping authority must communicate 
effectively and cooperate in streamlining the regulatory burden on the 
industry.
                        limitations on liability
    Marine terminal operators should have limitations on liability 
provisions similar to those in the Aviation Security Act.
    Facilities and ocean carriers should be insulated from potentially 
devastating terrorist attacks. The Federal Government must make 
available property and casualty insurance to cargo container terminal 
operators. Presently, the private insurance market is not offering 
sufficient coverage of losses due to a terrorist act.

    Senator Murray. Thank you very much, Mr. Bates, and we will 
move to Mr. Jon Hemingway, CEO, Stevedoring Services of 
America.
STATEMENT OF JON HEMINGWAY, CHIEF EXECUTIVE OFFICER, 
            STEVEDORING SERVICES OF AMERICA
    Mr. Hemingway. Thank you, Chair and Senator, for the 
opportunity to be here today. I am going to throw out a lot of 
my prepared remarks, because a lot of it has already been said 
today, but I did want to drill down on a couple of things that 
have been raised here for the benefit of the subcommittee.
    I think we all understand that there is a consensus 
developing that we need to push our borders outward, and that 
secure and efficient trade is a function of control at the 
point where the container is loaded and a secure chain of 
custody until the container is unloaded. Simply put, in the 
container business, our jobs changed from protecting cargo from 
people, to protecting people from cargo. I have to agree with 
Mr. Bates that I do not think the problem is the longshore work 
force, or that there is a conspiracy there. I do differ with 
our longshore brethren in that I think that to the extent there 
is a credentialing system, that it be a national system that 
apply equally to all members of the chain, so any kind of 
screening that takes place with our workers should apply to 
management, the trucking community and others involved in 
commerce.
    That being said, I want to offer comments specific to some 
of the great points that Director Hardy made with respect to 
Customs activities. We were fortunate to grow up here in the 
Northwest and Tacoma and Seattle, and with Local 19, and we 
have been able to grow a bit with their support. We now operate 
9 out of the top 10 container ports, 46 out of the top 50 
ports, and we are the largest employer of waterfront labor in 
the United States. We handle more cargo than anyone else, we 
load more trains than anyone else, and partly it is because of 
the lessons we have learned here working with some of the 
people here at this table.
    A lot has been said, and we all watch ``60 Minutes'', about 
the inspections that need to take place and need to be stepped 
up from where they are. We cannot push our borders out 
tomorrow, but I think everybody feels the need to do more and 
the pressure is no greater than on Customs today. The 
temptation is to do highly visible inspections on our docks. 
The problem is that the container facilities were not designed 
for this mission. The solution in some cases, less intrusive X-
ray devices, are scarce, and there is only a few available. I 
mean, all of the Port of Seattle is getting one. Tacoma is 
getting one next year.
    So our modest suggestion is that we look to leverage the 
resources we have in the most effective way. Customs 
administers Central Examinations throughout the container ports 
in the United States. Those Central Examination Stations are a 
remarkable platform for getting inspections done. The thing 
that I want to strongly encourage is that we use those Central 
Examination Stations to step up our inspections.
    Now, traditionally they've been used for unloading 
containers, going in in a very cumbersome and expensive way, 
searching the entire contents, but there is no reason that we 
cannot add this non-intrusive technology, X-rays, particularly 
ones with fast scanning technology that allows us to detect 
explosives, for example, in these examination stations. It does 
not make a lot of sense to us to see scarce Customs personnel 
moving scarce equipment between seven container terminals in 
Seattle and Tacoma when we only have one machine.
    Customs has control over every cargo in international trade 
that crosses our docks. They tell us when we can release that 
container and they can dictate where it goes. It is easy for 
them to specify that a load goes to a Customs Examination 
Station, and when they do that the cost of that extra move and 
the cost of the inspection is borne by the end user.
    As people do better jobs than others, and I will take 
Maersk as a high quality carrier, they will get a lower 
sampling rate and have lowest extra costs over time. That is a 
great economic incentive, and guess what, the whole process is 
self-funding. So why cannot we locate these X-ray machines at 
Central Examination Stations and give them the tool to charge 
for that facility? We have the legal and commercial framework 
in place now to do it. We have a set-up in our industry that 
understands the use of that tool.
    In some cases, we do not have the legal authority to add 
this tool to the Customs arsenal, but I respectfully submit to 
the Senator and the Chair that this is something that we can 
entertain immediately, and get a lot more out of what is a very 
precious resource right now, Customs people that are trained to 
do this as well as the equipment necessary to do that mission.
    That is my two bits. I have a lot more, but I will wait 
until question time. Thank you very much.
    [The statement follows:]

                  Prepared Statement of Jon Hemingway

    Senator and Chairwoman Murray, ladies and gentlemen, thank you for 
the opportunity to participate today. My name is Jon Hemingway. I'm 
President of Stevedoring Services of America and several affiliated 
companies, which together comprise the largest stevedoring and terminal 
operating company in the United States and Western Hemisphere. 
Collectively, we are the largest employer of the ILWU and the ILA and 
the largest leaseholder and owner of waterfront facilities engaged in 
international and domestic seaborne trade in the United States 
Obviously, port security is an issue of paramount concern to our 
company and its employees.
    Permit me to preface my remarks with a bit of history. Before 
September 11, I think it's fair to say that containerization and its 
related elements in the intermodal chain were focused on a fairly 
simple mission, delivering the most efficient transport of cargo within 
a standardized system. The underlying foundation of this focus is the 
container revolution, which has allowed us to dramatically increase 
productivity and trade through our Nation's ports.
    The events of September 11 brought into perspective a need for a 
shift in focus. Before September 11, intermodal transport security was 
focused primarily on protecting cargo from people and unfortunate 
accidents in transit. Today, however, we understand that we need to 
consider how to better protect people from what might be inside 
containers. It is this shift and distinction, which I believe should 
drive our government's policy toward improving port security.
    In the wake of September 11 there has been a sincere, if 
uncoordinated effort to improve the security of our Nation's seaports. 
Unfortunately, companies engaged in international trade, and their 
employees, have not yet been provided with a uniform policy or 
direction as to how we improve port security.
    I think it's fair to say that every constituent in the transport 
chain has something to gain and lose from changes we need to make to 
improve port security. Each principal agency touching international 
trade, be it Customs, Immigration, the Coast Guard, the Transportation 
Department and others, is trying to establish its role and funding for 
whatever their new mandates may be. Each employer group is trying to 
understand the legal requirements to be imposed as well as pursuing 
more accountability from its workforce. Unions and employees alike are 
concerned about improving security while mitigating invasion of their 
privacy and avoiding changes, which could result in the 
disqualification of some of their members from earning a livelihood.
    So it's clear to this observer that, in this uncoordinated effort 
of trying to achieve something positive, a common Federal policy is 
required. The continued functioning of the Nation's transport chain and 
hence our economic recovery, hangs in the balance.
    While we need to establish Federal legislation to address the 
problem with uniform solutions, the stakes require a careful and 
practical implementation of changes. We strongly believe that any 
suggestions to improve port security should be evaluated both for its 
benefit in terms of improved security as well as its cost to the 
transport chain and the Nation's economy.
    As mentioned earlier, the benefits should focus on how we better 
protect our people from what harmful agents might be in containers. We 
feel this is a much more important focus than the secondary goal of 
securing our perimeter and protecting our terminals and cargo from 
people who shouldn't be around them.
    Further, in the evaluation of proposals, we must carefully evaluate 
potential for any step to become a bottleneck and create a traffic jam 
at our Nation's ports. Therefore, before approval, any national or 
regulatory standards should be supported by an impacts analysis. The 
reason for this step is clear, given the limited space in container 
port facilities, any step which adds even a few minutes to the transit 
of a typical container bears the potential of creating a traffic jam 
and a UP style meltdown which could bring our ports, and hence our 
commerce, to a grinding halt.
    With these objectives in mind, permit us to offer a few suggestions 
based on our experience as terminal operators.
    The focus of our efforts should be on better understanding what is 
in a container, improving the intelligence of our customs service to 
identify those containers which present risk to the American public and 
enhancing the tools available to our various government agencies in 
that mission. Awaiting Congressional direction, a number of agencies 
have focused on stepping up their visibility and activity in the 
container terminals. There has also been much discussion about 
increasing the percentage of containers actually inspected by Customs 
as well as improving the selection of which containers to inspect. In 
this regard, we feel that the government would be best served by at 
expanding its current infrastructure of Customs Examination Stations 
(CES). The current CES system is already in place with a recognized 
commercial and legal framework supporting it. To get the most bang for 
the buck, beefing up the CES system with additional sites and to allow 
for implementation of non-intrusive inspections using x-ray type 
devices leverages existing assets to the most benefit and creates a 
sound platform for improvement.
    Enhancing our CES network makes sense for three additional reasons. 
First, container terminals are designed to allow for the flow of cargo 
without the violation or opening of the container itself. Everything in 
the terminal is geared to maintaining the integrity and sealed nature 
of the container. This improves the accountability of the transport 
chain and certainly supports the government's overall policy of wanting 
to improve the accountability for what's in the container. Secondly, 
any inspection program must be complimented by a contingency plan for 
what to do in the event that contents of that container may pose a 
significant threat to people and property. For this reason, CES 
stations would pose a better opportunity for a focused effort to 
develop and execute those contingency plans for containers targeted as 
presenting higher risk to the American public. The bottom line is that 
Customs Examination Stations present the best opportunity for effective 
implementation and enhancement of container screening and inspection. 
Third, there is no space set aside or designed in container terminals 
to facilitate safe, dry and secure inspection. CES stations are 
typically located in areas near the harbor on less valuable land. As 
such, accommodating increased inspections by expanding CES stations 
will be more cost effective. It will also keep the inspection 
operations together rather than splitting the inspections and 
associated specialized non-intrusive screening equipment and limited 
customs and other government personnel, over CES locations and the 
multitude of container terminals.
    Of course, effective intelligence and screening of containers is 
also supported by better accountability in the intermodal transport 
chain. To that end, we support the investigation and implementation of 
electronic cargo seals that will help maintain the security and 
reporting by proving that the contents of the container have not been 
tampered with since the seal was put in place. We think the electronic 
seal will be a key element in the effort to definitively establish the 
contents of every container at the point of origin. I think, quite 
correctly, our government leaders are focused on confirming what's in 
the container by better establishing inspection and confirmation of 
contents at the point the container is loaded. However, we then need to 
make sure that that accountability remains intact by the use of 
effective electronic seals and secure facilities.
    Finally, a lot of effort and comment has been directed toward 
securing the perimeter of our terminals and the accountability of 
workers. To that end, we would like to offer the following suggestions 
with the goal that the waterfront employers and their unions should be 
working together to improve security with the least impact to people's 
privacy and livelihoods.
    From our perspective, the Nation's transport chain requires some 
sort of national transport identification card. Today, it is too easy 
to improperly obtain a driver's license. Any credentialing system 
should involve some use of biometrics so that positive ID is confirmed 
by means other than just a photograph. Further, drivers' licenses don't 
provide all the necessary data to achieve the mission of establishing 
who someone is and their purpose for being permitted access to a 
facility. That being said, we think that the function of issuing ID's, 
and any background checks or other standards applied in their issuance, 
should be a government function. Similar to our Nation's experience at 
its airports, our guards are merely watchmen without much training or 
authority in the screening of people. Given the desire of our Nation's 
agencies to integrate their threat assessment and intelligence-
gathering activities, we think it's important that this security 
function be performed by a police force, not night watchmen. We also 
feel that checking ID's and restricting access to facilities should 
also be a government function. As an employer, we have no desire to 
play big brother and be privy to backgrounds or deciding whether 
someone presents a security risk. That is properly the province of 
government.
    Our concern is that qualified people are on the job and that these 
people are the only ones admitted to the facility. We strive to keep 
the amount of people on container terminals to a minimum, both for 
efficiency and for safety. We do agree that we need to establish more 
control over the perimeter of all port facilities engaged in 
international trade. We think it's important that any designated 
facility have a single perimeter to simplify administration and 
execution of the security plan.
    We have a variety of people visiting the terminals, not just 
employees but also truckers hired by steamship line and cargo interests 
over whom we have little control as well as ship's personnel employed 
by carriers and, of course, port authority employees and vendors. 
Whatever the standard that is applied to the identification and 
screening of workers should also apply to these other groups. Of 
course, when it comes to screening truckers and verifying their 
credentials, we need to be very careful. Today in North America, we 
handle over 30 million containers a year, when you include empties. 
Each of these containers must pass through gates at our Nation's ports, 
at least once and often several times. As a result, any additional 
step, which involves as little as 30 seconds, has the potential to 
overwhelm our port complexes and create a traffic jam. Accordingly, any 
credentialing system must allow for the efficient capture and 
verification of this authorization data. Failure to do so could bring 
our ports to a halt. It will also hurt the environment by increasing 
diesel emissions as trucks spend more time idling at our port complex 
gates.
    The final point I want to make today addresses the question of 
funding. Obviously, a national credential, credentialing system, 
increased inspections and electronic seals will cost money. In 
evaluating who should pay, Congress should consider the following. 
First, ultimately, the American public will pay for the cost of 
enhanced security at our Nation's seaports whether it is in taxes and 
government payments or in user fees. To the extent that the government 
decides to pursue user fees as the means to fund enhanced security 
requirements and procedures, it should consider using agencies and 
institutions that are already well established. In this regard, Customs 
is well suited to levy and collect fees for containers carrying 
international trade. We feel that such fees levied on import containers 
should be deposited into a trust fund and used to pay for enhancement 
of the existing Customs Examination Stations system, the investigation 
and promulgation of standards relating to electronic seals, the cost of 
a credential and credentialing system and the cost of local government 
providing security screening at our Nation's seaports.
    In closing, I'd like to add that as our Nation's largest private 
port operator, we want to do our part to enhance our Nation's security. 
To that end, we are more than willing to participate in any pilot 
projects and evaluation of proposals for improving port security. We 
have a lot of practical experience about what works as well as a keen 
desire to work with our labor force to get it done. I think it's very 
encouraging for all of us to see our Senator and the Chair of the 
Subcommittee, so personally engaged and informed on this issue.
    That concludes my remarks. However, for the record, I would like to 
submit the position paper on seaport security that has been agreed to 
by employer groups that collectively handle 97 percent of containers in 
U.S. Maritime Commerce. I would be pleased to address any questions 
from the Chair and staff. Thank you for the opportunity to be here 
today.

    Senator Murray. Thank you very much, Mr. Hemingway, and I 
will direct my questions to individuals, but if you feel from 
your perspective you have something to add, please feel free to 
let me know.
    Mr. Bates, I am going to start with you. You testified 
today on some commonsense requirements with the potential for 
meaningful impacts on cargo security. One item that you 
identified as critical is the requirement to check the 
integrity of the seals on the outside of containers as they are 
loaded and unloaded. Why is that not happening today?
    Mr. Bates. There is some seal inspection done today, but we 
must do more to ensure that the seal number matches up with the 
consignee who was the last person to seal the container, match 
up with the responsible cargo with them to ensure port 
security. This is one of the primary acts that must be 
undertaken. That act must mandate that the integrity of the 
seals be checked, rechecked against the terminal documentation 
to ensure the origins of that cargo. Then a broken seal would 
alert us to the fact that there had been some tampering with 
that, and we could divert that container to Customs.
    Senator Murray. Mr. Hemingway, do you think this is an 
onerous requirement?
    Mr. Hemingway. As a matter of fact, today we have clerks 
stationed on the docks, and if we are doing our job and the 
clerks are doing their job, and they should, because they work 
for us, they are checking whether those seals are intact, and 
we should be generating an exception report when they are not 
intact. So I am sure there are cases where it is not being 
done, but, you know, that is one of the missions of the 
terminal operators to report exceptions like that, and I am 
sure that Mr. Wellins would reflect the same comments.
    Senator Murray. Mr. Wellins, are your crews checking for 
the integrity of the seal?
    Mr. Wellins. It would not be our crew, as such, but I would 
have to come back to you for the record on that. I will check.
    Senator Murray. All right. I will appreciate knowing that. 
In Mr. Bates' testimony, he indicated that the majority of all 
truckers that enter marine facilities in America's largest 
ports do so without having to exhibit any kind of 
identification whatsoever. Miss Riniker and Mr. Sewell, if you 
could comment, is this the case in Puget Sound, and if so, how 
are you dealing with this issue?
    Ms. Riniker. As of April 15th in the Port of Tacoma, you do 
have to show photo I.D. to be able to have access to our 
terminals.
    Senator Murray. Including truckers?
    Ms. Riniker. Yes.
    Senator Murray. Is that the same with you, Mr. Sewell?
    Mr. Sewell. It varies by terminal, and I would probably 
defer to Jon as to how they are handling it, but we, the port 
has not imposed a requirement, ourselves, but I do think it is 
something that needs to be done. It relates to my earlier 
comment that putting things that are in place that have to be 
undone, and I completely concur with Jon's comments about 
having a card and a system, which is one of the things that is 
in the legislation pending before Congress now.
    Senator Murray. Mr. Hemingway.
    Mr. Hemingway. Every trucker that calls at the terminals we 
are responsible for is required to present transaction numbers 
that identify him, similar to a PIN at a cash machine. So for 
example, there is no transaction that does not happen that is 
not already preauthorized. Where there is a gap is whether 
terminals check to see if that particular driver is authorized 
to drive for that company, so if there is some kind of 
conspiracy, and some driver was unauthorized to have that load, 
then we would be, we would need to check photo I.D. That 
capability does not currently exist.
    Senator Murray. Does not currently exist?
    Mr. Hemingway. No, there is now a database on the West 
Coast of the United States for checking whether a given driver 
and that particular driver's license number is authorized to 
drive for that company. There is not currently a picture I.D. 
that goes with it, but that technology is under development.
    Senator Murray. Mr. Sewell, but the issue of which agency 
should secure those ships and who should pay for that security 
has been a subject of a lot of debate lately. Everybody else 
has been conducting in-water coverage at a projected cost of 
500,000 annually. I understand you suggested that this should 
be a Federal or a State law enforcement function. Why are you 
unable to obtain the law enforcement necessary to conduct this 
mission?
    Mr. Sewell. Part of it is I think just because we are the 
Port of Seattle, but I think other ports have similar issues, 
and for us we have the airport, and our police cover both the 
airport and the seaports. And as you know, right after 
September 11, the primary area of concern, although we are 
talking about seaports now, it was not seaports then, it was 
airports. For a long time thereafter, which just happened to be 
during the end of our cruise season, our port police were 
working 12 hours a day, 7 days a week, just trying to deal with 
the additional requirements at Sea-Tac. You know, we were able 
to pry loose some folks from various other local agencies, the 
Seattle Police Department, the Bainbridge Police Department, 
King County Sheriff, and finally as things calmed down a little 
bit at the airport, get our own police on the water. And we 
have been working with these other agencies to make sure we 
have coverage this year.
    But I think that points out the fact that, you know, these 
are not people that are trained in security. They are not 
trained for this kind of a--they are completely trained law 
enforcement officers, but they do not have the kind of 
intelligence or information that would be necessary to really 
prevent any kind of incident at a cruise ship. That is why we 
think it ultimately, because that information, intelligence is 
going to be likely be with the Coast Guard or with the U.S. 
Government, and because that is being done at other ports, that 
is, Coast Guard is providing that kind of patrol, that the same 
thing ought to be done in Seattle.
    Senator Murray. Mr. Softye, you operate cruise ships. How 
can your trained crew members assist us with port security, and 
can you share with us what some of the other ports are doing 
both nationally and internationally?
    Mr. Softye. Yes, ma'am. As I stated before, we have worked 
very closely with the United States Coast Guard, and the 
position that they put forward at the International Maritime 
Organization was a collaborative effort that we put together 
regarding how we can raise our Level III requirements that were 
already requirements in the last 5 years. And as a matter of 
fact, 5 minutes before I left the office, I just received the 
latest directive from the Coast Guard, 402, which explains in 
detail some of the additional measures that we will jointly be 
providing.
    Some other ports, to answer your question, some other ports 
required vessels to be put in the water, some of our small 
boats, and ICCL is on the record saying that we are opposed to 
this. Obviously if you are going to be using life saving 
equipment in routine uses where we do not have any authority to 
exercise any type of law enforcement, and we should be involved 
in an altercation, what are the liabilities associated with it? 
So it becomes very awkward. So our answer to that is to provide 
ship-side security to all openings on the ship, and of course 
the outer periphery of the ship, you have lookouts reporting 
back to a central command on board the ship to report to the 
locals if we, in fact, see something that is out of the normal. 
There are many measures that are being taken in various ports.
    Senator Murray. Very good. Mr. Wellins, one item that has 
received absolutely no international support is the United 
States proposal at the IMO for ship crews to be credentialed, 
including background checks. Can you tell us what your company 
does to ensure the integrity of the foreign crews that enter 
the United States on your ships?
    Mr. Wellins. Well, again, I would have to come back to you 
on the record. I mean it is a vast operation. Crews do not 
necessarily come from one country versus various countries. So 
to be particular about it, I would like to comment for the 
record on it.
    Senator Murray. Anybody else want to contribute? I would 
appreciate your getting back to me on that. A second issue that 
was addressed by Mr. Bates is whether or not we should require 
empty containers to be sealed.
    Mr. Bates, in your testimony, you indicated that there is 
an inherent risk of wrongdoing when empty containers are 
shipped unsealed as they are today. Mr. Wellins in his 
testimony indicated that sealing empty containers was not 
necessary and was potentially burdensome. Will both of you 
comment on how we should weigh the burden of industry against 
the risk that someone may use an empty container for terrorist 
activity?
    Mr. Bates. Well, I think there is a great risk from the 
containers coming in and not being sealed, not being inspected 
was the biggest thing with the empty container. Somebody has to 
look to see what is inside that. Potentially a driver from the 
off-road would have something done to that container, some 
explosive device put in that, and that could be shipped onto 
the ship, and nobody would have inspected that container at 
all, and that could have been detonated later when that ship 
was at sea. I do not see a great deal of cost in something like 
this, for somebody to open up a door of a container and see 
what it is, what is inside of it. I do not think that cost is 
insurmountable to overweigh the safety of our ships.
    Senator Murray. Mr. Wellins, from your perspective?
    Mr. Wellins. Basically, from an empty equipment point of 
view, we often times do not really know where that empty 
equipment is going until it is loaded on the ship, and in 
specific bays. It is just going to replenish deficit areas 
around the world or wherever the next port of call might be.
    So I guess we should weigh what the risk is of possible 
terrorism acts with an empty container if they really do not 
know where it is going. I guess the biggest risk would be to 
the vessel itself.
    Senator Murray. Because the empty containers do not have a 
port of designation, you think it would be less likely that 
they would be used?
    Mr. Wellins. Yes. I mean, we deplete--surplus equipment 
that is empty might load on a vessel from Tacoma and be 
discharged in Japan, Hong Kong, South China, Singapore, so you 
know, and it is not decided until very close to the time that 
the container is actually loaded onto the ship as to what is 
going where, and it is not done by container numbers. It is 
just done by size of equipment and type. So if you need 
refrigerated equipment in Singapore, then, you know, they would 
just take those x units and load that for Singapore. So I guess 
you have got to weigh the risk and cost of that.
    Senator Murray. Anybody else want to comment on this issue?
    Mr. Hemingway. Certainly, in a lot of cases, we are already 
inspecting containers for cleanliness, if we are dispatching 
empty to pick up a load. In most cases we are handling empty 
containers with very light duty side-pick equipment, which has 
cutoff switches if there is material in the container. So it is 
not an issue that is high on our radar screen, Senator.
    Senator Murray. Let me go back to Mr. Sewell and Ms. 
Riniker. Many port authorities have questioned the emphasis 
that some in Washington, D.C. are placing on increasing the 
physical security of our seaports. They argue that the use of 
surveillance equipment, decreasing the access to the ports and 
increasing the law enforcement presence will not address the 
threat to the same degree as greater information sharing. Miss 
Riniker, as you point out in your testimony, there are 
technologies that could help us identify what is in a container 
and would help us determine whether it has been tampered with 
while in transit. Have you had an opportunity to use any of 
these technologies, and if so could you share it with us?
    Ms. Riniker. A number of years ago, the Port of Tacoma had 
an opportunity to experiment with some technology that looked 
inside the container. We found it to be very cumbersome and 
very slow. Technology has improved, as you heard in the 
testimony today. We have not yet received one of the newer 
devices that has been deployed in Seattle, and I think that 
part of the reason that we have applied for the grant together 
is that we can experiment with some of the additions that we 
can make to our own ability to control our facilities as well 
as experiment with information sharing and what additional 
information will be able to find out about both the people and 
the containers and the equipment being used on our facilities.
    So our experience with that kind of equipment has not been 
positive to date, not to say that there are not improvements 
that might be worthwhile.
    Senator Murray. Mr. Sewell, you talked in your testimony 
about the same port. Can you talk about that?
    Mr. Sewell. Right. I think first, to comment on your first 
comment, I think we would not say that the things that we can 
do locally is not important locally. I think that it does not 
address the bigger issue. I think we need to do both, partly 
because that is what we can do now. I think the technology has 
not developed yet that really can do what all of us have been 
talking about. It can be, and I think in a relatively short 
time, I am not the right person to talk about how long that is, 
but to do the kind of origin to destination tracking, have 
electronic seals that Andrea talked about.
    We have been working with the Port of Singapore in trying 
to get a program in place, and a system in place that would 
provide that kind of origin to destination tracking. We will be 
working on that in the next several months and will obviously 
keep you informed of that. It does have the potential to 
provide that kind of security function as well.
    Senator Murray. Are there any ports that are using that 
kind of system?
    Mr. Sewell. The Port of Singapore is using it within their 
own port, but it does not provide an origin to destination 
tracking. Carriers, shippers, a lot of people in the supply 
chain have their own proprietary systems for various pieces of 
the transportation chain, but there is not a system in place 
that is providing that kind of, you know, point to point 
throughout the whole chain at this point. But I think many 
people have been trying to develop it for commercial purposes, 
because of the value of selling that to a customer, so it is 
fairly well along in the development, but I think the key will 
be getting international agreement and getting some standards 
that are acceptable to all of the players in the chain.
    Senator Murray. Making sure that the information is 
trustworthy.
    Mr. Sewell. Yes, and that the right people have access to 
the right information.
    Ms. Riniker. I would just like to add one thing to that. I 
mean the fundamental question there, is what is the role of the 
port? Is it the role of ports to develop the system, I mean 
other than as an entrepreneurial undertaking? Is it the role of 
ports to do this point-to-point system, or is it something that 
we buy off the shelf, or is our real job to make sure that our 
systems will be able to integrate with those point-to-point 
systems so that we can assure our customer and the public and 
everybody else that we are doing our part to fit into whatever 
comprehensive international system is developed?
    Senator Murray. Ms. Riniker, in your testimony earlier you 
mentioned the potential for obstructive turf wars between 
agencies, which I think we are all concerned about. Have you 
already seen evidence of turf wars?
    Ms. Riniker. Well, I think everybody has sort of tiptoed 
around that in there, because several folks have mentioned it. 
I think the issue is that we have picked up signs of who is in 
charge being a question that is being asked, actually more in 
Washington, D.C. than out here in the Pacific Northwest, and so 
I think reinforcing who is in the lead, and I think funding 
that----
    Senator Murray. Do you think that is the responsibility of 
the Administration to do that?
    Ms. Riniker. Yes, I do.
    Senator Murray. I mean, we have got the Coast Guard, 
Customs, Maritime Administration, local law enforcement, INS, 
Transportation Security----
    Ms. Riniker. Security Administration. Again, which on the 
face of it, what one would have thought, homeland security, we 
are seeing these agencies created, but we are not really seeing 
the funding shift, and I am not sure that we should. I think 
that it is vigilance that we are looking for here, and we have 
seen some tripping over one another back in D.C.
    Senator Murray. So do you want clarification?
    Ms. Riniker. We do.
    Senator Murray. Both of you have talked about the ports of 
Tacoma, Seattle and Everett submitting a joint application to 
TSA for a grant to help pay for the costs associated with new 
security measures, and I do want to commend you for working 
together on that, and I think that is really progress for all 
of us. But can you share with us how you envision all the ports 
coordinating their efforts to improve security under this 
grant?
    Ms. Riniker. Well, there are a couple, actually, we all 
have got pieces in the grant where we are looking at addressing 
the issues that you have raised about our own facilities, so I 
think we are all committed to wanting to improve our own 
ability to ensure the security of port facilities in each 
location.
    One of the more interesting things that is coming up in 
this grant is something called a regional access control 
system, where we are looking at how much of the information 
that we all collect about both individuals using our port, 
information about the boxes and the ships that are coming in, 
how much of that can we form kind of a regional network to 
share that is made available to the Federal agencies, to 
Customs, to the Coast Guard, to INS, if that is what is 
required.
    So we have as a part of this grant request a desire to see 
if we can do a better job of sharing the information that each 
the ports has, not only among each other but with the Federal 
agencies.
    Mr. Sewell. Yes, that is correct, and I think the next step 
there in one of the parts of our grant is to look at designing 
potentially the feasibility, I guess, of us taking that 
information as Andrea said and designing a central command 
center, we have been talking with the Coast Guard about that. 
Which presumably could be fed into any kind of national or 
international system as well, but I think that the other part 
of this is, I think although all of us have done vulnerability 
assessments already, we are going back and doing a more 
intensive vulnerability assessment regionally so that we are 
making sure that we are putting all our resources in the region 
in the right places. So I think that is the value of having all 
three ports working together.
    Ms. Riniker. And we are hoping that this regional system 
might be a pilot. If we are going to have something like a 
national identification system, or some national system of 
sharing information, we are hoping that our regional effort 
might be a pilot for that kind of program.
    Senator Murray. As both of you know, your ports and all the 
rest of the ports in the Nation pay into the Harbor Maintenance 
Trust Fund. We do not get much back in this State. We are 
facing a lot of daunting new requirements under security. Do 
you think Congress should consider tapping that fund for the 
security? This is for the record. I just thought I'd ask.
    Mr. Sewell. For the record, I would say only as a second 
option from getting rid of it. If we cannot get rid of it, and 
I have only got a few more weeks here, but if somebody else 
will pick up the weight and try to do that----
    Senator Murray. We have not been successful in getting rid 
of it. I just wonder what you thought about making it useful.
    Mr. Sewell. Yes, we have always said then we ought to be 
able to use it for things that of value in this region, and 
security is certainly one that is of high value to us in this 
region, but that would be our view on it.
    Ms. Riniker. I was hoping before Steve moved on that he 
would be successful in getting rid of it, but our view is 
exactly the same.

                    ADDITIONAL SUBMITTED STATEMENTS

    Senator Murray. Before we wrap up, does anybody have any 
additional comments that they would like to give? If not, I 
really appreciate all of our witnesses who are here today for 
their testimony, and we will again take written testimony from 
the public or individuals as part of the record of this 
committee.
    [The information follows:]

Prepared Statement of Chief Gil Kerlikowske, Seattle Police Department, 
                            City of Seattle

    Chairwoman Murray and members of the Subcommittee, my name is Gil 
Kerlikowske, and I am the Chief of Police for the Seattle Police 
Department, City of Seattle. On behalf of Mayor Nickels, I appreciate 
the opportunity to testify today about the role the Seattle Police 
Department plays in protecting the security of citizens, commerce and 
facilities in Elliott Bay and adjacent waters.
    The Seattle Police Department has played a vital role in protecting 
transportation traversing the inland waters of Puget Sound within our 
jurisdiction and nearby areas. We recognize many Northwest workers are 
dependent on the Puget Sound for employment and the viability of Puget 
Sound is very important to the local economy and to the people who live 
in the Northwest.
                            scope of problem
    The City of Seattle is essentially an island that is geographically 
situated between freshwater lakes and saltwater fairways, with 155 
miles of shoreline.
    The Puget Sound, bordering the west side of the city, teems with 
activity and, aside from the 12 hour per day patrol of the Seattle 
Police Harbor Unit (hereinafter Harbor Unit), has no specifically 
dedicated security. On the Coleman Docks alone, thousands of people 
embark or disembark hourly from the Washington State Ferries, a vital 
economic link to the West Puget Sound. There is no directed routine 
waterside night patrol of the ferry terminal, no way to respond (or 
more importantly, deter) any act of aggression directed at this 
potential target.
    Flight paths into and out of our major airports are directly over 
Elliott Bay and across major highways in the region. Twenty-four hours 
a day, container ships loaded with sensitive commerce come well within 
one mile of our downtown. Harbor Island houses a variety of fuels for 
regional distribution for the Pacific Northwest. The prevailing winds 
and currents also create a potential hazard to the city. The 
positioning of our sports stadiums along the shores of Elliott Bay 
place them in close proximity to many of the hazards I have discussed. 
Additionally our local threat assessment includes several biotech 
companies and critical public utility plants located near the water.
    The Harbor Unit provides patrol in Elliott Bay during daylight 
hours only. In partnership with the United States Coast Guard we 
monitor the shipping lanes for vessels that may obstruct or do harm to 
our commercial vessels as they arrive or depart our port authority. We 
assist in providing unobstructed transit of all vessels and assure safe 
passage in the Puget Sound traffic lanes.
    Todd Shipyard provides routine scheduled maintenance, emergency 
repairs, and overhauls on a wide range of U.S. Navy ships.
                           services provided
    The September 11 terrorist attacks gave the issue of homeland 
security a renewed national scope, and provided the Seattle Police 
Department with unique challenges.
    The Harbor Unit is providing primary waterborne security for the 
U.S. Navy ships that are at berth or in dry dock at Todd Pacific 
Shipyard in Elliott Bay. This includes a 24/7 official patrol staffed 
with experienced Harbor and Special Weapons and Tactics Officers. The 
Harbor Unit provides protection of a 100-yard Naval Vessel Protection 
Zone established by the United States Coast Guard. This responsibility 
includes early detection and formal interdiction of all immediate 
threats to our U.S. Navy ships. The Police Dive Team partnering with 
Navy EOD Divers participates in dive operations to sanitize and make 
safe piers used in the docking of navy ships. Recently a restored 
Boeing 307 Stratoliner was forced to ditch in Seattle's Elliott Bay 
close to the Navy ships dry docked at Todd Shipyards. The plane went 
down 45 minutes after takeoff from a local airfield. The initial 
response of the Harbor Unit included the determination of a continuing 
threat to navy ships and emergency rescue. The Harbor Unit provided 
salvage service and dive operations to ensure the evidence of the 
National Transportation Safety Board investigation was preserved.
    The Harbor Unit is the primary agency providing marine security of 
bridges and strategic sites following the February 2001 earthquake and 
September 11 attacks. A recent threat made to bridges in Portland OR 
has prompted continued monitoring.
    The Harbor Unit continues to provide marine security for the Lake 
Washington Ship Canal and Hiram M. Chittenden Locks. The locks are 
crucial to the economic and ecological viability of our region. The 
locks and ship canal provide a transportation route for tens of 
thousands of vessels annually. Since September 11, the Harbor Unit 
provides increased patrols around the Locks and carefully monitors any 
suspicious activity observed.
    The Seattle Police Department is the primary agency to all search 
and rescue incidents in the waterways surrounding the City of Seattle. 
Since September 11, we have responded to many surface water incidents 
that range from capsized and sinking boats with people in the water, 
boat fires, and the identification of ships with activated distress 
beacons.
    The Harbor Unit lends assistance to the Department of Ecology and 
the Environmental Protection Agency in providing a boat platform for 
aquatic science experimentation that measures the quality of our waters 
and the impact on our salmon population. The Harbor Unit has ongoing 
involvement with the State of Washington Fish and Game, providing the 
use of our facility for continued monitoring of salmon populations in 
our freshwater fisheries.
    The Harbor Unit continues to monitor water pollution spills for the 
United States Coast Guard. Harbor officers assist in the initiation of 
vessel emergency spill plans and when request will dispatch petroleum 
based spill absorbent into the water. We continue to provide this type 
of service daily for the United States Coast Guard.
    To facilitate the commercial viability of the City of Seattle and 
at the request of the United States Coast Guard the Harbor Unit 
maintained a 100-yard exclusionary zone for all vessels transiting in 
the immediate area of the International cruise ships. We maintain a 
presence around the ships from passenger load time until departure when 
notified by the USCG to terminate the escort. It is anticipated this 
program will be renewed during the cruise season May through September.
    The Harbor Unit participated in the Seattle Anti-Smuggling Team a 
program established by U.S. Customs. We have participated in regional 
task force operations of freighter containers to identify contraband. 
Harbor Officers also participated in the hull search of foreign vessel 
requested by U.S. Customs to identify general descriptive anomalies. We 
continue working with U.S. Customs and I.N.S. providing an immediate 
vessel platform for tactical operations.
    The Harbor Unit continues to work with the U.S. Army Corp of 
Engineers to provide clean up of all navigable hazards in the Lake 
Washington Ship Canal (Federal waters) and in the area around the 
spillway to the Hiram M. Chittenden Locks. We claim all hazards and 
place them in scrap booms at the Harbor Patrol Station or west of 
Webster Point in Union Bay. We handle all requests for deadheads, 
commercial waste drums, and man made piers and floats adrift due to 
storm or environmental damage.
    The Harbor Unit responds to incidents initiated by activities of 
environmental/eco organizations. We provide patrol security to 
potential targets to include NOAA research vessels, navy ships, fishing 
boats, and university scientific vessels. The Harbor Unit provides 
marine security for protective details to include visiting dignitaries 
and elected officials.
                               conclusion
    We are being tasked with increased frequency to participate in 
activities that require partnership with local, state and numerous 
federal agencies. In order to keep up with the increasing demands for 
marine services in this region we must have additional resources. These 
additional requests for security enhancements have been numerous and 
unique and requires the need to add patrol boats to our inventory. 
These boats will enable us to augment our aging and thinly stretched 
vessel resources in order to provide the security demanded by our 
seaport constituency. This request is being made at a time when local 
and state resources are not available. Additional resources such as 
fuel, equipment, maintenance, and communications equipment would also 
be of great assistance to the Harbor Unit.
    The Harbor Unit is the best resource on Puget Sound equipped, 
trained, and ready to expand to meet the needs of our regional port 
security requirements.
    Thank you for this opportunity to present our request for 
additional funding and we very much appreciate your consideration of 
this matter.
                                 ______
                                 

     Letter From Fred Felleman, MSc., NW Director, Ocean Advocates

                                           Ocean Advocates,
                                Seattle, Washington, April 5, 2002.
Hon. Patty Murray,
Senate Subcommittee on Transportation, Committee on Appropriations, 
        U.S. Senate, Washington, DC.
    Dear Chairwoman Murray and Members of the Committee: I would like 
to thank you for holding this field hearing at the Port of Seattle 
today. The attention to the vulnerabilities of our Maritime 
Transportation System to terrorism is greatly appreciated here in one 
of the nation's busiest trading centers.
    Trade statistics are often tabulated by individual Ports, which are 
then used to compare trade volumes around the Country. While the Port 
of Seattle generates a significant amount of trade to the region, it is 
but one of a number of ports located along the inland waterways of 
Washington State and British Columbia, Canada. The vast majority of 
traffic calls on the region through the Strait of Juan de Fuca which is 
exposed to the risk of over 15 billion gallons of oil being transported 
as cargo and fuel by 10,000 ships which enter and leave the Strait each 
year.
    The strategic nature of this waterway is further defined by the 
type of traffic utilizing the glacially carved Strait of Juan de Fuca. 
Washington's waters serve as the homeport to 8 of the world's 18 
Trident Submarines along with four other major Naval facilities. 
Military maneuvers are regularly conducted within the Strait and off 
the Coast. Washington State is also home to the nation's largest 
passenger ferry system and boasts one of the highest per capita private 
boat ownership. It also serves as a major source of refined oil, being 
the West Coast's largest producer of jet fuel. Container traffic, with 
its particularly hard to inspect cargo, has steadily increased over the 
years as ships have gotten larger and ports have significantly expanded 
their container yards on both sides of the boarder.
    Senator Murray pointed out in her opening remarks at the hearing 
held on Cargo Security in Washington, DC on March 21st, ``Our 
government policies and regulations have largely been designed to 
prevent an accidental release of hazardous materials. They have not 
been designed to protect against a deliberate release.'' As you know 
the State and federal governments have funded a rescue tug at the 
entrance to the Strait over the past 4 winters to be available to 
respond to shipping accidents. During that time the tug has been called 
out 18 times (see http://www.ecy.wa.gov/biblio/0208001.html).
    A Federal Port Security Grant Application was submitted by a 
partnership of the Port of Port Angeles, Makah Indian Tribe's Port of 
Neah Bay, and the Washington State Department of Ecology entitled, 
``Improving the Security of Puget Sound Ports by Strengthening Port 
Security Measures in the Strait of Juan De Fuca.'' Those parties are 
seeking just over $1 million to match the State's commitment of $1.4 
million to provide safety and security escorts for ships deemed to be 
high risk by the Coast Guard. In addition, those monies would be used 
to enhance the infrastructure of the Ports of Port Angeles and Neah Bay 
in order to facilitate the tug's operation and inspection of vessels. 
There is broad public support for this effort as evidenced by the April 
4, 2002 cover story in the Peninsula Daily News and from the comments 
made at the public meeting the Chair held that day in Port Angeles.
    Unfortunately, due to nobody's fault, the computer system crashed 
while the State was submitting its application. The State got 
confirmation from MARAD acknowledging the problem. The State was 
initially told that the grant would not be considered because of the 
missed deadline, now they are told it will be considered. I bring this 
to your attention because the safety and security of this strategic 
waterway should not be held hostage to a computer malfunction and we 
urge your oversight so that this application is given a fair review.
    Governor Locke wrote a letter to the Chair on 23 October 2001 
requesting her help to secure federal funds for the Neah Bay rescue 
tug. In that letter he stated, ``The Coast Guard has had to redeploy 
some of their coastal personnel and vessels to augment the security of 
major Puget Sound ports, even while they have determined that the risk 
of major oil spills continues to increased. In, addition to its primary 
mission of assisting disabled vessels, the tug is available to monitor 
or escort vessels that pose security or safety risks, provide initial 
containment during spill events, conduct search and rescue operations, 
and potentially assist the Coast Guard in any terrorist-initiated chain 
of events.'' It is my understanding that the Washington State 
Department of Ecology will be submitting copies of the Governor's 
letter and the narrative portion of the grant to be made part of the 
hearing record.
    The need to enhance our nation's salvage capacity has been known 
for many years, but has taken on particular urgency since September 11. 
In 1994 the Marine Board's Committee on Marine Salvage Issues of the 
National Research Council wrote, ``Congress should update the national 
salvage policy to ensure that an adequate level of salvage capacity is 
present in U.S. waters. The policy should clearly delineate the 
following goals: to protect national security, to minimize or prevent 
environmental impacts due to pollution from marine casualties, to 
protect public safety, and to ensure minimal disruption to the U.S. 
economy resulting from marine casualties in the nation's port and 
waterways (p. 4).''
    While the 1989 Exxon Valdez disaster will be forever remembered by 
the general public for 11 million gallons of oil spilled, among salvors 
it will be remembered for the vast majority of oil that was safely 
transferred to another ship. In contrast, the relatively small, New 
Carissa, which grounded off the Oregon Coast in 1999 is the poster 
child for what happens when adequate salvage capacity is not readily 
available. The costs of the incident exceed $60 million, not counting 
the U.S. Navy's contribution, and half the ship is still grounded on 
Oregon's coast.
    The Federal On Scene Coordinator (FOSC) in the New Carissa, Captain 
Mike Hall, stated, ``. . . [W]e are essentially an island nation with 
over 47,000 miles of shorelines . . . approximately 85 percent of all 
Americans live within 100 miles of these shorelines . . . 90 percent of 
all international commerce enters the United States by vessel. One can 
see from these facts that our nation's ports and waterways are the 
backbone of the U.S. intermodal transportation system. This system must 
include a national salvage plan. We need a salvage plan more capable 
than that demonstrated during the initial stages of the NEW CARISSA 
casualty. It was my belief on 4 February 1999 and it remains my belief 
today, that adequate and timely salvage capability would have 
significantly mitigated this crisis on the coast.' There are currently 
only two salvage vessels on the Pacific coast capable of refloating a 
large grounded ship, and neither was readily available to respond in 
this case.''
    In January 2002, the U.S. Coast Guard and Navy hosted the National 
Maritime Salvage Conference in Seattle. The Admiralty Counsel to the 
U.S Navy Supervisor of Salvage and Diving, Richard Buckingham presented 
a paper entitled, ``Toward a National Salvage Policy.'' The abstract to 
his paper states:
    The problem of inadequate domestic marine salvage capacity is well 
documented and recognized by both the government and commercial 
sectors; furthermore, the situation is not getting any better. Because 
of the nation's overriding interest in the protecting the environment/
economy/marine transportation system (MTS), as well as meeting homeland 
security needs, we need a cohesive federal national salvage policy. The 
first step, however, will be identifying a federal agency to take the 
lead in forging such a policy. Should it be the Coast Guard, the Navy, 
or perhaps some other agency? Who appears best suited for the role? 
Once the appropriate agency assumes (or is tasked with) this leadership 
responsibility, what are some of the likely issues to be initially 
confronted? Also, this pressing need for a national salvage policy 
should really be a high profile issue on the agenda of the newly 
created U.S. Commission on Ocean Policy, as well as a specific focus of 
the Department of Transportation's MTS policy and SEA-21 maritime 
infrastructure funding initiatives.
    The complete proceeding of the conference are available on CD Rom 
and the March 2002 issue of the Marine Digest provides a summary of the 
conference highlights (attached). Richard Buckingham is quoted as 
saying, ``This is no longer just a matter of transportation, economic 
and environmental concerns. It is also an issue of homeland security.'' 
However, the Coast Guard has yet to implement the salvage and fire 
fighting rules mandated by Congress in OPA'90. Arnold Witte, head of 
the American Salvage Association and president of Donjon Marine Co. is 
quoted in Marine Digest as saying, ``The latest word is that federal 
regulations will not be in place until 2004 . . . In today's world, 
that is unacceptable. We're still waiting for salvage regulations that 
are absolutely essential.''
    While the Coast Guard and Navy try to resolve this longstanding 
problem, I urge you to see that the port security grant that was filed 
by the State of Washington, in cooperation with the Ports of Port 
Angeles and Neah Bay, is looked on favorably by the reviewers at MARAD 
and the Coast Guard. I urge you to pay particular attention to the 
request of the Makah Tribe to have the U.S. Navy provide one of their 
uniquely qualified T-ATF tugs for this service. The National Research 
Council found in their 1994 report on Salvage, ``Surplus assets, 
particularly the T-ATF class of ships, if operated by the private 
sector and strategically deployed, could go a long way to restoring the 
traditional salvage capacity of the United States, particularly in 
rescue towing. The operation of these vessels by the private sector 
would require substantial subsidy, as it has been demonstrated in the 
United States and elsewhere that salvage revenues cannot cover the 
costs of operating and maintaining the vessels and their crews. The 
excess costs could be covered, as they were in the past, through the 
Salvage Facilities Act, and the plan could be implemented through the 
arrangements in place for Navy contracting for commercial salvage 
services.'' (p. 55-56).
    Thank you once again for seeking the input of local citizens as you 
embark on this important effort to protect our Nation's ports and 
waterways. Please do not hesitate to contact me for any of the 
supporting documents or if there is anything else I can do to assist 
you in your deliberations.
            Sincerely,
                                       Fred Felleman, MSc.,
                                      NW Director, Ocean Advocates.
    Ocean Advocates works with policy makers in government, industry 
and the academic community throughout the world to provide information 
needed to form sound global ocean policies. Our approach is objective 
and open minded, but not neutral--we have a bias for the oceans.
                                 ______
                                 
                               State of Washington,
                                    Office of the Governor,
                             Olympia, Washington, October 23, 2001.
Hon. Patty Murray,
United States Senate, 173 Russell Senate Office Building, Washington, 
        DC.
Hon. Norm Dicks,
United States House of Representatives, 2467 Rayburn House Office 
        Building, Washington, DC.
Hon. Maria Cantwell,
United States Senate, 717 Hart Senate Office Building, Washington, DC.
Hon. Rick Larsen,
United States House of Representatives, 1529 Longworth House Office 
        Building, Washington, DC.
    Dear Senators Murray and Cantwell and Congressmen Dicks and Larsen:
    I am writing to request your help in securing Federal funding for 
the Neah Bay rescue tug. This vessel is invaluable in protecting our 
State's shoreline and marine waters from oil spills.
    As background, a majority of the bipartisan North Puget Sound Oil 
Spill Risk-Management Panel voted in favor of establishing a permanent, 
government-funded rescue tug at Neah Bay. Our state committed $1.5 
million far emergency tug services last winter, and another $1.7 
million for the coming season, but I am concerned that the current 
economic downturn may jeopardize State funding far 2002-2003.
    The Coast Guard has had to redeploy same of their coastal personnel 
and vessels to augment the security of major Puget Sound ports (news 
article enclosed), even while they have determined that the risk of 
major oil spills continues to increase. This redeployment reduces our 
coastal search and rescue, security and small-vessel towing 
capabilities. The multi-purpose rescue tug Barbara Foss (which arrived 
at Neah Bay on September 15) is even more indispensable given the 
reduced Coast Guard presence. In addition to its primary mission of 
assisting disabled vessels, the tug is available to monitor or escort 
vessels that pose security or safety risks, provide initial containment 
during spill events, conduct search and rescue operations, and 
potentially assist the Coast Guard in any terrorist-initiated chain of 
events.
    I urge you to support dedicated Federal funding for the rescue tug 
during the ongoing Congressional budget discussions related to homeland 
security. Such funding should be an addition to the Coast Guard's 
operating budget, as we do not want to detract in any way from the 
Coast Guard's ability to complete its many important missions.
    I appreciate any assistance you can provide. If you have questions, 
please call me or Tom Fitzsimmons, Department of Ecology Director, at 
(360) 407-7001.
            Sincerely,
                                                Gary Locke,
                                                          Governor.
                                 ______
                                 

      Letter From Dale Jensen, Program Manager, Spill Prevention, 
  Preparedness, and Response Program, Department of Ecology, State of 
                               Washington

                State of Washington, Department of Ecology,
                                Seattle, Washington, April 4, 2002.
Hon. Patty Murray,
Senate Subcommittee on Transportation, Committee on Appropriations, 
        U.S. Senate, Washington, DC.
    Dear Senator Murray: Thank you for your leadership in marine 
transportation safety and security. I appreciate the opportunity to 
provide input during today's Port Security field hearing in Seattle. 
While the Department of Ecology is not an expert in port security, we 
believe that the multi-mission Neah Bay rescue tug could play an 
important role in protecting this vital waterway from potential threat 
of terrorist attack. It can also improve the security of Puget Sound 
ports by strengthening infrastructure in the Strait of Juan De Fuca as 
our first line of defense before high risk vessels reach their port of 
final destination.
    The 2002 Washington State Legislature has provided another $1.4 
million in funding to provide 200 days of rescue tug service at Neah 
Bay during the period July 1, 2002 to June 30, 2003. We are offering 
the Federal Government an opportunity to leverage any additional 
funding it provides with the State monies.
    The Department of Ecology is working in partnership with the Port 
of Port Angeles and the Makah Indian Tribe's Port of Neah Bay to 
complete a port security grant application to MARAD that requests a 
portion of the $93 million available. In addition to the rescue tug, 
our partnership proposes important improvements for the ports of Port 
Angeles and Neah Bay. Among other improvements the proposal would 
enhance the ability of these ports to accommodate vessels that are 
detained by Federal authorities, improve security from unauthorized 
access, and at the same time improve berthing for large vessels. A 
summary of our partnership proposal is attached for your consideration.
    The State remains committed to maintaining the rescue tug at Neah 
Bay. Evidence of that commitment is provided by Governor Locke's 
attached letter to you, and the State Legislature's Senate Joint 
Memorial to Congress (SJM 8004) which is also attached.
    The Department of Ecology urges you to provide Federal funding to 
increase forward-deployed security assets in the Strait of Juan De Fuca 
to enhance the ability of Federal agencies to intervene in potential 
terrorist threats prior to those threats entering Puget Sound proper. 
The multi-mission Neah Bay Rescue Tug could play an important role in 
this effort.
    If you have any questions, please call me at (360) 407-7450.
            Sincerely,
                                               Dale Jensen,
     Program Manager, Spill Prevention, Preparedness, and Response 
                                                           Program.
                                 ______
                                 

          Federal Port Security Grant Application, April 2002

   improving the security of puget sound ports by strengthening port 
            security measures in the strait of juan de fuca
Background
    The Strait of Juan De Fuca is the entry point for all vessels bound 
for Puget Sound ports, refineries, Department of Defense facilities, 
and population centers. It is also the primary route for vessel traffic 
inbound to British Columbia ports through vessel traffic separation 
lanes in waters of the United States and State of Washington. The Port 
of Port Angeles is the first United States harbor in the Straits that 
can and routinely does accommodate deep draft vessels. Port Angeles is 
also the U.S. terminus for vehicle and passenger ferries from Victoria, 
British Columbia. The Port of Neah Bay, owned by the Makah Tribe is 
located near Cape Flattery at the entrance to the Strait of Juan De 
Fuca.
    In 2001, nearly 10,000 deep draft vessel transits carried over 15 
billion gallons of oil as cargo and fuel through the Strait of Juan De 
Fuca from ports from all over the world. Additionally, there were 1,814 
vehicle and passenger ferry transits occurred between Port Angeles, 
Washington and Victoria, British Columbia, Canada.
    The Straits are a point of entry to a number of critical national 
seaports including:
  --5 major crude oil petroleum refineries;
  --U.S. Naval facilities at Bangor, Everett, Bremerton, and the Oak 
        Harbor Naval Air Station;
  --The commercial ports of Seattle, Tacoma, Everett, Port Angeles, 
        Bellingham, Olympia, and others. These ports move: 
        containerized, bulk, break-bulk and ro-ro cargos; and are the 
        terminus for international vehicle and passenger ferries, and 
        cruise ships.
    Both Puget Sound and British Columbia sea ports handle a wide range 
and enormous volume of commodities.
    Given the need to ensure protection of this vital waterway from 
potential terrorist attack threat an up grading of our security network 
is required. This grant application is submitted as a partnership among 
the Port of Port Angeles, the Makah Tribe, and the Washington State 
Department of Ecology requesting a total of $1,095,000.
    There is a critical need to advance the security of Puget Sound. 
This proposal improves the ability of Federal security and defense 
jurisdictions to intervene in potential terrorist threats before they 
approach the major Puget Sound facilities. The Strait of Juan De Fuca 
should be the region's first line of defense, not a simple conveyance 
of vessels posing a potential threat. Early identification of risks and 
immediate intervention is the key. This local/tribal/State partnership 
improves the Federal Government's ability to intervene in potential 
threats prior to the threat entering Puget Sound proper.
    The Federal Government should not use the city and port of Port 
Angeles, Washington to detain and secure vessels that pose a terrorist 
threat without appropriate federally funded improvements.
    The Port of Neah Bay proposed dock improvements to enhance its 
ability to support port security operations including the Neah Bay 
Rescue Tug.
    The multi-mission Neah Bay Rescue Tug is an existing forward 
deployed 126 foot ocean tug whose current mission can easily 
accommodate port security applications. It also provides an opportunity 
for the Federal Government to leverage $1.4 million in money available 
from the State of Washington that will be used to deploy the tug for at 
least 200 days during the winter of 2002-2003.
Grant Application
    This Port Security Grants Program application is based on the 
security needs of Puget Sound seaports. This application is for a grant 
to finance the cost of enhancing facility security at the Port of Port 
Angeles and improve operational security in the Strait of Juan De Fuca 
through the Neah Bay Rescue Tug.
    The Port of Port Angeles proposes that grant monies be used to 
enhance ``Facility and Operational Security--including facility access 
control, physical security, and cargo security and passenger 
security''. The Port of Port Angeles' project should be considered as a 
demonstration project on how an international port can protect the 
nation by improving the management of passenger ferry traffic, as it 
did when the terrorist Amad Ressam entered Port Angeles via a ferry 
from Victoria, British Columbia. The Port would also provide a secure 
location for boarding and detaining vessels that pose a potential 
terrorist threats before they enter the highest threat portion of the 
waterway (in this case Puget Sound).
    The Department of Ecology has produced 2 reports on the Neah Bay 
Rescue Tug can be found at http://www.ecy.wa.gov/biblio/0208001.html 
and http://www.ecy.wa.gov/biblio/0008023.html. The reports evaluate and 
discuss the value of the tug in marine safety and security 
applications. The Neah Bay Rescue Tug should be used as a port security 
asset in addition to preventing vessel grounding due to propulsion and 
steering failures.
    The application partnership believe this proposal meets the 
attributes of protecting:
  --A ``strategic port'';
  --A nationally important economic port (in this case all Puget Sound 
        ports) responsible for a large volume of cargo movement or for 
        movement of products that are vital to U.S. economic interests 
        as required for national security; and
  --Ports and terminals responsible for movement of high volume of 
        passengers.
Proposal
    Specifically, the partners propose that grant monies would be used 
to improve the security of Puget Sound and its ports by strengthening 
security measures in ``gateway'' Strait of Juan De Fuca. This 
application proposes 2 sets of improvements:
    Obtain $500,000 in Federal port security grant monies to improve 
the Port of Port Angeles' ability to secure vessels diverted to Port 
Angeles harbor for inspection, and improve shore-side port property 
including improvements to facilities related to international ferry 
passenger/vehicle debarkation. The port proposes the following specific 
improvements inclusive of labor, equipment, and material:
  --Dock improvements including installation of mooring dolphins--
        $250,000;
  --Security fencing and lighting--$150,000; and
  --Gates, security cameras and other improvements--$100,000.
    Obtain $95,000 in Federal port security grant monies to improve the 
Makah Indian Tribe's Port of Neah Bay's ability to support larger 
vessels including the Neah Bay Rescue Tug.
  --Installation of mooring dolphins--$60,000; and
  --Electrical upgrades to 208V/3 Phase--$35,000.
    Obtain $500,000 in Federal port security grant monies to leverage 
the $1.4 million in State money that was provided by the Washington 
State legislature to station a rescue tug at Neah Bay, Washington for 
at least 200 days during the time period of July 1, 2002 through June 
30, 2003. The Federal grant monies would be used to extend the period 
the rescue tug is available and expand the contractor's (Foss Maritime, 
at this time) responsibilities to provide for its use by personnel from 
Coast Guard Station Neah Bay and other Federal law enforcement 
personnel. The State of Washington agrees to negotiate the contract for 
tug operation consistent with reasonable Federal security needs. All 
costs associated with managing tug's operation (excepting Federal 
security operations and personnel), including contract management, will 
be provided at no additional cost to the grantor. The bottom-line is 
that 100 percent of grant funds would be used to expand the mission and 
extend term of operation of the tug (including labor, equipment, and 
material) to:
  --Support the Sea Marshal boarding program allowing U.S. Coast Guard 
        Station Neah Bay personnel (and other law enforcement 
        personnel) to board vessels (considered by Federal authorities 
        to be high risk) at the entrance to the Strait of Juan De Fuca. 
        The tug is a large platform with good sea-keeping ability, 
        ``lots of steel'', heavy fendering, good maneuverability, and 
        the capability of closely approaching vessel in open water for 
        the boarding vessels.
  --Prior to entering Puget Sound waters, initiate the escort of 
        vessels that pose a potential security threat. Example of such 
        vessels could include those failing to make their 96 hour 
        advanced notice of arrival, or otherwise rank highly on the 
        threat matrix.
  --Reconnaissance of suspicious vessels in the vicinity of the 
        entrance to the Strait of Juan De Fuca, approximately 100 miles 
        west of Puget Sound proper.
    The applicants do not believe that further security assessments are 
needed in relation to these proposals. Further assessment would only 
delay implementation of the needed improvements and put Puget Sound 
Ports at additional risk. However, the applicants would involve all 
appropriate Federal, State, and local officials in the detailed design 
and implementation of the proposals. Vital to successful implementation 
will be input from the Immigration and Naturalization Service, and 
Customs in the Port of Port Angeles portion of the proposal and the 
Coast Guard and Navy in the Washington Department of Ecology portion of 
the proposal.
    The Coast Guard and Navy have implemented a number of measures on 
the outer coast and in Puget Sound since September 11, 2001. We 
understand that relatively little has been done to improve security in 
the Strait, in fact significant U.S. Coast Guard resources have been 
moved from Washington's coast into Puget Sound to enhance the port 
security mission. This has the potential effect of increasing the 
terrorist threat in the Strait. These are measures that have not been 
made public.
    The proposals set forth by the application partnership addresses 
three critical security vulnerabilities:
    1. Ability to isolate trucks and cars of potential international 
terrorists who have arrived in Port Angeles via the passenger and 
vehicle ferry from Victoria, British Columbia.
    2. Ability to secure high risk vessels at the Port of Port Angeles 
which have been detained as a posing a possible international terrorist 
threat.
    3. Improve the ability to observe, escort, and board suspicious 
vessels that may pose a threat of international terrorism by expanding 
the mission of the existing rescue tug stationed at the far Western 
entrance to the Strait of Juan De Fuca-Neah Bay.
    The benefits of the proposals include:
  --The applicants anticipate that there will be a considerable 
        outcomes of reduction in the of vulnerability of Puget Sound 
        ports by intervening in potential terrorist threats in the 
        Strait of Juan De Fuca. This allows for a proactive approach to 
        managing risks at the point of entry into waters of the United 
        States and the point of international ferry passenger 
        debarkation.
  --The entire Puget Sound basin first line of defense will not be 
        enhanced if the proposed measures are not implemented.
  --The Neah Bay Rescue tug has been in place during the last 4 
        winters. However, the contract for the tug does not currently 
        identify a port security mission. Should this application be 
        funded, the contract would be expanded to include the port 
        security mission.
  --The Port of Port Angeles has not had adequate funding to make 
        critically needed improvements since 9/11/01. The Port of Port 
        Angeles needs to improve a range of existing security measures, 
        including, but not limited to personnel access identification 
        procedures, access control, internal security, perimeter 
        security, security alarms/video surveillance/communication 
        systems, training and security awareness, and security plans, 
        if it is expected to play a significant role in being at the 
        front lines of protecting Puget Sound from the threat of 
        terrorist actions.
Expected outcome, and how the proposed methodology would improve/
        enhance national security
    Port security improvements at the Port of Port Angeles and 
improving the ability of Federal law enforcement agencies to interdict 
high risk vessels in the Strait of Juan De Fuca have obvious advantages 
to enhancing national security as discuss above.
Cost-sharing arrangements
     Grant monies for rescue tug would leverage the $1.4 million in 
State money that was provided by the Washington State legislature to 
station the tug at Neah Bay, Washington for at least 200 days during 
the time period of July 1, 2002 through June 30, 2003. The Federal 
grant monies would be used to extend the period the rescue tug is 
available and expand the contractor's (Foss Maritime, at this time) 
responsibilities to provide for its use by personnel from Coast Guard 
Station Neah Bay and other Federal law enforcement personnel. The grant 
monies could be provided directly to the Department of Ecology or 
through the Port of Port Angeles or possibly managed by the 13th 
District, U.S. Coast Guard.
Partnership and Qualifications
    The partnership consists of:
  --Port of Port Angeles--Contacts: Port of Port Angeles Executive 
        Director Clyde Boddy, and Deputy Executive Director David 
        Hagiwara.
  --The Makah Indian Tribes Port of Neah Bay--Contact: Bob Buckingham, 
        Port Manager, and the Honorable Gordon Smith, Tribal Council 
        Chairman.
  --Department of Ecology--Contacts: Program Manger Dale Jensen, and 
        Jon Neel.
    The Port of Port Angeles and Department of Ecology management teams 
have many years of experience in managing multi-faceted projects and 
would be happy to supply additional information upon request.
Project Timing
    All projects are anticipated to be completed within 12 months of 
receipt of funding with the exception of mooring dolphin construction 
which will be completed within 18 months of funding receipt.
                                 ______
                                 

 Prepared Statement of the Maritime Trades Department, AFL-CIO, Puget 
                          Sound Ports Council

    Maritime workers will be the ``first responders'' and bear the 
greatest casualties in the event of a calamity on the Puget Sound 
waterfront. Maritime trades workers include Longshoremen, Mechanics, 
Boilermakers, Marine Engineers, Electricians, Tugboatmen, Pile Drivers, 
Harbor Pilots, Port Police, Truck Drivers, Ship's Officers, Restaurant 
& Hotel Workers, Machinists, Plumbers and Pipe-fitters and Merchant 
Seamen of all ranks and ratings. Our personal safety and livelihoods 
will be directly affected by your decisions. It is appropriate that our 
voices are heard during the course of your deliberations.
    During the subcommittee hearings held in Seattle on April 4, 2002, 
Senator Murray urged all partners to ``step up'' and play their part in 
maintaining port security. Maritime workers have always been and will 
continue ``stepping up'' to the plate. However, if the problems ahead 
are to be adequately addressed workers must have input into the 
process.
    Specifically, maritime workers are concerned about the focus of the 
current deliberations. We believe that the focus should be where the 
threat is greatest. Our ports are at the very end of a complex 
transportation chain that originates overseas. Vast amounts of money 
are made transporting goods in and out of the United States. The 
demands for the ever more efficient flow of commerce should not inhibit 
changes that are necessary to protect U.S. ports and citizens.
    The focus for change should start at foreign points of origin, with 
international shippers who are shipping goods to U.S. ports and with 
ocean carriers that transport our trade. American seafarers have known 
for many years that adequate control and inspection of containerized 
cargo is virtually impossible under current practices.
    A typical large container ship may carry as many as 6,000 TEU's 
(``twenty-foot equivalent units''--the industry standard for 
containers). This size container vessel generates some 40,000 documents 
pertaining to the cargo. Although containers vary in size from the 
``twenty foot'' industry standard to other larger lengths including, 
forty and forty-five foot units, even small container vessels carry 
upwards of five-hundred to seven hundred containers or ``boxes.'' 
Except as limited by the size of a container and absent adequate 
scrutiny of information at the point of origin, anything can be shipped 
into United States ports.
    At present, shipboard and port safety is dependent on the honesty 
of shippers and carriers. It is estimated that in 2001 some 9 million 
TEU's arrived in U.S. ports by sea. That works out to 17,000 actual 
boxes per day. More arrive every day by truck or train from Canada. 
Maintaining this tremendous flow of cargo could hardly be accomplished 
if every container and manifest was inspected.
    However, scrutiny of shippers and carriers is absolutely necessary. 
Data banks on shippers and carriers need to be developed. Cargo 
profiles must be established to identify suspicious shipments. This 
must be done at the point of origin rather than at the destination in a 
U.S. port. Shippers and their agents and consignees, freight 
forwarders, logistics suppliers and transportation intermediaries must 
be held legally responsible to provide accurate cargo data. Ocean 
carriers need to be examined to ascertain responsible parties. All 
could be gradually certified as a prerequisite to continued business 
operations in this country. Entry into our commercial markets is a 
tremendous opportunity. The privilege should entail responsibility from 
shippers and ocean carriers alike.
    A recent New York Times article (October 8, 2001) noted that the 
Al-Qaeda owned a fleet of merchant vessels hidden under various flags 
of convenience. Every day, vessels enter our ports whose owners are 
virtually anonymous. Anything from illegal immigrants, contraband or 
explosive devices can be carried aboard these vessels. Much has been 
said since September 11 regarding background checks for U.S. citizen 
workers who make their living in the maritime industry. We are calling 
for background checks and certification for the shippers and ocean 
carriers who choose to bring their business into our ports.
    Fly-by-night ship owners, operators and shippers are endemic in the 
international maritime industry. The focus should start on these 
entities if we are serious about port security.
    Regarding container shipments, it is obvious to anyone who has 
worked aboard ship or at a marine terminal that empty, unsealed 
containers represent a potential security hazard. No container should 
be loaded aboard ship unless it is sealed and certified by a 
responsible party as empty. Loaded, sealed containers must have 
accurate descriptions of their contents in appropriate manifests. The 
data must be certified by responsible parties in the transportation 
chain.
    The United States Coast Guard has regulated most of the vessel-
operating personnel represented by our organization for many years. Our 
members are among the most highly regulated workers in America. 
Background checks and stringent training requirements for U.S. Coast 
Guard documented personnel are not new. What is disturbing is that (i) 
there is an irrational and unwarranted urgency to extend this condition 
to American citizen shore-side workers, and (ii) there is no apparent 
urgency to extend equivalent requirements to the hundreds of foreign 
seafarers who every day bring dozens of foreign-flag vessels in and out 
of United States ports.
    We are concerned that American maritime workers and United States 
flag employers will be burdened with more regulations, while the rest 
of the industry carries on with business as usual. Recent events bear 
this out.
    In February of this year the U.S. Coast Guard created a double 
standard by delaying the enforcement of internationally agreed training 
standards for foreign seafarers working in U.S. waters. These standards 
established by the International Maritime Organization (``IMO'') are 
known as Standards of Training, Certification and Watchkeeping for 
Seafarers, 1995 (known as ``STCW95''). After intense pressure from the 
international maritime community, foreign seafarers in U.S. ports were 
exempted from these regulations for at least 6 months. At the same time 
the U.S. Coast Guard is enforcing these requirements for American 
seafarers. Although this is a training issue as opposed to a security 
issue, there is little doubt among mariners that American seafarers 
will continue to be given the highest degree of regulation and 
scrutiny, be it training or security, while our foreign competitors 
will continue on unhindered.
    Shore-side workers should not be subject to onerous background 
checks and security regulations at this point of time when just about 
any foreign interest can ship unspecified goods into or operate 
anonymously owned vessels in U.S. waters. This contradiction has been 
not been addressed in any of the discussions that this organization has 
heard, much less participated in.
    If the question of why there is a double standard has become moot 
by the course of events, then at least American standards of due 
process must be maintained. Logically, waterfront workers are part of 
the solution rather than part of the problem. Our workers are better 
placed than most to determine who does not belong in, around and aboard 
our workplaces. Instead, we are the first to be considered potential 
suspects. We are deeply concerned that the new regulatory scheme will 
have the potential to deny many of our workers their livelihoods 
without due process and without contributing one iota to increased port 
security.
    Any background checks of maritime workers should be carefully 
tailored to promote port security against terrorism and crime. 
Incumbent workers with several years of service should be exempted from 
new requirements. In all cases in which background checks lead to 
questions of disqualification from employment the right to a hearing 
with due process protections including the right to a hearing, 
representation, a presentation of the facts upon which the 
disqualification is based and an appeal process must be included. If 
maritime workers are to be investigated in this manner then all others 
who have free access to cargo and ship manifests should be similarly 
scrutinized. Anything less would make a mockery of the legislative 
intent regarding port security.
    In the greater picture, true port security, would mean national 
maritime security. We are the world's greatest trading nation, yet we 
carry less than three percent of our ocean-going foreign trade aboard 
American-flag vessels. No great trading nation in history has allowed 
itself to be as dependent on foreign shipping interests as the United 
States currently is. Our economic and military security, let alone our 
port security are primarily dependent on foreign ocean carriers, 
foreign seafarers and foreign shipping interests. It is strange that 
the focus of the ``port security'' discussions seems to on criminal 
background checks for a relative handful of U.S. citizen longshoremen 
when any one of hundreds of thousands of international shippers can 
load just about anything into a container bound for a United States 
port.
    Our Federal Government should be focusing on a comprehensive 
maritime policy that promotes the U.S. flag shipping and an even 
playing field for all players in the transportation chain. Bona fide 
foreign carriers and shippers should be certified and held to the same 
standards of responsibility as their American counterparts. This should 
be a condition of having access to our ports. Ultimately, United States 
flag, citizen-crewed ships, which carry a reasonable proportion of U.S. 
foreign trade, is the best protection of our maritime as well as our 
port security. Security is dependent on self-reliance. Port security is 
an extension of maritime security. We cannot reasonably expect to have 
either if our foreign trade is for all practical purposes carried and 
controlled by foreign interests.
    Thank you for considering these thoughts.
                                 ______
                                 
   Prepared Statement of the National Bureau of Asian Research (NBR)
    Like the majority of States around the country, Washington faces 
the tremendous challenge of implementing new security measures that 
respond to homeland defense issues since September 11 while struggling 
with budget shortfalls. (The National Governors Association has 
estimated a fiscal year 2002 State budget shortfall of between $40 
billion and $50 billion.) Unlike many States, Washington has an 
extremely high need for vigilant homeland protection due to:
  --Crucial seaports, which ensure the economic lifeblood of the State 
        but also serve as the point of entry for potential threats to 
        the United States from the Asia Pacific region;
  --Already identified threats, such as the attempt of a documented 
        terrorist to enter the State with a carload of explosives 
        intended for a terrorist act at the L.A.International Airport;
  --Exposed territorial borders with Canada;
  --Strategic U.S. military bases, including a strategic naval 
        submarine base;
  --Critical private sector assets, including Boeing and Microsoft;
  --Nuclear power plant and storage facilities;
  --Populations centers with globally recognized urban architecture;
  --Vulnerability to ballistic missiles from Northeast Asia; and
  --Important dams and bridges essential for our energy, agricultural, 
        and transportation needs.
    The State's public and private leaders now must determine how best 
to protect their citizens and these assets against possible future 
terrorist attacks. Through the allocation of assistance funds, the 
Federal Government is beginning to help the States to ease the budget 
shortfalls that might impede effective solutions. Starting in October, 
the Federal Government will allocate $3.5 billion to enable the States 
to effectively manage homeland defense efforts, most notably through 
the allocation of funds from the Federal Emergency Management Agency 
and Department of Justice grants. Given the vital strategic assets in 
Washington State, a large constituency of public and private interests 
must be part of the debate on how this Federal assistance is used. In 
preparation to receive these Federal allocations, Washington State must 
develop a concerted plan to determine how these disparate groups can 
all contribute to the homeland security debate to ensure that the 
Federal funds are used effectively, flexibly, and accountably.
    Although it is human nature to look for one easy solution, no such 
solution exists for a national strategy toward homeland security. While 
measures such as electronic seals to prevent tampering with containers, 
gamma-ray inspection systems to examine containers, vehicles, and 
trucks, and passenger background checks for aircraft and cruise ships, 
are integral to a comprehensive and effective security program, there 
is no single technology--no ``silver bullet'' solution--to ensure 
security. An integrated effort among Federal, State, local, and private 
sector interests is critical.
    This integrated approach should provide a forum for and 
coordination of interests from public and private sector constituents 
to address how the Washington State can:
  --Understand, track, and monitor security threats to the State and 
        region, many of which are likely to originate in the Asia 
        Pacific;
  --Explore options for protecting the State's interests against those 
        threats;
  --Examine the perceptions of our major trading partners toward the 
        State's security measures;
  --Analyze the potential impact to the State's economy of adopting new 
        port security measures;
  --Provide a forum for public and private sector officials to think 
        through the strategic consequences of new policies being 
        implemented locally by U.S. Customs, U.S. Coast Guard, FBI, 
        INS, and the Transportation Security Agency;
  --Develop innovative approaches for the State Executive and 
        Legislative branches to share security-related information with 
        Federal agencies as required;
  --Establish a ``community of interest'' for networked access to 
        independent and government analyses, roundtable discussions, 
        and coordinated posting of critical State policies and 
        decisions to all State web pages (as directed);
  --Host seminars, discussion groups, and roundtables to facilitate 
        timely communication among diverse State and local constituents 
        on emerging issues of interest; and
  --Work with State officials to develop an approach to ``Threat 
        Forecasting'' for use within the State--to communicate risks to 
        citizens, to respond to alerts from the U.S. Homeland Security 
        Office, and to establish a database permitting longer-term 
        pattern analysis of what kinds of threats the State and Pacific 
        Northwest are facing.
    The National Bureau of Asian Research (NBR) has identified three 
approaches the State might take to accomplish these goals.
(1) The Homeland Security Model
    Using this model, all coordination is accomplished from the top 
down, whereby the Federal Office of Homeland Security transmits goals 
and activities to Washington State's homeland defense representative, 
Adjutant General Timothy Lowenberg. This is the model that has been in 
use in the seven and a half months since the terrorist attacks, and, 
while it has been an invaluable first response, the wide range of 
specific vulnerabilities of Washington State dictate that security 
solutions must originate from the bottom up. In recent testimony before 
Congress and in press releases, Washington's Governor Gary Locke and 
governors from around the country have expressed concern that the top-
down method leaves State and local leaders without the necessary access 
to Federal intelligence and understanding of real threats. Federal 
coordination of homeland security is a necessity, but, in order to 
effectively respond to the specific needs of Washington, solutions must 
be indigenous to the State.
(2) The 1962 Federal-Aid Highway Act Model
    In testimony before the House Subcommittee on Economic Development, 
Public Buildings, and Emergency Management of the Committee on 
Transportation and Infrastructure, Randall Yim, director of National 
Preparedness, proposed the need for regional agreements whereby a 
``State shares services, personnel, supplies, and equipment with 
counties, towns, and municipalities within the State, with neighboring 
States, or, in the case of States bordering Canada, with jurisdictions 
in another country'' (GAO-02-62IT). In support of this testimony, Mr. 
Yim identified the 1962 Federal-Aid Highway Act as a model that might 
aid regional cooperative planning and coordination of security. Yim 
emphasized the importance the Federal program gives to the role of 
State and local officials in developing a plan to meet regional 
transportation needs. The model continues to be in use in the 
Transportation Equity Act for the 21st Century (TEA-21) program. This 
model could be applied to Washington State's homeland defense efforts 
by involving the relevant public and private organizations and 
interests groups (i.e., the Ports, the U.S. military services, the 
Coast Guard, INS, Customs, British Columbia/Canadian officials, etc.) 
in cooperatively planning and coordinating regional security.
(3) Northwest Security Studies Institute Model
    NBR proposes that the State of Washington and its private sector 
create a Northwest Security Studies Institute (NSSI). NSSI will be the 
State's think tank, where the strategic implications of public and 
economic security policies may be analyzed, debated, and communicated 
among the State's public and private sector constituents. NSSI will 
leverage the well-established expertise of the Seattle-based National 
Bureau of Asian Research, whose analyses of Asian economies, politics, 
and political-military capabilities have been instrumental to 
investment planning of the State's private sector and strategic 
planning of the U.S. Pacific Command in addition to policy planning 
within the executive branch and Congress. NBR also has extensive 
experience in balancing security concerns with the need to encourage 
trade. The NSSI concept would create an independent forum to enable 
Federal, State, and local officials and private sector representatives 
to jointly define a common strategic approach to public and economic 
security planning. By establishing a non-profit think tank through NBR, 
State and local government authorities and private sector officials 
will have access to scholars and analysts with proven track records in 
strategic threat assessments, national security policy perspectives, 
and Asian regional studies.
    Regardless of the ultimate model, or hybrid, employed, the State of 
Washington does not need to create a new public agency to implement 
security efforts. All the capabilities and personnel are already here. 
Strong and effective local and State leaders want to make a difference 
and are working effectively to coordinate with Federal administrators. 
The State is the home to a robust community of nonprofit organizations, 
and the local private sector is eager to assist in efforts to ensure 
the security of the State's citizens and trade infrastructure. As 
Washington State's public and private leaders develop indigenous and 
sustainable homeland security measures they must discourage the 
replacement of State funds with Federal monies and they must understand 
that security solutions will unavoidably entail the intersection of 
concerns from the local, State, regional, and national levels.
    Above all, the crucial balance will be in ensuring that these 
security measures are not implemented in a vacuum. The State of 
Washington faces a real need to protect its citizens and borders in a 
way that also protects the sustainability and profitability of the 
economy. Foreign trade is a fundamental lifeline of the economy, and 
understanding the threats from and the perspectives and sensitivities 
of the State's commercial trading partners is a top priority.

                         CONCLUSION OF HEARING

    Senator Murray. This subcommittee now stands in recess 
until Tuesday, April 16th, when we will hear testimony from the 
Federal Aviation Administration.
    [Whereupon, at 4:20 p.m., Thursday, April 4, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre></body></html>
